<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, MARCH 1, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Hoeven.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. STEPHEN T. AYERS, ARCHITECT OF THE 
            CAPITOL


                opening statement of senator ben nelson


    Senator Nelson. This is our first hearing of fiscal year 
2013 and I want to start by welcoming my Ranking Member Senator 
Hoeven who will be joining us shortly. He's on the floor.
    As everyone in this room knows, the bill we passed last 
year reflected the very tough spending decisions that had to be 
made and I want to thank him, and I haven't personally before, 
for working with me and working together as well as we were 
able to do, better than I think most people could have ever 
expected. I'm looking forward to also working closely again 
this year to pass the legislative branch bill that funds the 
priorities of our agencies and also reflects the tight budget 
constraints under which we're unfortunately still operating, as 
well as, of the sequestration process.
    So, I want to welcome the other members: Senators Tester, 
Brown, and Senator Graham.
    Senator Nelson. So, we're here again, faced with similar 
funding constraints, difficult times; people back home wanting 
less Government, but very often more services, of course. We're 
operating with similar funding constraints and equally tough 
decisions again. But we welcome the testimony today and in the 
weeks to come on the fiscal year 2013 budget request as we 
review personnel, programmatic, and construction needs.
    Today, we'll receive testimony on the fiscal year 2013 
budget requests from the Architect of the Capitol (AOC); the 
Library of Congress (LOC); Open World Leadership Center (OWLC); 
and the Office of Compliance (OOC). I want to welcome our four 
witnesses today: Stephen T. Ayers, the Architect of the 
Capitol; Dr. James Billington, Librarian of Congress; 
Ambassador John O'Keefe, Executive Director of the Open World 
Leadership Center; and Tamara E. Chrisler, Esq., Executive 
Director of the Office of Compliance.


                    fiscal year 2013 budget request


    It's good to have each of you here this afternoon. Mr. 
Ayers, your budget request this year totals $668 million, an 
increase of $101 million or 17.7 percent more than the current 
fiscal year funding. Now, this probably comes as no surprise 
that no other legislative branch agency has this level of 
increase in their budget request. Understandably, the majority 
of your proposed increase, 46 percent is for capital 
construction projects, and much of that funding is just 
absolutely necessary to keeping our campus operating safely, 
and efficiently as well, and we understand that. You have two 
large ticket items on your agenda for fiscal year 2013--Phase 
II of the Capitol dome rehabilitation and the beginning of 
Phase II of the Capitol Power Plant chiller system replacement.
    Obviously, there are going to be some very tough decisions 
before us. If we're going to embark on these major rehab 
projects, we're going to have to look for savings in some other 
places wherever we can, not only within the AOC budget, but 
also across other agencies in an effort to contain the overall 
funding levels of this bill.
    Dr. Billington, I want to welcome you again and your Chief 
of Staff, Robert Dizard, Jr. This past year we were saying 
goodbye to Congressional Research Service (CRS) Director Dan 
Mulhollan after 42 years of service to the Congress. It appears 
from the seats behind you that the LOC has had a few more 
changes during this past year. The LOC's fiscal year 2013 
request totals $603.6 million, an increase of $16.2 million or 
2.8 percent more than the fiscal year 2012 enacted level. I 
understand the requested increase in funding would cover 
mandatory pay-related items and price level increases and would 
restore the funding level of the Copyright Office to the fiscal 
year 2012 rescission level, and would provide $1.7 million to 
the LOC to complete the transfer of special format collections 
in modules 3 and 4 at Fort Meade.
    I also want to welcome Ambassador O'Keefe of the OWLC. Your 
budget request totals $10 million, a freeze at the fiscal year 
2012 enacted level. I strongly support the work of OWLC as 
you--the Ambassador--and Dr. Billington know. As the OWLC has 
sustained the largest reduction in fiscal year 2012, I 
appreciate the fact that you're willing, in a sense, to do more 
with less even now. I look forward to your testimony as we 
consider these numbers.
    Ms. Chrisler, the fiscal year 2013 budget request for the 
OOC totals $4.2 million, an increase of $389,000, or 10 percent 
more than the current year. We appreciate the services that the 
OOC offers to both the employing offices and employees of the 
legislative branch. We look forward to your testimony and to 
discussing the services that your office provides within the 
tight budget constraints.
    I'll turn to the Ranking Member, Senator Hoeven, my good 
friend, for his remarks when he arrives here to join us.


                           prepared statement


    I'd like to begin with the witnesses. I know we always try 
to ask everybody to hold opening statements to about 5 minutes, 
and if you could then submit the rest of your statement for the 
record.
    Mr. Ayers, we'll start with you then we'll hear from Dr. 
Billington, Ambassador O'Keefe, and last but not least, Ms. 
Chrisler.
    [The statement follows:]
                Prepared Statement of Senator Ben Nelson
    Good afternoon everyone and welcome.
    This is our first hearing of fiscal year 2013 and I want to start 
by welcoming my Ranking Member, Senator Hoeven. As everyone in this 
room knows, the bill we passed last year reflected the very tough 
spending decisions that had to be made, and I want to thank Senator 
Hoeven for working with me throughout the entire process. I'm looking 
forward to working closely together again this year to pass a 
legislative branch bill that funds the priorities of our agencies but 
also reflects the tight budget constraints under which we are still 
operating. I also want to welcome the other members of the 
subcommittee: Senator Tester, Senator Brown, and Senator Graham.
    So, we are back here again this year, faced with both similar 
funding constraints as last year, and equally tough decisions. We 
welcome the testimony today and in the weeks to come on the fiscal year 
2013 budget requests as we review personnel, programmatic, and 
construction needs. Today, we will receive testimony on the fiscal year 
2013 budget requests from the Architect of the Capitol (AOC); the 
Library of Congress (LOC); the Open World Leadership Center (OWLC); and 
the Office of Compliance (OOC). I want to welcome our four witnesses 
today:
  --Stephen T. Ayers, Architect of the Capitol;
  --Dr. James Billington, Librarian of Congress;
  --Ambassador John O'Keefe, Executive Director of the Open World 
        Leadership Center; and
  --Tamara Chrisler, Executive Director of the Office of Compliance.
              <greek-l>aoc deg.fiscal year budget requests
    It is good to have each of you here this afternoon.
    Mr. Ayers, your budget request this year totals $668 million--an 
increase of $101 million or 17.7 percent more than the current year. No 
other legislative branch agency has this level of increase in their 
budget request. Understandably, the majority of your proposed 
increase--46 percent--is for capital construction projects, and much of 
that funding is to keep our campus operating safely and efficiently. 
And you have two large ticket items on your agenda for fiscal year 
2013, Phase II of the Capitol dome rehabilitation; and the beginning of 
Phase II of the Capitol Power Plant chiller system replacement. 
Obviously, there are going to be some very tough decisions before us, 
and if we are going to embark on these major rehab projects, we are 
going to have to look for savings in other places not only within the 
AOC but also across the other agencies of the legislative branch in an 
effort to contain the overall funding levels of this bill.
    Dr. Billington--I want to welcome you and your Chief of Staff, 
Robert Dizard Jr. This time last year, we were saying goodbye to 
Congressional Research Service Director Dan Mulhollan after 42 years of 
service to the Congress. It appears from the seats behind you that the 
LOC has had a few more changes in the past year.
    LOC's fiscal year 2013 request totals $603.6 million, an increase 
of $16.2 million or 2.8 percent more than the fiscal year 2012 enacted 
level. I understand the requested increase in funding would cover 
mandatory pay-related items and price level increases, would restore 
the funding level for the Copyright Office to the pre-fiscal year 2012 
rescission level, and would provide $1.7 million for LOC to complete 
the transfer of special format collections to Modules 3 and 4 at Fort 
Meade.
    I also want to welcome Ambassador O'Keefe of the OWLC. Your budget 
request totals $10 million--a freeze at the fiscal year 2012 enacted 
level. I strongly support the work of OWLC, and as the agency that 
sustained the largest percentage reduction in fiscal year 2012, I 
appreciate the fact that you are willing to do more with less. I look 
forward to hearing your testimony.
    Ms. Chrisler, the fiscal year 2013 budget request for OOC totals 
$4.2 million--an increase of $389,000 or 10 percent more than the 
current year. We appreciate the services that your agency offers to 
both the employing offices and the employees of the legislative branch. 
We look forward to your testimony and to discussing the services your 
office provides within the tight budget constraints.

                  SUMMARY STATEMENT OF STEVEN T. AYERS

    Mr. Ayers. Thank you, Mr. Chairman, and good afternoon.
    Thank you for the opportunity to testify today regarding 
our fiscal year 2013 budget request. Our mission is to serve 
the Congress and the American people as well as to maintain the 
historic buildings entrusted to our care. We know first-hand 
the challenges associated with preserving these historic 
buildings and we have considerable experience in planning for 
our future requirements.
    However, despite our best efforts to anticipate and make 
needed repairs, as our buildings continue to age, they've 
become more difficult and costly to maintain. Making necessary 
improvements requires significant investment, and today our 
backlog of deferred maintenance and capital renewal work is 
more than $1.6 billion.
    As we've developed this budget, we prioritized our efforts 
to ensure that every resource goes toward the most needed work, 
realizing that we must balance our stewardship responsibilities 
with fiscal responsibility. I also realize, Mr. Chairman, that 
it's my responsibility to find ways to work faster, smarter and 
cheaper and our efforts this year have resulted in a few cost 
savings.

                <greek-l>AOC deg.OVERTIME/WORK SCHEDULES

    First, we reduced our overtime costs last year by 22 
percent, while maintaining service levels and response times. 
We have done this by adjusting employee work schedules and 
assigning newly hired employees to alternate work schedules. 
Second, we implemented temporary, targeted hiring freezes; 
delayed filling vacant positions; and eliminated 15 positions 
and another 6 part-time rehired annuitants, allowing us to 
reinvest those resources in our deferred maintenance backlog.
    We've also looked at our information technology (IT) 
operations and consolidated our servers from 200 to 10, saving 
more than $220,000. This reduced energy consumption, space 
requirements, and maintenance costs. We're also working to 
reduce energy consumption and water consumption across the 
Capitol campus because saving energy and water saves money. We 
reduced energy consumption significantly, which resulted in 
$2.5 million of cost avoidances just last year.
    In addition, we've implemented a free cooling process at 
our Power Plant, yielding another $500,000 in savings last year 
alone. As a result of these savings and others, we've reduced 
our budget request for capital projects to $161 million, which 
is a 10-percent decrease from our request last year. Nearly $50 
million of this funding goes toward projects that specifically 
address the most critical life-safety, infrastructure, and 
security needs of the Capitol campus.

                <greek-l>AOC deg.PROJECT ADMINISTRATION

    For fiscal year 2013, we're recommending that nearly $203 
million in necessary work, nearly 60 projects, be deferred to 
another year. This is a calculated risk because the longer 
these projects are delayed, obviously the more they're going to 
cut cost down the road.
    As stewards of the Capitol campus, we're committed to 
working with the Congress to ensure that the proper investments 
are made in the facilities at the most appropriate times. In 
doing so, we will ensure together that our national treasures 
are preserved for generations.

                           PREPARED STATEMENT

    Mr. Chairman, thanks to everyone on the AOC team, we've 
made great strides last year. It's been a very good year for 
us. We've delivered more projects on time and on budget than we 
ever have in our history. And in doing so, we are effectively 
managing the resources that the Congress and the taxpayers 
provide.
    This concludes my statement. I'd be happy to answer any 
questions you may have.
    [The statement follows:]
         Prepared Statement of Stephen T. Ayers, FAIA, LEED AP
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for the opportunity to testify today regarding the Architect 
of the Capitol's (AOC) fiscal year 2013 budget request.
    AOC's core mission is to serve the Congress and the American people 
as well as preserve and maintain the historic facilities entrusted to 
our care. We know first-hand the challenges associated with preserving 
these historic buildings, and we have much experience in anticipating 
and planning for future requirements to ensure that future generations 
will continue to be inspired by their United States Capitol and all of 
the history that it holds.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Despite our best efforts to anticipate and make needed repairs, as 
these facilities continue to age, they become more difficult to 
maintain, building systems such as the plumbing and heating are 
beginning to fail in the oldest office buildings, and installing the 
most up-to-date technology has proven challenging. Making the necessary 
improvements and upgrades to congressional facilities will require 
significant investment.
    We appreciate the Congress' support of our efforts over the past 
several years to improve the buildings and infrastructure on Capitol 
Hill, however, the number of pressing needs continues to grow as the 
availability of Federal dollars becomes more constrained.
    Therefore, in developing this budget request, we worked to 
prioritize our efforts to ensure that every resource goes toward the 
most needed and most important work, realizing that we must balance our 
stewardship responsibilities with fiscal responsibility. For fiscal 
year 2013, our responsibilities will also include two very staff- and 
resource-intensive activities--preparing for the Presidential Inaugural 
ceremony, and orchestrating the postelection office moves in the House 
and Senate.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    As stewards of our national treasures, it is my duty to put forth a 
reasonable budget that I believe will best meet the need of our aging 
infrastructure. This awesome responsibility has led me to request an 
increase in my budget during fiscally challenging times; and not doing 
so, I believe, would be irresponsible. We are requesting $668.2 
million, a 5 percent decrease from the fiscal year 2012 request.
    However, I found that the key to balancing all of these 
responsibilities is to put forth our request in a prioritized way that 
provides the Congress with the information they need to make sound and 
knowledgeable decisions to align our budget with available fiscal 
resources. We believe we have done that with this budget request.
             realizing significant efficiencies and savings
    It is my additional responsibility to find ways of working faster, 
smarter, and cheaper. We believe we are leading by example by becoming 
more efficient in an effort to save taxpayer money. These efforts are 
both large and small and most of these efforts resulted in significant 
cost avoidances, that is, by doing things more efficiently, we were 
able to reduce the costs of carrying out daily operations, programs, or 
projects.
    We are using innovative ideas, such as engaging cross-functional 
teams, to implement best practices to help us become more efficient in 
our operations, drive quality improvements, and further enhance 
efficiencies and reduce costs. The following are examples of the 
efficiencies the AOC realized during fiscal years 2011 and 2012.
  --We implemented an agency-wide effort to reduce overtime while 
        maintaining service levels and response times. We were able to 
        accomplish this by adjusting existing employee work schedules 
        and hiring new employees to work alternate schedules (versus 
        the traditional Monday-Friday work week). We were therefore 
        able to provide suitable weekend coverage; reducing our 
        overtime costs in fiscal year 2011 by 22 percent. This was 
        especially noteworthy given the extraordinary manpower 
        requirements of the postelection congressional office moves.
  --We implemented targeted hiring freezes, delayed filling vacant 
        positions, eliminated positions, and reduced the number of 
        temporary employees and annuitants among our ranks, thereby 
        allowing us to reinvest our resources in Deferred Maintenance 
        and Capital Renewal projects.
  --We reviewed all of our subscriptions to print and online 
        publications and cut those that were unneeded or underutilized. 
        This effort yielded nearly $50,000 in annual cost savings.
  --In some of our jurisdictions, we evaluated several leases and 
        either relocated leased operations to more cost effective/
        smaller locations, or re-competed the lease to reduce costs. 
        This resulted in immediate- and long-term cost avoidances 
        totaling more than $1 million.
  --In July and August 2011, on excessively hot days when there was a 
        high demand on the power grid, AOC implemented its load-
        curtailment procedures. These days are called ``Gold Days''. 
        Observing them helps reduce demand on the electric grid during 
        high demand periods and helps reduce utility costs to the AOC. 
        Members' offices played a role in observing Gold Days by 
        turning off nonessential lighting and office equipment. In 
        addition, AOC dimmed hallway lights and shut down decorative 
        water fountains.
  --We have found significant savings by taking a critical look at our 
        information technology services. By using virtual server 
        technology, we reduced the number of physical servers from 200 
        to 10. This reduced energy consumption, space requirements, and 
        maintenance costs. We also standardized and consolidated our 
        platform software, which reduced maintenance and support costs. 
        In all, we saw more than $220,000 in annual savings and 
        improved our IT equipment reliability.
    Accomplishing these efforts through more effective means also 
provided an extra benefit to the Congress and to the American people; 
AOC was able to reinvest resources in important Deferred Maintenance 
and Capital Renewal projects. To give one example, we reinvested funds 
saved through our energy reduction efforts into the initial planning 
and design for the Cogeneration and West Refrigeration Plant projects 
in fiscal year 2011. Therefore, AOC was able to reduce its budget 
request for capital projects in fiscal year 2013 to $161 million, a 10 
percent decrease from the fiscal year 2012 capital projects request.
    Nearly $50 million of this funding will go toward addressing 
Deferred Maintenance projects. And, the 16 capital projects on the 
fiscal year 2013 Recommended Line Item Construction list specifically 
will address the most critical life-safety, infrastructure 
preservation, and security needs. In the most difficult of economic 
times, we must continue to correct deficiencies and prevent facility or 
system failures. The key is to prioritize these projects to ensure 
every taxpayer dollar goes toward the most important work.
                  project planning and prioritization
    Over the past several years, we have refined our dynamic project 
prioritization process, which has contributed to our ability to 
identify and communicate to the Congress the urgent need to invest in 
the historic and iconic buildings and infrastructure, and the resulting 
risks if these needs are not addressed.
    AOC's Project Planning and Prioritization Process ranks every 
necessary project using the conditions of the facilities and the 
anticipated urgency with which we need to provide the levels of 
investment and maintenance required to ensure they remain safe, 
functional, and secure. The first priority, of course, is to ensure the 
health and safety of all those who work in and visit the Capitol 
campus. This ``triage'' process for facilities identifies the most 
serious issues first, which we assess carefully to develop solutions to 
fix the problems while also addressing necessary life-safety issues, 
security requirements, energy-savings opportunities, and historic 
preservation measures. We take the same approach in meeting our 
clients' needs, however by placing a priority on fixing existing 
deficiencies and Deferred Maintenance; new construction projects are 
often postponed.
    We have several tools that we use to assess which facilities need 
emergency care versus those that can be nursed along until funding 
becomes available to address specific Deferred Maintenance or Capital 
Renewal projects in those particular buildings. These tools include 
Facility Condition Assessments, the Capitol Complex Master Plan, 
Jurisdiction Plans, and the Five-Year Capital Improvements Plan, which 
examines phasing opportunities, project sequencing, and other factors 
to better facilitate the timing of the execution of major Deferred 
Maintenance and Capital Renewal projects.
    Our comprehensive prioritization process rates projects on a number 
of objective factors to produce an overall hierarchy of importance. 
During this process, projects are classified by type and urgency. The 
projects are then scored against six criteria:
  --safety and regulatory compliance;
  --security;
  --historic preservation;
  --mission;
  --economics; and
  --energy efficiency and environmental quality.
    We then compile these scores to produce a composite rating 
consisting of classification, urgency, and project importance and we 
also apply a criticality and risk decision model to the overall 
prioritization list to filter which ones are included in our annual 
budget request.
    To provide us with a long-term, strategic look ahead to queue up 
priorities, investments, and projects, we use the Capitol Complex 
Master Plan. This past year we have worked to finalize an updated 
Master Plan that looks ahead 20 years and assesses the present physical 
condition and capacities of the buildings within the Capitol campus 
within the nine associated Jurisdiction Plans. These plans help us make 
future decisions about facility renewal requirements and new projects. 
For example, there may be instances where major, whole building 
renovations should be undertaken rather than a myriad of smaller 
projects, such as the planned Cannon House Office Building Renewal 
project. Renewals are more cost effective for implementing a variety of 
necessary improvements as they avoid having to re-enter a space several 
times to perform different types of work.
    Finally, our Five-Year Capital Improvements Plan helps us meet 
several goals by analyzing all of the facility requirements, grouping 
them into logical and economical sequencing and phasing, prioritizing 
the resulting requirements using a set of objective criteria, and 
establishing measurable outcomes. Through this prioritization process, 
we work to document current and future needs and identify ways to 
seamlessly integrate those needs with modern-day code, security, 
technology, and sustainability opportunities. The Five-Year Capital 
Improvements Plan also provides outcomes showing the results if work is 
performed as planned and the resulting outcomes and risks if work is 
not performed.
    Over the past several years, the Congress has been very supportive 
of AOC's efforts to address critical Deferred Maintenance projects. 
However, it is important to acknowledge that there is a growing threat 
that must be faced--a very large number of Deferred Maintenance and 
Capital Renewal projects that remain to be addressed. For fiscal year 
2013, we are recommending that an additional $202.6 million in 
necessary work be further deferred to a later fiscal year due to the 
austere budget environment. This is a calculated risk. AOC continues to 
carefully monitor and maintain the facilities and systems to minimize 
the risk of catastrophic failure. We also continue to monitor the large 
number of Capital Renewal projects that remain unaddressed.
    As demonstrated in the following Facility Condition Index (FCI) 
charts comparing fiscal year 2010 and fiscal year 2011, the Congress 
has provided significant funding over the past several fiscal years, 
which has been directed to help repair the infrastructure of several 
facilities, which in turn has improved their overall conditions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    However, while several facilities have trended beyond a ``good'' 
condition, we have found over the past year that several of the 
facilities that are now rated as ``fair'' or ``poor'' are getting far 
worse due to continued deterioration. This trend is more evident in the 
projected FCI information provided in the following Capitol campus 
illustrations, which demonstrate how the conditions of each of the 
congressional facilities will continue to worsen over the next 5 years 
as compared to today. (The fiscal year 2016 illustration shows the 
facility condition changes with no additional investments made after 
fiscal year 2012.)
      Fiscal Year 2011 Facility Condition Index (FCI) by Facility
           (Incorporated projects funded in fiscal year 2012)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Fiscal Year 2016 Facility Condition Index (FCI) by Facility


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The longer Capital Renewal projects are delayed, the conditions in 
these facilities will continue to deteriorate; deficiencies will grow 
more and more serious, and ultimately more costly to repair. Additional 
consequences of not addressing looming Capital Renewal projects are the 
continued crumbling of facilities' infrastructure; a loss of historic 
artwork and architectural features; continued system and building 
failures, and security threats.
    Several buildings on the Capitol campus are more than 100 years 
old--or in the case of the U.S. Capitol Building--more than 200 years 
old. As stewards of the Capitol campus, AOC is committed to continuing 
to work with the Congress to ensure that the proper investments are 
made in the facilities at the appropriate times.
    Funding the following capital projects in fiscal year 2013 ensures 
that necessary investments are made in our historic infrastructure, and 
increases the safety and security of those who work in or visit the 
facilities on the Capitol campus. In addition, investing in the 
projects will continue to preserve national treasures for future 
generations, and many are designed to allow the Congress to realize 
greater energy efficiencies and savings.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




  --Dome Restoration, Phase IIA.--In fiscal year 2011, we began phase I 
        of this project with the restoration of the Dome skirt. The 
        ongoing work includes repairing and restoring historic 
        ironwork, sandstone, and brick masonry. In addition, old paint 
        is being removed from the interior and exterior of the Dome 
        skirt and it will be repainted. This phase of the project is on 
        budget and on schedule for completion in fall 2012.
      Phase IIA is the second of four phases and will involve making 
        needed repairs to the Dome's exterior. This also will include 
        exterior ironwork repairs, restoration of columns, finials and 
        decorative ornaments, repair of the gutter system and repair/
        replacement of windows, installation of a new fall protection 
        system, repair/replacement of roof electrical systems, 
        installation of a bird deterrent system, and priming, 
        resurfacing, and repainting of the Dome's exterior.
      Our Dome project is one of many that are transpiring across the 
        country. Many State capitols are experiencing many of the same 
        issues and are undergoing costly repairs as well. For example, 
        Oklahoma's 94-year-old dome is undergoing a $130 million 
        renovation. In Minnesota, they are looking at a $241 million 
        restoration of its 106-year-old capitol, $4 million of which is 
        just to repair leaks in the dome.
      The planned phase IIA repairs will ensure that the elements that 
        make the Capitol Dome unique and iconic will not be lost to 
        time and the elements. It also will ensure that the appropriate 
        life-safety systems are in place for the protection of AOC 
        employees charged with the continuous care and maintenance of 
        the Dome.
  --Union Square Stabilization.--In December 2011, AOC's jurisdiction 
        was expanded to include Union Square--an 11-acre parcel 
        including the Capitol reflecting pool and the Grant Memorial. 
        Our fiscal year 2013 budget request reflects this added 
        responsibility and includes $7.3 million for its required care 
        and maintenance, including reflecting pool cleaning and 
        repairs, stabilization of the steps, immediate sidewalk 
        repairs, lamp post replacement, and cleaning and restoration of 
        the statuary. As this is a new requirement for fiscal year 
        2013, estimates may be revised and updated as additional 
        condition assessment information becomes available.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  --West Refrigeration Plant, Chiller Addition.--The hot and humid 
        Washington summers have increased the cooling demands across 
        the Capitol campus and the four existing chillers in the 
        Capitol Power Plant's West Refrigeration Plant are more than 30 
        years old and well beyond their useful lives. Therefore, they 
        are no longer reliable to meet current demand. This project 
        would fund the installation of two variable speed, high-
        efficiency centrifugal chillers and ancillary equipment in the 
        West Refrigeration Plant Expansion. This would ensure that a 
        steady supply of chilled water would be maintained to assure 
        that congressional facilities would be cooled during the 
        hottest months of the year. In addition, installing new, energy 
        efficient equipment will reduce campus-wide energy consumption, 
        which will aid in meeting Energy Independence and Security Act 
        of 2007 requirements.
  --Electrical Distribution Upgrade, Alternative Computer Facility.--
        Security experts are warning against a new type of terrorist 
        attack--the ``blended attack''. Blended attacks are defined as 
        coordinated attacks combining a physical attack against a 
        target along with a cyber-attack against the same or different 
        targets. Natural disasters, such as last August's earthquake, 
        also can wreak havoc with computer systems and equipment. 
        Therefore, providing for the appropriate redundancies for 
        computer systems that support congressional functions is 
        essential. This project would ensure that aging electrical 
        system at the Alternative Computer Facility is upgraded to 
        provide added reliability and redundancy, reducing the 
        possibility of catastrophic failure of critical systems.
                       ensuring a safe workplace
    Safety is a top priority at the AOC. Since fiscal year 2007, the 
Congress has invested more than $210 million in more than 55 safety-
related projects executed by the AOC. This includes a number of fire 
and life-safety facility-related projects, including installing 
emergency exit signage, emergency generators and lighting, and public 
address systems, as well as upgrading the fire alarm systems in each of 
the Senate Office Buildings; installing ventilation systems and 
upgrading electrical and lighting in congressional facilities; and 
extending sprinkler and smoke detector coverage in major office 
buildings.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Included in our fiscal year 2013 request is a major safety-related 
project for the Hart Senate Office Building. We are seeking funding to 
replace the Hart roof and install a new fall protection system. This 
project will prevent water from continuing to leak into the Hart 
atrium, which has the potential to damage the Calder sculpture, and 
will ensure that necessary maintenance can be conducted safely on the 
roof. This is the second phase of a two-phase project.
    Today, the level of safety throughout the Capitol campus has never 
been higher and continues to improve. This is best demonstrated by the 
continued reduction in the agency's Injury and Illness (I&I) rate.
               AOC Injury and Illness and Lost Time Rates


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    In fiscal year 2011, AOC's total I&I rate fell to 3.6 percent, and 
its lost time rate was reduced to 1.81 percent. This is compared to 
fiscal year 2010's rates of 3.8 percent and 2.1 percent. Much of this 
success can be attributed to the AOC's long-established safety 
education and training programs that place a strong emphasis on 
employee safety. By way of example, I am very pleased to report that as 
of February 21, 2012, our Library Buildings and Grounds jurisdiction 
employees have worked 738 consecutive, injury-free days.
     saving energy and taxpayer money through sustainable practices
    AOC's legacy of sustainability began with the setting of the 
Capitol's cornerstone in 1793, and is continuing today. AOC is working 
to reduce energy and water consumption across the Capitol campus in 
order to help save taxpayer money.
    In fiscal year 2011, AOC exceeded the Energy Independence and 
Security Act of 2007 (EISA 2007) energy reduction goal of 18 percent by 
achieving a 19 percent reduction. Looking forward, the energy reduction 
goal for fiscal year 2012 is 21 percent, and meeting this and future 
reduction goals will become more challenging because the projects that 
yielded quick results have been completed. Implementing the next series 
of projects will take more time and more resources to realize savings 
in taxpayer money, and further reductions in energy usage.
                   AOC Meeting Energy Reduction Goals


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    AOC's Sustainability, Energy and Water Conservation Division has 
been leading the agency's efforts to further reduce energy consumption 
on Capitol Hill. In fiscal year 2011, AOC reduced energy consumption by 
109,000 MMBtus, which resulted in $2.5 million in cost avoidances over 
fiscal year 2010.
    The projects and programs that contributed to these savings include 
the Energy Savings Performance Contracts (ESPCs) for the Senate and 
House Office Buildings and the Capitol Building as well as retro-
commissioning of equipment to optimize building systems' performance. 
AOC also is utilizing energy audits, building energy modeling, and 
utility meters to assess energy consumption and identify additional 
opportunities for energy reductions.
    In November, AOC began using ``waste-to-energy'' as an alternative 
method to dispose of solid waste from Capitol Hill. Waste-to-energy 
refers to the burning of solid wastes to generate heat and, in turn, 
produce steam and electricity. This process creates usable energy 
employing waste that would otherwise be placed in landfills--diverting 
up to 90 percent of the Capitol campus's nonrecyclable solid waste. The 
heat generated from this combustion process produces enough steam and 
electricity to power an office building the size of the Dirksen Senate 
Office or Longworth House Office Building for several months. In fiscal 
year 2011, more than 5,600 tons Senate Office of nonrecyclable waste 
was collected from congressional facilities. Using waste-to-energy 
methods on Capitol Hill complements AOC's ongoing robust recycling 
programs. In fact, AOC recycles approximately 4,000 tons of materials 
each year, including construction waste and e-waste such as computers 
and other electronic equipment.
    Looking ahead, the implementation of cogeneration at the Capitol 
Power Plant in the near future will play an essential role in AOC's 
long-term energy conservation strategy. Cogeneration uses combustion 
turbines to generate both steam and electricity. The electricity 
produced would help to offset the electricity used by the Capitol Power 
Plant. In addition, the use of the heat generated from this operation 
would produce enough steam to reduce reliance on existing, aging 
boilers. Utilizing cogeneration will help the Congress meet the Energy 
Independence and Security Act of 2007 requirement of a 30 percent 
energy reduction by 2015, and will increase the Capitol Power Plant's 
overall efficiency.
    AOC is proposing the use of a Utility Energy Services Contract 
(UESC) to help finance construction of the cogeneration plant. This 
public-private partnership leverages private funding allowing AOC to 
execute construction in a timelier manner, and allows the use of 
limited appropriated funds for other priorities, such as deferred 
maintenance or life-safety and security projects.
       providing extraordinary services and inspiring experiences
    Another large component of AOC's mission is visitor services. Since 
the Capitol Visitor Center (CVC) opened in December 2008, nearly 7 
million visitors have come through its doors. The visitor experience at 
the U.S. Capitol is comprised of highly personal moments that can 
inform, involve, and inspire those who come here, and this is largely 
provided by the expert CVC staff who provide memorable and engaging 
tours. The CVC also provides visitors with convenient amenities 
including information desks, restrooms, gift shops, and a restaurant. 
In fact, in fiscal year 2011, the Restaurant and Special Events 
Division, supported more than 850 congressional events and served 
nearly 243,000 meals.
                      Visitors to the U.S. Capitol


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    With the CVC situated on the East Front of the Capitol, visitors 
approaching from the west can stop and smell the roses in the National 
Garden. And, each year nearly 1 million people visit the U.S. Botanic 
Garden. The U.S. Botanic Garden staff provides enriching educational 
programs for guests of any age, and they are the recognized leaders in 
the development and promotion of sustainable landscapes.
    In fall 2011, the White House Council on Environmental Quality 
released guidance for Federal agencies on Sustainable Practices for 
Built Landscapes, indicating that the built landscape is critical to 
the overall success of sustainability programs within the Federal 
Government. A working group led by the U.S. Botanic Garden produced the 
32-page guidance. This was the first time the legislative branch has 
been invited to participate in such an effort. The guidance provides 
information to assist agencies in meeting their targets under Executive 
Order 13514, and covers facilities with or without buildings in 
addition to historic or existing structures.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The new guidance is based on the Sustainable Sites Initiative 
(SITES), an interdisciplinary effort by the American Society of 
Landscape Architects, the Lady Bird Johnson Wildflower Center at The 
University of Texas at Austin, and the United States Botanic Garden to 
create the Nation's first voluntary guidelines and performance 
benchmarks for sustainable land design, construction, and maintenance 
practices.
    The guidelines will be used by Federal agencies when constructing 
new facilities, rehabilitating existing owned or leased facilities, or 
when landscaping improvements are otherwise planned. Federal landscaped 
property provides opportunities to promote the sustainable use of water 
and land, conserve soils and vegetation, support natural ecosystem 
functions, conserve materials, promote human health and well-being, and 
ensure accessibility for all users, including those with disabilities.
                          aoc accomplishments
    In addition to the accomplishments detailed above, we have recorded 
many other significant achievements in the past year. For example, we 
continued to improve our cost accounting procedures and internal 
controls, and received our seventh consecutive clean audit opinion from 
independent auditors on all of our financial statements. I am very 
pleased to report that in 2011, we officially closed all of the 
recommendations from GAO's General Management Review (67 out of 67). 
This is a notable achievement for us, and we have benefited greatly 
from the improvements made to our programs and processes over the 
years.
    In addition, our annual Building Services Customer Satisfaction 
Surveys continue to show that more than 90 percent of our customers are 
satisfied with the level of service the AOC is providing them. This is 
a testament to the commitment of our talented staff who are dedicated 
to putting customer service first.
    Another area where we have made noteworthy progress is our Utility 
Tunnel Improvement Program. In 2007, AOC entered into an agreement to 
address safety and health issues in the utility tunnels that provide 
steam and chilled water to most of the buildings on the Capitol campus. 
The work is progressing very well and we are on schedule and within 
budget to close all citations and meet the required completion date of 
June 2012.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    In addition, we completed a number of projects this past year in 
our efforts to maintain and preserve the historic assets entrusted to 
our care, most notably, the renovation of the Bartholdi Fountain. This 
multi-year project involved restoring the sculpture at the center of 
the fountain as well as restoring and waterproofing the concrete 
pedestal. New energy-efficient plumbing and electrical distribution 
systems also were installed.
    And, to assist us in setting goals, prioritizing initiatives, and 
streamlining processes, our team crafted a new 5-year Strategic Plan 
for fiscal years 2012-2016. We are using the innovative ideas within 
the Strategic Plan, such as engaging cross-functional teams, to 
implement best practices to help us become even more efficient in our 
operations, drive quality improvements, and further enhance 
efficiencies and reduce costs.
                               conclusion
    Mr. Chairman, AOC has made tremendous strides over the past few 
years to deliver projects on time and within budget, to enhance 
workforce flexibilities, to foster greater communication and 
transparency, and to build stronger relationships both with our clients 
and one another. We are looking to become world-class leaders in what 
we do, and in order to do that we must keep pace with the new 
strategies for facilities maintenance, energy conservation, security, 
and historic preservation. At the same time, we understand the 
challenges that an austere fiscal environment presents, and we have 
developed this budget in an effort to balance our stewardship 
responsibilities with fiscal responsibility.
    To that end, we are effectively managing our resources--including 
personnel--to respond to these fiscally challenging times. Through our 
thorough project planning and project management efforts, we are able 
to target resources and staff on the projects that are of the highest 
priority. Not only does this give us greater flexibility and better 
results, we have worked to reduce staffing throughout the agency. The 
AOC team is doing more with less--focusing on improving our operations, 
realizing more efficiencies and saving taxpayer money, which we can 
then reinvest in the areas and facilities in need of the most care.
    Each day, we strive to embrace and embody the Core Values detailed 
in our Strategic Plan because the professionalism and integrity of each 
AOC employee demonstrates our dedication to providing quality services 
and our commitment to holding ourselves to the highest standards. We 
recognize that we do our best work through teamwork, each of us lending 
our individual strengths and talents to the greater goal of the entire 
team. We take great pride in what we do and in the honor of serving the 
Congress and the American people.
    This concludes my formal statement. I would be happy to answer any 
questions you might have.

    Senator Nelson. Thank you very much. I do have a couple 
questions before we go to Dr. Billington.

             <greek-l>AOC deg.UNITED STATES CAPITOL POLICE

    Given that the overall Federal discretionary spending has 
been reduced, how are we going to absorb anything close to an 
18-percent increase? Of the $161 million you requested for 
Capitol projects, how much is for, let's say, life-safety 
needs? Of the 75 line-item construction projects list that was 
requested for funding, were there any life-safety projects that 
didn't make it?
    What I'm really trying to distinguish here is what kind of 
fire and life-safety functions are included within that $161 
million versus, let's say, just general rehabilitation or other 
construction projects?
    Mr. Ayers. Of the 16 projects that we're recommending for 
funding, that group strikes an appropriate balance of not just 
safety, but mission accomplishment, preservation of our 
historic facilities, and security requirements. It's emblematic 
of our prioritization process. It doesn't simply take every 
safety project and run it to the top of the list. It looks 
critically at energy projects, mission projects, infrastructure 
projects and safety projects and all others, prioritizes each 
of them. The most important of each rise to the top and make 
our recommended funding list of these 16 projects. Of those, I 
believe there are 6 that are singularly focused on fire and 
life-safety out of the 16. There are another two that are 
security related. There are another three or four that are 
preservation, and the like. It strikes an appropriate balance 
of all of those requirements.
    Senator Nelson. Of the $16.5 million increase for what's 
called ``jurisdiction centralized activities'', how much is for 
election year moves? How does the level of funding that you're 
requesting compare to the funding level required for office 
moves after the 2011 elections? In other words, have they 
gained any efficiency in this area given that we do this every 
2 years, we're not going to stop elections because of the 
requirement for moves, but what have we learned, what are we 
finding in efficiencies?
    Mr. Ayers. The most important efficiency gained from our 
last move cycle is that historically, during those 2-year move 
cycles, our overtime costs spiked. Last year that didn't 
happen. Last year we were able to achieve a 22-percent 
reduction in overtime even though it was a move year. So, I 
think that means that our managers, leaders, and employees are 
finding ways to be more efficient and be more creative in 
undertaking the work.
    Our total move-related costs that we anticipate this year 
are about the same total move-related cost that we executed in 
the previous move cycle.
    Senator Nelson. Thank you. I might have some other 
questions, but I'd like to defer now to my ranking member and 
good friend, Senator Hoeven for any opening remarks that he 
might like to make.

                    STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman. Good to be here 
with you. I would like to thank all of you for being here as 
well.
    Initially I'm looking forward to your opening statements, 
as you describe going through the budgeting process this year. 
I guess the main point that I would open with is that we're 
going to be pressed to find additional savings this year 
compared to the budget that was submitted to us by the 
President. We are going to have to identify savings. The 
question I would pose to each of you as you go through your 
presentations today is to identify how you would prioritize in 
areas where you feel we can work to identify savings as we go 
through this process.
    Thank you, Mr. Chairman.
    [The statement follows:]
               Prepared Statement of Senator John Hoeven
    Thank you, Chairman Nelson, for calling this hearing to consider 
the fiscal year 2013 legislative branch budget requests for the 
Architect of the Capitol, the Library of Congress, the Open World 
Leadership Center, and the Office of Compliance. I would like to begin 
by welcoming our witnesses: Mr. Stephen T. Ayers, Architect of the 
Capitol; Dr. James H. Billington, the Librarian of Congress; Ambassador 
John O'Keefe, Executive Director of the Open World Leadership Center; 
and Ms. Tamara E. Chrisler, Executive Director of the Office of 
Compliance.
    Today, we meet with the understanding that our country continues to 
face fiscal concerns for which we have yet to find all the right 
answers. Therefore, it stands to reason that the legislative branch may 
receive further budget reductions from those that were enacted in 
fiscal year 2012. I assume the best case scenario we may encounter 
would be flat funding with the fiscal year 2012 enacted level.
    I thank you all for being here today and look forward to hearing 
what the witnesses have to say about this year's requests and to 
discussing creative solutions for how the legislative branch can 
continue to lead by example in showing fiscal constraint.
    Thank you, Mr. Chairman.

    Senator Nelson. Thank you, Senator Hoeven.

              <greek-l>AOC deg.CAPITOL DOME SKIRT PROJECT

    Before we move to Dr. Billington, I do have a question 
about the Capitol dome skirt project. I think we had about $20 
million in fiscal year 2011 and with the time line for 
completion just prior to fiscal year 2013. Is that about right, 
just before the Inauguration? Are we on track to complete the 
project on that time line?
    Mr. Ayers. Yes, Mr. Chairman we are on budget and on 
schedule.
    Senator Nelson. Okay.
    Mr. Ayers. Yes, Mr. Chairman, we are on schedule to 
complete that project just before starting the work on the west 
front for the Inaugural platform.
    Senator Nelson. You are requesting an additional $61.2 
million for the next phase of that project. Funding for the 
project was originally requested in fiscal year 2002 in the 
amount of $42.5 million.
    What has changed for you to require a 44-percent increase? 
Is that what you say happens when you defer things into the 
future?
    Mr. Ayers. Well, that's certainly true, Mr. Chairman. 
That's 10 years of inflation, and that's probably the biggest 
cost growth in that project.
    Senator Nelson. So, we do have to be cautious about just 
pushing things off into the future and deferring because 
deferral can cost money as well. If we try to defer things too 
far into the future, all we do is increase the costs down the 
road.
    I know that you're going to be requesting additional funds 
of about $44 million in fiscal year 2014 and fiscal year 2015 
in order to complete that dome rehabilitation. Were these costs 
also assumed as part of the original $42.5 million in fiscal 
year 2002, which if so, would mean that it hasn't gone up 44 
percent, but it's gone up a much larger percentage. Were these 
costs for fiscal years 2014-2015 included in 2002?
    Mr. Ayers. Yes, Mr. Chairman. I don't believe the scope of 
that project hasn't changed since it was developed more than 10 
years ago.
    Senator Nelson. Now, once the dome rehabilitation is 
completed, what will happen with the costs of operations? Will 
they be comparable to the current costs of operation or will 
there be additional costs of operation?
    Mr. Ayers. We don't think that there will be additional 
costs of operations. It will simply go back on our regular 
painting cycle of every 5 to 7 years. We'll power wash and 
paint the dome as we do today. So, it will go back on that 
maintenance cycle. We haven't undertaken this kind of extensive 
restoration work since the east front extension in 1959 and 
1960. So, it's been a significant amount of time since we've 
gone back into the dome and done extensive repair and 
maintenance to restore the dome.
    Senator Nelson. Okay.
    Has your office been engaged with the LOC's CFO in the 
effort to realize some cost savings in the financial management 
systems?

             <greek-l>AOC deg.FINANCIAL MANAGEMENT SYSTEMS

    Senator Nelson. Tell us a little bit about that.
    Mr. Ayers. We have met with them to talk about their 
hosting our systems. This is something that we've looked at on 
a surface level for a number of years. We also believed that a 
GAAP analysis needs to be done to understand the requirements 
of our financial management system if they can be met with the 
financial management system of the LOC. We have requested money 
to do that study before, but it has not been funded. This year 
we decided not to request the money and simply not undertake 
that work to keep our budget request as low as possible. But at 
some point in the future, I do think we need to carefully study 
how we can crosswalk our financial management system and theirs 
and understand that.
    In the meantime, as I testified to last year, we have 
changed who hosts our financial management system and take it 
from the national business center to directly being hosted by 
our current vendor. That is saving us $1 million every single 
year by making that strategic move.
    Senator Nelson. Apparently it has worked with the U.S. 
Capitol Police and their financial management system. So, is 
there a way to at least partially fund this year to get the 
process started so that we would be down the road in 2 or 3 
years? It seems to me it would be a good expenditure of money. 
If you've already saved $1 million doing what you're doing, 
there is the potential to save even more if it works.
    Mr. Ayers. I think that's what the study will help us 
understand, will it cost the same, will it cost less, or will 
it cost more?
    I don't think we know that. But we can work with our 
resources this year and look to find some savings that we 
could----
    Senator Nelson. Okay.
    Mr. Ayers [continuing]. Reprogram or we can work with the 
subcommittee during markup to align some funds somewhere in our 
budget to begin that process.
    Senator Nelson. Well, I think it's important to know. If 
it's not a good idea, obviously it doesn't have to be followed. 
But it may turn out to be a very, very good idea.
    Well, do you have any other questions you might want to ask 
of the Architect here?
    Senator Hoeven. I do, Mr. Chairman. Thank you.

           <greek-l>AOC deg.FISCAL YEAR 2013 BUDGET INCREASE

    Overall your budget request is an increase of $100 million, 
a little more than $100 million more than the fiscal year 2012 
enacted level. Phase IIA of the dome is $61 million. Then 
you've got various other projects, including Union Square, and 
as the Chairman just mentioned, the Power Plant and the 
refrigeration plant.
    I guess given our current budgetary constraints, give me 
your thoughts on, if we're not able to do all of these projects 
and how would you go about addressing that.
    Mr. Ayers. I think a couple of ways, Senator Hoeven. First, 
the list of projects that we've submitted is in priority order. 
There are 16 of them that we've recommended be funded in fiscal 
year 2013. Those 16 are in priority order. There are another 59 
or 60 that we suggest be deferred. We simply start at the top 
and work our way down the list, depending upon the amount of 
funding that may be available to us to utilize.
    Senator Hoeven. Talk about your sense of how dire it is 
that we get some of these projects done. In other words, if we 
do end up deferring them, describe how serious you see that 
situation.
    Mr. Ayers. The first couple of projects on the list are 
safety and security related. Certainly, the first one is a very 
important life-safety issue at the LOC. The next two being 
garage security and a security upgrade at the LOC--one for the 
LOC, and one for the House and Senate are important upgrades 
that have gone through the due diligence of my office and the 
USCP.
    Item 4 on the list is our Power Plant chiller and 
refrigeration plant upgrades. This past summer we were down to 
zero excess capacity in the chiller's ability to make chilled 
water. So, we are very nervous and very anxious to get that 
project underway to increase our chiller capacity. If we have 
another hot summer, potentially we'll be unable to provide 
enough chilled water to air condition our buildings.
    The dome rehabilitation, I think as Senator Nelson pointed 
out, is a project that we've been working on for nearly 15 
years to try to get funded. We've got the first phase of that 
underway. We've got a great contractor, a great team working on 
it, and we really believe that it needs to continue in that 
vein.
    Senator Hoeven. You're doing the $20 million renovation 
right now, correct?
    Mr. Ayers. Yes, Sir.
    Senator Hoeven. How is that coming; on schedule, on budget, 
and what's your time line for completing that Phase I?
    Mr. Ayers. It is on schedule. It is under budget, and we 
intend to finish that in fall of this year, and all of that 
scaffolding comes down. At the same time, we award contracts to 
vendors that begin the construction of the Inaugural stands on 
the west front.
    Senator Hoeven. Does the follow-on $60 million project have 
to follow right away or is it something you can do in Phase I, 
with the $20 million, and then come back and do Phase II with 
the $60 million?
    Mr. Ayers. It is something that can be phased. The dome 
skirt project is the first phase of it, and that's completely 
self-contained.
    Senator Hoeven. Okay.
    Mr. Ayers. When that's finished we can demobilize and stop 
work for any period of time and then resume it and rescaffold 
the dome at a later date.
    Senator Hoeven. Is the $60 million in Phase IIA, does that 
have to all be done at one time, or is that something that can 
be done in phases?
    Mr. Ayers. It can be done in phases. We've looked very 
carefully at that. It can be done in phases. I think there are 
two drawbacks to it. One is we think it will cost us an extra 
$6 to $8 million by breaking that portion of work into two 
phases, for a couple of reasons. One is simply inflation.
    Second, we don't think we'll be able to get both phases 
done before the next Inauguration. We'll be able to get one 
phase done. We'll have to take all of that scaffolding down 
again, conduct another Presidential Inauguration, and then put 
it all back up. So, that demobilization and remobilization has 
costs associated with it.
    We've looked at it. We think it's a $6 to $8 million 
increase if we break that second phase into two smaller phases.

                <greek-l>AOC deg.UNION SQUARE RENOVATION

    Senator Hoeven. How about the Union Square property? That's 
about $7.3 million. Is that something you have to do, or is 
there something else you can do that will work for some period 
of time?
    Mr. Ayers. This is an interim measure. This piece of 
property is new to us this year. We've gone out and taken a 
careful look at it. There are a couple of really telling 
photographs in our budget book about how deteriorated the stone 
and steps and sidewalks are there, as well as how deteriorated 
the bronze statue of the Grant Memorial is.
    We think those things need to be stabilized, and that's 
what this money is meant to do, to simply stabilize and make 
safe that site until we undertake some long-term renovations, 
like renovating the Reflecting Pool itself so that it actually 
filters and recirculates water. Obviously it doesn't do that 
today, but that's something that we think can be pushed to a 
later date. This is stabilization of the site.

                   <greek-l>AOC deg.DEPRECIATION FUND

    Senator Hoeven. We don't budget some type of a sinking fund 
or depreciation fund for these big projects? We just, as they 
come up and need to be funded, look at them and build them into 
the budget? That's how it's always been done?
    Mr. Ayers. That is true, with one exception. Two or three 
years ago we did create a historic buildings revitalization 
trust fund that only resides on the House side of our 
appropriation today. We are 10 separate appropriations. One of 
those has a fund in which the House is investing money to take 
care of historic buildings. So, we have a portion of that in 
place in a part of our organization, not all of it in place.
    Senator Hoeven. So, that kind of depreciation doesn't cover 
everything. That's not designed to say, okay, we're going to 
set up a Capitol renovation fund or depreciation fund or 
sinking fund that would enable us to schedule out and plan how 
much we're going to spend year by year on these types of 
renovations or maintenance items.
    Mr. Ayers. I think that the primary reason for that is that 
when we get very large projects, like a Capitol Visitor Center 
(CVC), or a renovation of the Cannon House Office Building 
that's coming up or renovation of a Russell Senate Office 
Building that we would expect in a number of years, those 
projects are so large that if we try to fund them out of our 
current budget bandwidth, then we're not able to do any other 
safety projects or any deferred maintenance projects.
    So, the concept is setting a fund aside so that you have 
money to do these very large and seminal projects so that it 
doesn't take away from the budget bandwidth that's already in 
place today, a concept that we think is really important.
    Senator Hoeven. Thank you.
    Senator Nelson. Well, thank you, Senator Hoeven.

              <greek-l>AOC deg.HISTORIC PRESERVATION FUND

    Mr. Ayers, in setting up a historic preservation fund 
without having identified specific projects means that almost 
anything could qualify for that fund. Is that fair to say? When 
we set up funds like this we run the risk of losing some 
control over prioritization of projects as we try to establish 
priorities going through this budgeting process. That was the 
concern I had. Not that I would worry about the House not being 
able to establish their own priorities, of course.
    Senator Nelson. But the fact that we lose some control over 
that prioritization. Is that fair to say? That might be one of 
the reasons that they just might like to do that, too, huh?
    Mr. Ayers. Well, certainly those funds can't be expended 
without the written authorization of the Appropriations 
Committee.
    Senator Nelson. Sure.
    Mr. Ayers. So, I think that's one way that the subcommittee 
can ultimately make the investment, but executing those funds 
they still have the control of whether you spend them or not.
    Senator Nelson. But the prioritization might switch from 
this process to another process?
    Mr. Ayers. I think that the potential is there for that to 
happen. I suspect we could put in controls or the Congress 
could put in some kind of control to ameliorate that.
    Senator Nelson. Oh, I trust them. That's why we call them 
trust funds.

                    <greek-l>AOC deg.UTILITY TUNNELS

    Senator Nelson. On the utility tunnels, I notice that you 
don't have any funding for the utility tunnel project. You 
still plan to meet the schedule of the 2012 settlement 
agreement deadline for completing the corrective measures?
    Mr. Ayers. Yes, Mr. Chairman. Our work is essentially 
finished. All of the citations except one have been closed by 
the OOC. And we've submitted, the necessary paperwork for them 
to consider closing the last one. So, we are ahead of schedule 
to complete that work by June of this year.
    Senator Nelson. So, Ms. Chrisler, are you satisfied that 
the process is working and that it is getting closed, the 
citations are being withdrawn?
    Ms. Chrisler. The work that the AOC has been doing has been 
wonderful. And we've been working very well together. And, yes, 
we are satisfied that----
    Senator Nelson. Everybody is playing nice with one 
another----
    Ms. Chrisler. Very nice.
    Senator Nelson [continuing]. And getting everything all 
done.
    Ms. Chrisler. That's right.

            <greek-l>AOC deg.ADDITIONAL COMMITTEE QUESTIONS

    Senator Nelson. That's good. That's the way we want it.
    That's all I wanted to ask.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]
               Questions Submitted by Senator John Hoeven
                 <greek-l>aoc deg.zero-based budgeting
    Question. Since each of the agencies within the legislative branch 
were directed to develop and present their fiscal year 2013 budget 
requests using a zero-based budgeting approach, I would like to hear 
from you about how this process worked within your agency.
    Was this a helpful process or a hindrance in developing the budget 
request?
    Were you able to find sustainable efficiencies that will result in 
continued savings over time, or one-time only savings?
    Is this a process you will be able to replicate for future budget 
requests?
    Answer. The Architect of the Capitol (AOC) made good strides in 
implementing zero-based budgeting with its fiscal year 2013 request. In 
fact, AOC has been successfully using zero-based budgeting for its 
capital projects budget for a number of years.
    As in years past, in preparing its fiscal year 2013 request, the 
AOC performed an extensive prioritization process to analyze all 
capital projects, and requested those deemed to be the most critical 
due to condition assessments and congressional needs. AOC's Project 
Planning and Prioritization Process ranks every necessary project using 
the conditions of the facilities and the anticipated urgency with which 
we need to provide the levels of investment and maintenance required to 
ensure they remain safe, functional, and secure. The first priority, of 
course, is to ensure the health and safety of all those who work in and 
visit the Capitol campus. This ``triage'' process for facilities 
identifies the most serious issues first, which we assess carefully to 
develop solutions to fix the problems while also addressing necessary 
life-safety issues, security requirements, energy-savings 
opportunities, and historic preservation measures.
    We also applied a zero-based budgeting philosophy as we developed 
the operations budget. Utilizing this approach presented challenges, 
but yielded positive results because, while the request includes 
mandatory payroll increases, AOC's fiscal year 2013 operations budget 
request largely holds operational spending at fiscal year 2012 levels.
    In a true zero-based budget process, AOC would build the budget up 
from zero to the necessary level. This would have required increased 
resources and time. AOC adopted a modified approach that followed the 
intent of zero-based budgeting without requiring an increase in 
resources. Using this approach greatly assisted us in looking at the 
total program to ensure that our operations focus on obtaining best 
value and increasing efficiencies while continuing to provide maximum 
support to the Congress. The key benefit of using zero-based budgeting 
in developing the fiscal year 2013 request was that we performed 
extensive analysis of historical, current and future costs, and 
prepared a budget to accommodate shrinking Federal budgets.
    AOC plans to continue to mature its zero-based budget process 
through the increased use of cost accounting data and analysis. We also 
have ``right-sized'' our payroll request and will continue along those 
lines in future requests. AOC has always developed its capital project 
requests by examining the entire cost of a project. Through zero-based 
budgeting, we have increased emphasis in this area and will continue to 
perform in-depth analysis of the entire cost of projects. We have also 
increased our focus on cost-benefit analysis. We plan to continue to 
refine zero-based budgeting efforts to maximize use in future budget 
requests. Our initial efforts found some one-time only savings. Most 
efforts resulted in cost avoidances, that is, by doing things more 
efficiently, we were able to reduce the costs of carrying out 
operations, programs, or projects. We will continue to seek long-terms 
efficiencies and savings as we know we need to do more with less. We 
continue to focus on improving our operations, and attempt to realize 
more efficiencies and save taxpayer money.
    <greek-l>aoc deg.voluntary early retirement authority/voluntary 
                      separation incentive payment
    Question. The Committee provided guidance in the fiscal year 2012 
appropriations legislation that each agency within the legislative 
branch should consider using Voluntary Early Retirement Authority 
(VERA)/Voluntary Separation Incentive Payment (VSIP) in order to reduce 
salary costs to the agency.
    Were you able to utilize VERA/VSIP authority; and if so, was this a 
successful mechanism for reducing costs?
    Are those savings realized immediately, or in the out-years?
    Realizing that losing people who are eligible for retirement or 
early separation often means losing some of the best and brightest 
people with the greatest institutional knowledge within your 
organization, how have staffing reductions impacted your agency?
    Do you have succession plans in place that allow for a smooth 
transition of responsibilities?
    Answer. AOC applied for, and received approval to use VERA/VSIP 
authority for 2012; however, this authority was not used because, 
through a variety of other initiatives it has implemented, AOC will 
remain under the set payroll ceilings.
    Internal reviews regarding the impact of implementing VERA/VSIP 
showed that a significant reduction in AOC workforce would have a 
corresponding impact on the number and level of services that the AOC 
provides to the Congress and the American people. In addition, any use 
of VERA/VSIP authority does not result in immediate savings, given the 
funding required. Savings, if any, would be realized in out-years.
    Instead, through careful management of overtime, by changing 
employee work schedules, implementing a temporary, targeted hiring 
freeze, and managing when vacancies are filled, AOC has determined that 
it will be able to meet its fiscal year 2012 payroll without 
implementing VERA/VSIP.
    These actions are not without impacts, for example, AOC has 
implemented a targeted hiring freeze. Because AOC has a broad talent 
base, we are maximizing the use of our existing workforce and their 
skill sets. However, this has placed a greater burden on all of our 
employees who are now required to complete additional tasks due to the 
unfilled vacancies.
    AOC continues to examine additional personnel cost savings 
initiatives. As noted earlier, additional reductions in AOC workforce 
could have a corresponding reduction in the number and level of 
services provided to the Congress. Therefore, AOC is carefully studying 
a number of options and will consult with its Oversight Committees to 
ensure its prioritization of services matches the most pressing needs 
of the Congress.
    To mitigate potential impacts on services, we would prioritize 
services, cross-utilize and cross-train employees, and provide regular 
and consistent communication with all customers in order to manage 
expectations as changes to the level and/or of services provided are 
adjusted.
    AOC's talented workforce is the key to our success. We have 
succession plans at the appropriation level, and we are working to 
engage cross-functional teams, to implement best practices to help us 
become more efficient in our operations, and providing services across 
multiple jurisdictions to maximize the existing talents of our 
personnel and to further enhance efficiencies and reduce costs.
           <greek-l>aoc deg.fiscal year 2013 budget requests
    Question. I realize that it is important for each agency to request 
what it believes is necessary in terms of funding for operations and 
projects without knowing how much funding will be available in the next 
budget cycle; however, it should be clear to everyone what path we are 
on given the fiscal situation still facing our country. Therefore it 
concerns me that each agency represented here today, except for the 
Open World Leadership Center, requested a budgetary increase for fiscal 
year 2013.
    What would be the impact to each of your agencies if you were held 
to the fiscal year 2012 enacted level of funding?
    What would be the impact of a reduction less than the fiscal year 
2012 funding level?
    At what funding level reduction could your agency no longer 
continue to provide the services you are required to provide without 
making significant changes to the agency and its mission?
    Answer. As noted in the previous response, AOC's fiscal year 2013 
operations request is essentially flat. The request does take into 
account mandatory payroll increases, but it largely holds AOC 
operational spending to fiscal year 2012 levels.
    With regard to the fiscal year 2013 capital projects budget 
request, we worked to prioritize our efforts to ensure that every 
resource goes toward the most needed and most important work. For 
fiscal year 2013, our responsibilities also will include two very 
staff- and resource-intensive activities--preparing for the 
Presidential Inaugural ceremony, and orchestrating the postelection 
office moves in the House and Senate.
    While AOC was able to reduce its budget request for capital 
projects in fiscal year 2013 to $161 million, a 10-percent decrease 
from its fiscal year 2012 capital projects request, it does include 
several large Deferred Maintenance projects including Phase II of the 
Capitol dome restoration, the chiller replacement and revitalization of 
the refrigeration plant, and the stabilization of Union Square--a new 
requirement in fiscal year 2013.
    If AOC were held to fiscal year 2012 funding levels, on the 
operations side, critical technology updates would again be postponed, 
which could jeopardize information technology system security and 
stability. In addition, important facility condition assessments that 
are vital to assessing the stability, safety, and functionality of our 
buildings would be delayed, resulting in an increased number of 
Deferred Maintenance and Capital Renewal projects. Other efforts such 
as AOC-wide life-safety and emergency preparedness training and 
programs, energy-savings initiatives, and public educational outreach 
through the Botanic Garden and Capitol Visitor Center would be severely 
curtailed or eliminated.
    With regard to the capital projects portion of AOC's budget, 
freezing funding or cutting major restoration projects has lasting 
repercussions. The longer Deferred Maintenance or Capital Renewal 
projects are delayed, the conditions in the facilities will continue to 
deteriorate; deficiencies will grow more serious, and ultimately will 
be more costly to repair.
    A number of life-safety improvements are also necessary, such as 
installing smoke detectors and fire alarms, as well as emergency 
generators and emergency lighting. Many elevators require complete 
refurbishment; the exterior stone on many of the buildings across the 
Capitol campus, including the Senate and Capitol buildings required 
extensive repairs and preservation; and in order to keep up with 
increasing demand, electrical system and heating, ventilation, and air 
conditioning (HVAC) updates are critical in the very near future. 
Additional consequences of not addressing looming Deferred Maintenance 
and Capital Renewal projects are the continued crumbling of facilities' 
infrastructure; a loss of historic artwork and architectural features; 
continued system and building failures; and security threats.
    AOC fully recognizes that we must balance our stewardship 
responsibilities with fiscal restraint; however, if it is funded below 
the fiscal year 2012 budget levels, congressional facilities will 
continue to deteriorate causing an increase in operating budget levels 
and an increase in risk of facility or system failure that could 
directly impact congressional operations.
    Despite the best efforts of AOC's talented craftsmen and women to 
anticipate and make needed repairs, as these buildings continue to age, 
they become more difficult and costly to maintain. Making necessary 
improvements requires significant investment, and today the backlog of 
Deferred Maintenance project totals more than $1.6 billion.
    As we developed this budget, we worked to prioritize our efforts to 
ensure that every resource goes toward the most needed work. In 
addition, we are continually finding ways of working faster, smarter, 
and cheaper. Our efforts to date have resulted in reducing the costs of 
carrying out our daily operations and projects. However, the reality is 
that receiving operating funding below fiscal year 2012 levels could 
result in a reduction of number and level of services that AOC provides 
to Congress and the American people. And, receiving capital project 
funding below the amount requested for fiscal year 2013 will result in 
increased risk of failure in terms of facility systems, infrastructure, 
security, and life-safety efforts. To this end, AOC's fiscal year 2013 
budget reflects the highest requirements to try to prevent or delay 
malfunctions and/or failures.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
    Senator Nelson. Now, Dr. Billington, the floor is yours.
    Dr. Billington. Thank you, Mr. Chairman Nelson and Senator 
Hoeven.

                <greek-l>LOC deg.NEW LIBRARY LEADERSHIP

    I think I should first maybe just introduce the four new 
faces, who lend fresh luster to our executive committee. I will 
begin with Mary Mazanec, the new head of the Congressional 
Research Service; David Mao, new head of the Law Library of 
Congress; Roberta Shaffer, head of Library Services; and Maria 
Pallante, the new Register of Copyrights. We're very fortunate 
in having them with us.

      <greek-l>LOC deg.GRATITUDE FOR CHAIRMAN NELSON'S LEADERSHIP

    So, Mr. Chairman and Mr. Hoeven first of all to you, Mr. 
Chairman. I understand this will be our last hearing with you, 
and I wish to express our deep appreciation for your 
outstanding service in the Senate and your many years of 
support for the LOC. The LOC, by the way, now collaborates with 
a number of Nebraska institutions--the University of Nebraska, 
Lincoln Library, Nebraska State Historical Society, Durham 
Museum, and others. The late Charles Durham was, in fact, the 
first private donor to our congressionally commissioned 
Veterans History Project which has now become the largest oral 
history project in American history.
    I'm pleased to present our fiscal year 2013 budget request 
and to thank the Congress for having been the greatest patron 
of a library in human history, creating and expanding the reach 
of the LOC throughout every period of our history, viewing the 
LOC, as a unique institution of fundamental importance for our 
knowledge-based democracy. All of us at the LOC are deeply 
grateful for the support you've given to making America's 
oldest Federal cultural institution into the world's largest 
and most inclusive collection both of recorded human knowledge 
and of America's cultural creativity.
    For fiscal year 2013 we are seeking funding just to 
maintain current core services adjusted for inflation at the 
reduced fiscal year 2012 level. We have asked for no program 
increases, and the requested funding will allow the LOC time to 
conclude the intensive IT and zero-based budget review that is 
now underway and was called for in the House report for fiscal 
year 2012. Over the next year, the results of this review will 
inform our decisions and resource allocations that are needed 
to preserve and enhance priority mission functions in the 
smaller budget times.
    I have my written statement. I have itemized the major 
works we've been able to do even with the budget reductions in 
fiscal year 2011 and the added ones in fiscal year 2012.
    In our effort to absorb the fiscal year 2012 appropriations 
reductions, we offered a voluntary separation incentive 
program, accepting early retirement for 186 staff, which 
nonetheless meant losing the institutional memory of important 
and one of a kind curators and technicians. We have been using 
the realities of the current budget environment to strengthen 
our program to get the various parts of the entire LOC 
community to work together more economically and effectively by 
adopting and reinforcing LOC-wide strategies.
    Under our experienced Chief of Staff, Robert Dizard, Jr., 
we have made major strides in improving LOC's Web presence in 
the unifying effort better to bring together resources and 
scholarly expertise from all across LOC. We're in the process 
of making important structural changes that will more fully 
integrate our digital and analog resources.
    I want to especially mention, if I could, and to the 
distinguished representative leader of the AOC, our need for 
funding, in his budget, for Module 5 for preservation and 
storage at Fort Meade. This is essential if we are to continue 
to acquire and preserve our uniquely comprehensive collections 
and to make them rapidly accessible for the Congress and the 
American people.
    Our fiscal year 2013 request is, in essence, a petition not 
to deepen further than we already have the reductions in LOC's 
budget, which could put our core services at greater risk. 
Reductions have already cut deep into LOC's muscle. We ask that 
they not be allowed to cut further on into the bone.
    Two of our most pressing national American needs for 
security and economic competitiveness are increasingly 
dependent on an expanding base of knowledge and its 
accessibility. The LOC is in many ways a peaceful national 
arsenal for the information age that we are living in.

                           PREPARED STATEMENT

    So, Mr. Chairman and Mr. Hoeven, thank you again for your 
support of the LOC and for your consideration of our fiscal 
year 2013 request. I cede back the remaining seconds.
    [The statement follows:]
             Prepared Statement of Dr. James H. Billington
    Mr. Chairman, Mr. Hoeven, and members of the subcommittee: I am 
pleased to present the Library of Congress (LOC) fiscal year 2013 
budget request.
    The Congress of the United States has created and sustained its 
library, the Nation's library, for 212 years, through every period of 
our history. The Congress has viewed its library--America's oldest 
Federal cultural institution--as a unique institution of fundamental 
importance for our knowledge-based democracy. Mr. Chairman, all of us 
at LOC are deeply grateful for the support you give to this, the 
world's largest and most inclusive collection of recorded human 
knowledge and of America's cultural creativity.
    LOC's mission is to support the Congress in fulfilling its 
constitutional duties and to further the progress of knowledge and 
creativity for the American people. Our fiscal year request for 2013, 
Mr. Chairman, respects the need for budgetary austerity and asks for 
what is truly important for America in this information age.
    We are seeking funding just to maintain current core services, 
adjusted for inflation, at the reduced fiscal year 2012 level. We have 
asked for no program increases. The requested funding will allow the 
LOC time to conclude the intensive information technology (IT) and 
zero-based budget review, now underway, that was called for in the 
House report for fiscal year 2012. Over the next year, the results of 
the review will inform our decisions on resource allocation that are 
necessary in order to preserve and enhance priority mission functions 
within smaller budgets.
    In fiscal year 2011, we were able to continue these services with 
reduced resources as follows. It enabled us to:
  --Responded to more than 763,000 congressional research requests, 
        delivering to the Congress more than 1 million research 
        products and approximately 30,000 items directly from the LOC's 
        collections;
  --Registered more than 670,000 claims to copyright;
  --Provided reference services to more than 500,000 individual users;
  --Led a nationwide effort with more than 19,000 teachers throughout 
        the country to advance K-12 students' understanding of American 
        history and culture by providing 20 million primary documents 
        from our collections online free of charge;
  --Circulated more than 25 million items to more than 800,000 blind 
        and physically handicapped Americans;
  --Gave state-of-the-art preservation treatment to 10.7 million items 
        in the collections; and
  --Welcomed nearly 1.7 million visitors to our exhibits and public 
        facilities here on Capitol Hill.
    In response to the appropriations reductions in fiscal year 2012, 
and in an effort to absorb the reductions without damaging the LOC's 
mission-critical programs, we offered a voluntary separation incentive 
program, accepting early retirement for 186 staff--which nonetheless 
meant losing institutional memory in some highly specialized areas of 
research and curation.
    As a result of the fiscal year 2012 reductions:
    The Congressional Research Service (CRS) eliminated 40 positions 
and decreased its investments in IT, research materials, and 
professional development activities. With fewer resources, we are 
increasingly challenged both to maintain the quality and timeliness of 
response that characterize CRS work and to ensure coverage of all 
issues for the Congress.
    The Copyright Office made significant cutbacks in its IT budget and 
reduced or delayed hiring, because receipts were lower than expected 
and because appropriated funding was reduced. As a result, critical 
upgrades to the electronic registration service that directly supports 
copyright commerce will take a longer period of time to put in place 
and raise concern about a potential new backlog in copyright claims 
processing, adversely affecting both authors and users of copyrighted 
materials.
    The law library lost four key positions (including a senior foreign 
law specialist for Canada) and is concerned about sustaining its 
historic ability both to recruit expert foreign legal specialists for 
important jurisdictions and to acquire current and new foreign legal 
and legislative material needed to respond to congressional requests.
    Library Services lost 50 staff in the Acquisitions and 
Bibliographic Access Directorate alone--the most basic of LOC's 
services--along with other reference and public service staff. Budget 
reductions in fiscal year 2012 have led to the postponement of 
purchasing switches and routers needed to archive video of Senate floor 
proceedings and have delayed installation of compact shelving at the 
Packard Campus facility.
    For the National Library Service for the Blind and Physically 
Handicapped, unless $6 million in no-year funds for playback machines 
can be reprogrammed to allow the purchase of content media cartridges, 
the shortage of funds for flash cartridges will disrupt the Digital 
Talking Book program production cycle, and could dramatically affect 
the delivery of digital books and magazines to patrons and slow the 
analog-to-digital conversion of retrospective titles.
    I have listed some of the impacts, but there has also been an 
important strategic bright spot amid the practical difficulties posed 
by our current budget environment: it has encouraged the entire LOC to 
work better together in pursuit of LOC-wide strategies. We have made 
major strides in improving the LOC's Web presence in a unified effort 
that has brought together resources and expertise from across the LOC. 
We are in the process of making robust structural changes that will 
more fully integrate our digital and analog resources.
    I also want to make special mention again of our need for funding 
in the Architect of the Capitol's budget for Module 5 at Fort Meade. 
This is an essential element of our increasingly pressing collections 
management and access requirements.
    Our fiscal year 2013 request is, in essence, a petition not to 
deepen the reductions in the LOC's budget and put our core services at 
greater risk. Reductions have already cut deep into the LOC's muscle. 
We ask that they not be allowed to cut into bone.
    Mr. Chairman, the Congress of the United States has been the 
greatest patron of a library in human history. Each year, its LOC is 
privileged to serve directly every Member of Congress, every 
congressional committee, and millions of Americans, often in ways that 
would otherwise be unavailable to them. We want to continue these 
services. We, as a Nation, need this institution, which serves as the 
sole keeper of both the mint record of America's copyrighted creativity 
and of the world's greatest repository of preserved and curated 
knowledge.
    Mr. Chairman, Mr. Hoeven, and members of the subcommittee, I thank 
you again for your support of the LOC and for your consideration of our 
fiscal year 2013 request.
                                 ______
                                 
Prepared Statement of Mary B. Mazanec, Director, Congressional Research 
                                Service
    Mr. Chairman, Senator Hoeven, and members of the subcommittee: I 
want to begin by saying what an honor it is to have been appointed 
Director of the Congressional Research Service (CRS) by Dr. Billington 
last December. This--my first presentation on the CRS budget before 
this subcommittee--is an opportunity for me to describe some of the 
accomplishments of the past fiscal year, plans for the future, and the 
truly unique work of the dedicated staff of CRS.
               <greek-l>loc deg.support for the congress
    Major world and national events and an active legislative agenda 
demanded much of CRS staff this past year. Despite significant staff 
reductions and cutbacks in other resources, I believe we were able to 
successfully accomplish our mission of providing objective and 
authoritative information and analysis of the issues before the 
Congress. Let me outline briefly some of the major areas in which we 
provided support to the Congress last year.
    The state of the economy dominated much of the legislative agenda 
and will probably continue to be an overarching issue in 2012 and 
beyond. CRS policy analysts and economists analyzed options to provide 
economic stimulus, create jobs, assist the unemployed, and reduce the 
deficit. We provided briefings and seminars on the sustainability of 
the debt and deficit, approaches to address the budget deficit and 
methods to stimulate economic expansion. CRS budget and congressional 
procedural experts produced a series of products on the operation of 
the Budget Control Act of 2011 and its implications for agencies and 
programs.
    CRS tracked and analyzed rules and regulations implementing 
financial reform legislation and provided legal analyses of aspects of 
the new financial regulatory structure. Analysts conducted several 
seminars on banking and financial intermediation and the basics of the 
financial system. Economists and policy experts analyzed the 
implications of the economic challenges facing the Euro zone countries 
for the United States economy and world financial stability. 
Reauthorization of the Export-Import Bank and policies surrounding 
China's currency were issues of interest that will carry over into this 
session of the Congress.
    CRS foreign policy and military experts were called upon to analyze 
volatile and quickly changing events in the Middle East and North 
Africa. Egypt, Syria, Libya and other countries in the region have 
entered an era of rapid, dramatic, and fundamental change with 
implications for the region as a whole and for the United States. CRS 
specialists also provided support on United States strategy in 
Afghanistan and Iraq, including governance and security issues 
following drawdown of United States presence in both countries. 
American involvement in North Atlantic Treaty Organization (NATO) 
military operations in Libya raised questions of war powers and options 
facing the NATO-led coalition forces.
    Reauthorization of the anti-terrorism tools in the USA PATRIOT Act 
prompted requests for legal and policy analyses of the scope of the 
Government's law enforcement authorities in the national security 
context and the application of the state secrets privilege in 
litigation. Attorneys also analyzed the detainee provisions in the 
recently enacted National Defense Authorization Act. The debate over 
the Federal Aviation Administration reauthorization saw CRS analysts 
addressing such issues as air traffic control modernization, fuel tax 
proposals, and transportation security.
    Several devastating natural disasters at home and abroad--from 
flooding and wildfires to the Japanese earthquake and tsunami--prompted 
congressional interest. CRS provided information and analysis on 
Government disaster relief programs and the relief operations of the 
Army Corps of Engineers. Analysts also evaluated the implications of 
the Japanese nuclear incident for United States nuclear energy policy 
and the safety of nuclear reactors.
    The Supreme Court will be ruling this term on the constitutionality 
of key provisions of the healthcare legislation as well as the 
authority of States to legislate in the area of immigration. Both of 
these controversial issues have been features of the legislative agenda 
for the past two Congresses and have occasioned legal analyses by CRS 
attorneys. The decisions are certain to generate much congressional 
interest and have implications for not only the operation of programs 
directly implicated but also for the scope of congressional power.
    CRS legislative procedure experts completed a major revision of a 
Senate committee print on cloture. Last updated in 1985, the revision 
included much additional analysis and numerous case studies of the 
cloture process. Analysts and attorneys also supplied legal and 
historical analyses of the recess appointment power both preparatory to 
and in the wake of the President's recess appointments in January.
    Many of the issues recounted will continue to be of interest to the 
Senate and the Congress in this session. CRS recently completed its 
annual legislative planning process for the second session of this 
Congress. We identified more than 160 issues likely to be before the 
Congress and organized our product line and web resources around those 
issues. We have been meeting with leadership offices to ensure that CRS 
is well positioned to support the Congress' legislative agenda.
    Our support for the Congress spans the entire legislative agenda 
and our expert and multidisciplinary staff are ready to provide 
confidential tailored memoranda and personal briefings, more widely 
available CRS Reports for Congress, seminars and programs on the 
legislative process and topical issues, and information and advice in 
response to a phone call or email. CRS is also making strides in 
providing access to its expertise and information via the technological 
tools that our clients rely on to do their work.
    While we are operating under increased budget pressures in 
technology and research resources, we continue to enhance the 
functionality of our Web site. CRS.gov is the gateway to all CRS 
analytical and informational resources, including our analysts and 
informational professionals. A useful and accessible Web site is an 
efficient way to deliver CRS services and expose clients to all that 
CRS has to offer. This past year we have introduced customization 
capabilities which enable users to create accounts and tailor the 
information they would like to receive from CRS, get updates on new 
products, programs and changes to the Web site, and facilitate their 
placing specific requests. We have also made it easier for users to 
focus more quickly on notable CRS products, featured topics that are 
dominating the legislative agenda, and to have access to basic data 
resources that complement the analytical content of CRS reports.
    We are currently in the process of examining more robust search 
capabilities and ways to make CRS subject-matter experts more 
accessible to our clients. We have also enhanced the mobile Web site 
and continue to explore ways to make CRS material more accessible on 
the variety of mobile devices that have become such an important part 
of the way Members and staff access information.
    CRS is also repurposing the Senate Research Center (SRC) in the 
Russell Senate Office Building into an education and outreach facility 
to better serve our clients. Members and their staff should find it 
more convenient to attend CRS seminars and briefings, and to meet with 
CRS experts in the SRC. CRS expects to begin offering an expanded list 
of events from the SRC in early spring 2012.
            <greek-l>loc deg.fiscal year 2013 budget request
    The CRS budget request for fiscal 2013 is $109.2 million, with 
almost 90 percent devoted to salary and benefits for our staff. CRS 
continues to operate at its lowest staff level in more than three 
decades and we lowered our hiring ceiling by 40 positions in fiscal 
year 2012. The small percentage of nonpay expenditures is limited to 
basic support for research and analysis. This request is mindful of the 
difficult fiscal issues facing the Congress and does not include 
funding for additional specialized technical skills and policy 
expertise that would be helpful in meeting the growing policy demands 
placed upon the Congress.
                               conclusion
    I want to close by reiterating what an honor it is to have been 
named Director of CRS. I am aware of the great responsibility of CRS to 
provide objective and nonpartisan assistance to the Congress and I am 
committed to following in the footsteps of my distinguished 
predecessors. I believe that this mission of contributing to an 
informed national legislature is even more vital and important today as 
the Congress is exposed to a flood of information from all sides and 
Members must sort through the myriad of voices that vie for their 
attention in order to make sound policy choices. I intend to ensure 
that CRS remains the Congress' primary source for the analysis and 
information that it needs to perform its legislative functions and that 
we continue to explore new and innovative ways we can best serve--as 
shared staff--the committees of the Congress, Members, and their 
staffs. I thank you for your continuing support.
                                 ______
                                 
  Prepared Statement of Maria A. Pallante, Register of Copyrights and 
                Director, United States Copyright Office
    Mr. Chairman, Mr. Hoeven, and members of the subcommittee: Thank 
you for the opportunity to present the fiscal year 2013 budget request 
of the United States Copyright Office. We deeply respect the need to 
engage in responsible fiscal management in these austere times.
    The Copyright Office, already a lean operation, does not seek 
additional full-time equivalents or funding for new projects, but we do 
hope to ensure that our existing staff is compensated competitively so 
as to maintain a strong, talented workforce that will sustain the 
Copyright Office in the 21st century. As copyright issues become more 
ubiquitous, and as the office charts a course for the future, it will 
need to pursue intelligent growth to ensure that it can meet the needs 
of the national copyright system well into the future.
    For fiscal year 2013, the Copyright Office requests a total of 
$52.772 million, offset by fee collections of $28.029 million, and 
licensing royalty collections of $5.582 million, applied to the 
office's Licensing Division and the Copyright Royalty Judges. 
Specifically, our requests are as follows:
  --A 2.2-percent increase ($0.999 million) more than fiscal year 2012 
        to support mandatory pay-related and price level increases 
        affecting administration of the office's core business systems 
        and public services;
  --A 1.8-percent increase ($0.093 million) more than fiscal year 2012 
        in offsetting collection authority for the Copyright Licensing 
        Division to support mandatory pay-related and price level 
        increases affecting the administration of the office's 
        licensing functions; and
  --$2 million to restore the Copyright Office's base funding.\1\
---------------------------------------------------------------------------
    \1\ The enacted budget for fiscal year 2012 directed the Copyright 
Office to utilize no-year funding (collected from fees for services) to 
offset expenses, effectively reducing our spending ratio of 
appropriated dollars to fees at the same time that fees and receipts 
were lower than anticipated. To ensure sufficient funding for 
operations in fiscal year 2013, including the ability to cover 
necessary staffing and critical technology upgrades when fees 
fluctuate, the office requests restoration of its base appropriations. 
As outlined in Priorities and Special Projects of the United States 
Copyright Office: 2011-2013 (www.copyright.gov/docs/priorities.pdf), 
the office is in the midst of a multi-year evaluation of fees, 
services, technology, and other issues that will inform its future 
strategies for intelligent growth.
---------------------------------------------------------------------------
                   <greek-l>loc deg.program overview
    The U.S. Copyright Office plays a critical role in promoting and 
disseminating American works of authorship and in sustaining large and 
small businesses in the information, entertainment, and technology 
sectors. It administers the national copyright registration and 
recordation systems (and exercises associated regulatory authority) in 
accordance with title 17 of the U.S. Code. The office's registration 
system and the companion recordation system constitute the world's 
largest database of copyrighted works and copyright ownership 
information.
               <greek-l>loc deg.copyright and the economy
    In terms of the larger U.S. economy, many authors, composers, book 
and software publishers, film and television producers, and creators of 
musical works depend on the registration system to protect their 
creative works and business interests. Based on a study released in 
2011 using data from 2010,\2\ these core sectors--whose primary purpose 
is to produce and distribute creative works--account for more than 6.36 
percent of the U.S. domestic gross product, or nearly $932 billion. The 
core copyright industries also employed 5.1 million workers (3.93 
percent of U.S. workers), and that number doubles to more than 10.6 
million people (8.19 percent of the U.S. workforce) when the workers 
that help and support the distribution of these works are added into 
the equation.
---------------------------------------------------------------------------
    \2\ Stephen E. Siwek, Copyright Industries in the U.S. Economy: The 
2011 Report, prepared by Economists, Inc. for the International 
Intellectual Property Alliance (2011).
---------------------------------------------------------------------------
                    <greek-l>loc deg.law and policy
    The Register of Copyrights is the principal advisor to the Congress 
on issues of domestic and international copyright policy. She works 
closely with both copyright owners and users of copyrighted materials 
to sustain an effective copyright law--on issues ranging from 
enforcement to fair use.
    Through its policy work, the Copyright Office provides leadership 
and technical expertise to ensure that the copyright law stays relevant 
and updated, not only to protect authors in the 21st century, but also 
to ensure updates for users of copyrighted works. These include 
appropriate exceptions for libraries, persons who are blind, and 
certain noncommercial educational activities.
    The Copyright Office participates in important U.S. trade 
negotiations relating to intellectual property (e.g., treaties and free 
trade agreements) at both the bilateral and multilateral levels. It 
also works with the Department of Justice (DOJ) on critical copyright 
cases.
Fiscal Year 2011
    In fiscal year 2011, the Office provided ongoing assistance to the 
Congress on a number of complex issues and delivered a major study on 
market-based alternatives to statutory licenses for cable and satellite 
retransmission. The Register testified twice on major copyright 
legislation regarding:
  --enforcement measures to combat the operators of illegal, infringing 
        Web sites trafficking in infringing copyrighted works, such as 
        movies, music, books, and software; and
  --new provisions that would update the criminal penalties for 
        infringement of the exclusive right of public performance that 
        occurs through the streaming of the work (e.g., a television 
        program or live sporting event) to make the penalties similar 
        to those for infringement based on the distribution right.
    The Office participated in major negotiations at the World 
Intellectual Property Organization and with major trading partners. On 
the litigation front, DOJ called upon the office on several important 
issues, including challenges to the constitutionality of copyright law 
amendments, interpretation of the first sale doctrine, and issues 
related to the importation of copyrighted works.
             <greek-l>loc deg.registration and recordation
    The copyright registration and recordation systems protect, and 
document for the public, a diverse array of American authorship, 
including motion pictures, software, books, musical compositions, sound 
recordings, photography, and fine art, as well as databases, Web sites, 
and other online works. The Office reached a significant milestone in 
fiscal year 2011 by returning to normal levels of processing and claim 
completion and eliminating the backlog. At the start of fiscal year 
2011, it had approximately 380,000 claims awaiting processing, and 
received an additional 539,332 claims. The office closed 734,256 claims 
during the year--nearly 195,000 more than it received. It ended the 
year with its standard workload of approximately 185,000 claims on 
hand, of which approximately one-half are awaiting further action from 
the claimants and one-half are awaiting Office action. Those in the 
Office's working queue will, on average, be processed within 2 to 4 
months, depending on the complexity of the claim.
                       <greek-l>loc deg.licensing
    The Copyright Office helps administer certain compulsory and 
statutory license provisions of the U.S. Copyright Act, which pertain 
to setting royalty rates and terms and determining the distribution of 
royalties for certain copyright statutory licenses. These licenses 
cover activities including secondary transmissions of radio and 
television programs by cable television systems and secondary 
transmissions of network and non-network stations by satellite 
carriers. The Office's primary clients with respect to the statutory 
licenses are copyright owners and users of copyrighted works that are 
subject to statutory copyright licenses. The Office is responsible for 
collecting and investing royalty fees for later distribution to 
copyright owners, examining related documents, providing information to 
various constituencies as part of its public affairs program, and 
recording documents for several licenses for which royalties are 
handled by outside parties.
    In fiscal year 2011, the Office's Licensing Division collected 
nearly $326 million in royalty fees and distributed approximately $144 
million in royalties to copyright owners, according to voluntary 
agreements among claimants or as a result of determinations of the 
Copyright Royalty Judges. The Division also began a multiyear business 
process re-engineering program designed to decrease processing times 
for statements of account, implement on-line filing processes, and 
improve public access to Office records. The new processes will be 
implemented and refined throughout fiscal years 2012 and 2013.
                     <greek-l>loc deg.acquisitions
    The Copyright Office also administers the mandatory legal deposit 
of works published in the United States. In fiscal year 2011, the 
Office managed the deposit of more than 700,000 copies of creative 
works for the Library of Congress' (LOC) collection, which LOC would 
otherwise have had to purchase, valued at approximately $31 million.
    Because more and more journals, magazines, and newspapers are 
``born digital'', the Copyright Office has led a LOC-wide effort to 
obtain and manage serials that publishers supply only in electronic 
formats. Although the project currently focuses on mandatory deposit 
provisions under title 17--provisions that require publishers to 
deposit copies of certain works with LOC within 3 months of 
publication--it serves as a test bed for the intake of works by LOC 
through other mechanisms, including the registration system. The 
Office's current work sets the stage for LOC's electronic acquisition 
strategy, which will ultimately enhance and diversify LOC's collections 
to capture and reflect American Internet culture.
    <greek-l>loc deg.priorities for a 21st century copyright office
Fiscal Year 2012
    On October 21, 2011, the Register of Copyrights released Priorities 
and Special Projects of the U.S. Copyright Office (www.copyright.gov/
docs/priorities.pdf), a comprehensive document that articulates the 
significant statutory duties of the Office as well as expectations of 
the copyright community. This document received tremendous positive 
feedback from a wide array of copyright stakeholders and the media. It 
includes everything from strategic evaluation of technical systems to 
planning for intelligent business growth for the future to updating the 
Compendium of Copyright Office Practices--the primary source of 
registration practice followed by Copyright Office staff, the public 
and courts--for the digital era.
    The communication of these priorities and special projects 
represents a commitment from the Office to address complexities in the 
copyright system and prepare for future challenges. The Office will use 
the priorities document as a roadmap to improve the quality and 
efficiency of its services subject to the availability of budgetary 
resources. The document outlines the Office's work on current and 
future law and policy questions including orphan works, small claims 
solutions for copyright owners, mass book digitization, illegal 
streaming, collaboration with WIPO, and updates to registration 
practices to accommodate works created online. The office will also 
undertake improvements to operations including:
  --technical upgrades to electronic registration;
  --increased public outreach and copyright education; and
  --re-engineering of its recordation system.
    The following are some of the specific policy projects the Office 
has completed or commenced in fiscal year 2012:
  --an analysis of legal issues relating to mass book digitization, the 
        Google book search litigation, and applicable licensing models;
  --a major study and recommendations to the Congress regarding 
        copyright protection for pre-1972 sound recordings;
  --research and analysis of small claims solutions for individual 
        authors and other copyright owners;
  --a rulemaking on exceptions to the prohibition on circumvention of 
        measures controlling access to copyrighted works for ultimate 
        determination by the Librarian of Congress (pursuant to the 
        Digital Millennium Copyright Act); and
  --the development of an updated fee schedule that takes into account 
        the Office's fiscal requirements as well as the objectives of 
        the copyright system.
    The Register of Copyrights will serve on the negotiating team for 
the United States for a major treaty to protect performers in the 
context of audiovisual works at a Diplomatic Conference to be held in 
June 2012 in Beijing, and will provide treaty implementation advice to 
the Congress, as appropriate.
    Finally, the Office will continue to evaluate, streamline, and 
otherwise improve its public services, including processing times and 
quality assurance for the examination of copyrighted works, processing 
of claimant information, and issuance of copyright registration 
certificates.
Fiscal Year 2013 and Beyond
    Fiscal year 2013 will be an extremely important year for the 
Copyright Office. The Office will continue its implementation of the 
Register's priorities and special projects; the research and analysis 
phase of many of these projects will conclude by or before October 
2013. Some of these projects relate directly to the stewardship and 
effective operation of the Nation's copyright registration system in 
the 21st century, and will yield important data to inform the Office's 
focus and strategies for fiscal years 2014-2018.
    The Office will address the implementation of its fee schedule and 
associated practices early in fiscal year 2013, following research in 
fiscal 2011 and 2012, and public consultation and delivery of a major 
study to the Congress on the topic in fiscal year 2012.
    The Office will also conclude a major analysis of the technical 
aspects of registration and recordation in fiscal year 2013, including 
crafting a strategy to address certain technology, portal, and 
processing issues about which it is studying and consulting with 
stakeholders and experts in fiscal year 2012. It will continue the 
critical work of ensuring standards for repositories of electronic 
works of authorship, and digitizing historic copyright records from the 
period of 1870 to 1977 and making them searchable online.
    The Office will continue its work on major negotiations for 
intellectual property protection in the Asia-Pacific rim and other 
regions of the world, and continue major work on the implementation of 
worldwide protection for performers in audiovisual works. It will work 
with the Congress on a number of major studies and policy developments, 
including orphan works, revisions of certain exceptions to copyright 
(including for libraries), mass digitization policy, and final work on 
small claims solutions for copyright owners (with a major study due to 
the Congress in October 2013). The office will publish portions of a 
major revision of its lengthy Compendium of Copyright Office Practices 
during fiscal year 2013, and release the final publication in October 
2013.
     <greek-l>loc deg.challenges of the current fiscal environment
    The Office is navigating an increasingly challenging budget 
environment. Since fiscal year 2010, it has absorbed a 22.7-percent 
reduction in its appropriation, partially offset by using $2 million in 
carryover funds, resulting in an effective cut of 13.1 percent. The 
overall effect was a 7-percent reduction in total budget authority 
which takes into account offsetting collections. In fiscal year 2012, a 
reduced appropriation, as well as collections that were lower than 
expected, required the Copyright Office to make significant cutbacks. 
The Office substantially reduced its information technology budget, 
slowing critical upgrades to the Office's electronic registration 
service that directly supports copyright commerce and affects both 
authors and users of copyrighted materials. The Office also reduced its 
workforce by 44 staff members through Voluntary Early Retirement 
Authority and Voluntary Separation Incentive Payments programs.
    Although the Office is currently understaffed, it has taken steps 
to delay or reduce new hiring and to reduce training, travel, supplies, 
and new equipment expenditures. The Office is concerned that continued 
funding challenges could have an adverse impact on the Office's 
registration program, potentially leading to another backlog of 
copyright claims awaiting processing. It successfully eliminated a 
backlog in fiscal year 2011 that had occurred as a result of its 
transition to electronic processing in 2007. Further reductions will 
also lead to an adverse impact on its ability to participate in 
international negotiations and other policy efforts that are important 
to U.S. trade interests. The Copyright Office is committed to 
intelligent growth, recognizing the need to develop and implement a 
clear business strategy that takes into account the needs of the 
national copyright system, while exercising sound fiscal judgment.
                   <greek-l>loc deg.fees for services
    On October 1, 2011 the Office commenced a study of the costs it 
incurs and the fees it charges with respect to the registration of 
claims, recordation of documents, and other public services, pursuant 
to its authority under 17 U.S.C. 708(b). The statute requires that the 
Office establish fees that are ``fair and equitable and give due 
consideration to the objectives of the copyright system.'' 17 U.S.C. 
708(b)(4). Such objectives include, for example, protecting creative 
works of authorship, ensuring a robust public database of authorship 
and licensing information, and facilitating the recovery of reasonable 
costs incurred by the Office.
    As noted previously, the Office will deliver the fee study to the 
Congress in fiscal year 2012, with implementation as appropriate in 
fiscal year 2013.
                               conclusion
    Mr. Chairman, I want to thank you for your consideration of our 
budget request today and for the subcommittee's past support of the 
U.S. Copyright Office. Thank you in particular for considering the 
funding we require to sustain a first-rate staff and meet necessary 
expenses, enabling us to perform our core duties under the law and 
build the infrastructure necessary to support America's copyright 
system in the years ahead.

    Senator Nelson. Thank you.
    Senator, would you like to go first?
    Senator Hoeven. That's fine. Go ahead, Mr. Chairman.
    Senator Nelson. Dr. Billington, first of all, I want to 
commend you for submitting a budget that is as lean as you're 
suggesting. I appreciate how difficult it is to do that under 
our fiscal constraints regardless. It reflects a 2.8-percent 
increase, is truly bare bones, and we certainly don't want to 
cut through the bones as well as through the muscle.
    Now, it provides for minimal growth. Perhaps you could tell 
us, what sorts of priorities LOC is deferring into the future 
simply because of a leaner budget?

 <greek-l>LOC deg.BUDGETARY CONSTRAINTS AND THE DEFERRAL OF PRIORITIES

    Dr. Billington. Well, there's quite a list. Let me just 
mention----
    Senator Nelson. Just a few.
    Dr. Billington [continuing]. Just a few. We lost 22 
reference staff, and additional budget cuts will result in 
reduced levels of reference. We've lost 50 in acquisitions and 
bibliographic access, which is the absolutely most fundamental 
thing in the entire business of having orderly and available 
LOC services. We estimate, because of these losses, that 
catalog records will decrease by about 50,000.
    The entire LOC system depends on LOC cataloging, Mr. 
Chairman. It actually costs more to catalog a book properly 
than it does to buy it, and the Nation depends on this service 
we provide. The delayed processing of copyright registrations 
also will eventually lead to an arrearage, a problem we've 
overcome recently.
    CRS has the most serious problem. CRS no longer has the 
flexibility to shift resources to develop new analytic 
capacities in accordance with the congressional schedules and 
needs. It lost 40 people, and the professional expenditures for 
development and training to cover the broader spectrum of areas 
that individual analysts have to cover, also will increase.
    There is a lot of loss here and I'd like to go on, but 
there are very specific things we can point to, economics, 
healthcare, energy, and the copyright policy experts who 
directly address the important international questions, both 
domestically and internationally. IT security--for which we did 
not request any funding--had to be reprogrammed and we 
allocated substantial resources from other areas of the budget 
to cover IT security requirements.

             AFFORDABLE ACCOMMODATIONS FOR LIBRARY VISITORS

    I should point out that what we have accomplished in the 
past year is that we have completed private fundraising for 
conversion of a nearby building here on Capitol Hill into 
affordable temporary housing, for the reconstruction of the 
building that the Congress bought long ago.
    Thanks to cooperation with the AOC, this renovated facility 
will enable access to the collections and the resources of LOC 
to teachers around the country who are using our primary source 
teaching material. We've trained an awful lot of teachers this 
past year. They want to come to use our collections, but they 
can't afford it. Interns are discovering in the copyright 
deposit collections enormous treasures of the American past. 
The lack of affordable residential housing makes it difficult 
for such interns to come to LOC.
    Just yesterday I received a letter from a distinguished 
Muslim scholar in Western Europe whom we were very anxious to 
bring here, who could offer us quite a mixed perspective. And 
he just couldn't afford to come because he couldn't find 
inexpensive temporary housing. Visiting scholars, teachers, and 
interns are of capital importance for making the best use of 
the unique national resources that LOC holds. The inability to 
house these visitors is creating a great deal of difficult 
choices, which we will make, but the need is becoming crucial.

                <greek-l>LOC deg.FUNDING FOR FORT MEADE

    Senator Nelson. One further question. On that, what would 
be the impact of not funding the Fort Meade collections 
transfer program? If we didn't fund that, what would be the 
implications?
    Dr. Billington. Extending support for the transfer of 
collections to Fort Meade is separate and apart from the 
rationale for Module 5, which is that we have 1 million books 
sitting on floors now that are increasingly difficult to 
access. But extending support for the transfer of collections 
to Modules 3 and 4 also is essential.

          <greek-l>LOC deg.PUBLIC/PRIVATE CAPITAL INVESTMENTS

    And I might mention, by the way, that we were able to 
create the entire new Packard Campus, that was a $150 million 
project--actually, worth a lot more than that because of 
donated expertise--that is a major capital investment of the 
kind AOC was pointing out as difficult to produce with annual 
funding. But Packard Campus funding and the private funding 
which also is creating the affordable residential scholar 
center for teachers all over the country who want to come and 
see the originals of what they're teaching in the classroom, 
all of that has been done with private funding. The requested 
$1.7 million is simply to extend the period of time to complete 
the collections transfer to Fort Meade Modules 3 and 4 and 
provide interim storage for collection materials at the 
Landover Center Annex.
    So, this funding is important, but only a stopgap measure 
for new capital investments are made. The compact storage 
modules at Fort Meade are much more economical for the long 
term and meet preservation standards for storage. Just as the 
Packard Campus is giving us the possibility of both storing and 
preserving and making accessible basically the national 
patrimony of radio, television, movies, and recorded sound in a 
way that is for the ages because the capacity there is 
enormous, the new residential facility will be affordable--for 
young scholars, for people that are working with the world 
digital library that we're helping produce, who want to come 
from all over the world and all over the United States because 
of what there is here. They're not able to use it because there 
is no inexpensive and convenient place to stay. And we estimate 
roughly that the center will be able to accommodate about 2,500 
of these short-term stays each year.
    This facility will make a huge difference in the 
contribution to K through 12 education. Our Web site, with its 
immense amount of material online, primary documents, is 
enabling teachers to see the originals and pass on the 
enthusiasm and inspiration that comes from seeing the 
originals. They then can go back to struggling schools all over 
America and teach.
    Those capital investments have been handled on the private 
side. They're very important for the long haul for our own 
health and also for the gathering of the kind of information we 
really need in this information age. By the way, the 
differential between what the LOC has and what other places 
have is increasing because the strain on other libraries 
throughout America is increasing. Both private and public 
libraries are suffering. Therefore, if we don't get the storage 
that we have requested, we will have to cut back on 
acquisitions. And that hurts the whole country which depends on 
the depth and diversity of our collections.
    Senator Nelson. Well, thank you. Thank you.
    Senator Hoeven.

       <greek-l>LOC deg.LIBRARY PRIORITIES AND FUNDING REDUCTIONS

    Senator Hoeven. Thank you, Mr. Chairman.
    Dr. Billington, it looks like your budget request is about 
a 2.8- percent increase. And I know that in your case, it's 
very challenging to hold the line and find savings in your 
budget because it's largely people intensive, and that makes it 
very challenging. But as was the case last year, I think we're 
going to end up working within a number that is going to be 
less than the budget submissions that we have here.
    So, in terms of your budget, how would you prioritize to 
try to find additional savings? Would you look at specific 
programs? And if so, which programs? Are there some things you 
can do across the board? What do you do if you have to find 
some more savings in this budget versus the 2.8-percent 
increase?
    Dr. Billington. I'm sorry. Would you repeat your question?
    Senator Hoeven. I'll try once again. Your budget increase 
is 2.8 percent. We may not be able to increase your budget by 
2.8 percent. If so, how would you start to identify savings? 
Are there some programs you would look at? Would you look at 
across-the-board savings? How would you try to identify 
additional savings beyond the 2.8-percent increase that you 
submitted in your budget?

  <greek-l>LOC deg.LOSS OF CRUCIAL STAFF THROUGH RETIREMENT INCENTIVES

    Dr. Billington. Well, it's very difficult. We created $11 
million of cost avoidance with the buyout, but, of course, 
that's a purely voluntary option. I have no authority to really 
encourage people either to apply or not to apply for such an 
option. We lost some very crucial people. We'll give you, for 
the record, a list of people that we lost.
    [The information follows:]

  LIBRARY OF CONGRESS FISCAL YEAR 2012 EARLY OUT (VERA)--BUYOUT (VSIP)
                              PARTICIPATION
------------------------------------------------------------------------
             Organizational unit              Position title  Participants
------------------------------------------------------------ --------------
Library Services [LS]:
    LS--ALLS--AFC--Veterans History Project:
        Library Technician..................               1
    LS--Acquisitions and Bibliographic
     Access [ABA]
        Librarian...........................              35
        Library Technician..................              17
    LS--Collections and Services [CS]:
        Archivist...........................               1
        Collection Protection Work Leader...               1
        Computer Operator...................               1
        Librarian...........................              14
        Library Technician..................               9
        Material Handler....................               1
        Secretary...........................               1
        Supervisory Librarian...............               1
        Technical Information Specialist....               1
        Technical Support Assistant.........               1
    LS--CS--Packard Campus NAVCC:
        Librarian...........................               1
    LS--Partnership and Outreach Programs
     [POP]:
        Writer-Editor.......................               1
    LS--Preservation [PRES]:
        Librarian...........................               3
        Office Automation Assistant.........               1
    LS--Technology Policy (Tech):
        Information Technology Specialist...               2
        Librarian...........................               1
    National Library Service for the Blind
     and Physically Handicapped:
        Library Technician..................               2
        Office Automation Assistant.........               1
        Warehouse Worker....................               1
Office of Strategic Initiatives:
    Computer Assistant......................               2
    Information Technology Specialist.......               4
Law Library:
    Foreign Law Specialist..................               1
    Librarian...............................               1
    Library Technician......................               1
    Supervisory Librarian...................               1
Office of the Librarian: Senior                            1
 Congressional Relations Specialist
Office of the Chief Financial Officer:
    Senior Operating Accountant.............               1
Office of Support Operations:
    Human Resources:
        Administrative Officer..............               1
        Administrative Specialist...........               1
        Human Resources Specialist..........               1
    Integrated Support Services [ISS]:
        Fire Prevention Engineer............               1
        Motor Vehicle Operator..............               1
        Safety Specialist...................               1
        Visual Information Specialist.......               1
    ISS-Logistics:
        Motor Vehicle Operator..............               1
        Program Specialist..................               1
        Warehouse Worker....................               1
        Warehouse Worker Leader.............               1
    ISS-Facilities: Food Service Worker                    1
Copyright Office:
    Copyright--Basic:
        Accounting Technician...............               1
        Administrative Support Clerk........               1
        Attorney-Advisor....................               1
        Copyright Specialist................              14
        Deposit Copies Storage Clerk........               1
        Information Technology Specialist...               1
        Lead Mail Assistant.................               1
        Librarian (Acquisitions)............               1
        Library Technician (Copyright)......               8
        Mail Clerk..........................               5
        Secretary (Office Automation).......               1
        Supervisory Copyright Specialist....               4
        Supervisory Office Automation                      1
         Assistant..........................
        Writer-Editor.......................               1
    Copyright--Licensing:
        Library Technician..................               1
        Supervisory Copyright Specialist....               1
Congressional Research Service:
    Administrative Operations Assistant.....               1
    Administrative Support Assistant........               1
    Biological Science Analyst..............               1
    Economist...............................               2
    Foreign Affairs Analyst.................               1
    Information Technology Specialist.......               3
    Librarian (Research Specialist).........               2
    Program Specialist......................               1
    Program Support Assistant...............               2
    Social Science Analyst..................               4
    Staff Assistant.........................               1
    Technical Information Specialist........               3
                                             ---------------------------
      Total participants....................             186
------------------------------------------------------------------------


    Dr. Billington. Although the increase we're asking for is 
largely for mandatory pay raises, the last thing we want to do 
is contemplate further reductions in staff, because it's the 
staff that brings us the life, and is assuming more and more 
responsibility. As the demand for services increases and 
diversifies, the opportunities to make use of it and to sustain 
it are being curtailed. We'll have to just make the difficult 
decisions.

            <greek-l>LOC deg.IMPACT OF REDUCED ACQUISITIONS

    I can't really tell you how, because if you reduce, if you 
seriously reduce acquisitions, for instance, the impact on this 
institution, which is so utterly unique and so much larger and 
more comprehensive than other libraries, that it is acquiring, 
preserving, and making maximally accessible the world's 
knowledge and America's creativity, is immense.
    Because of the unique copyright deposits, the unique things 
we acquire, and the worldwide network of exchanges which we are 
a party to, rebuilding after significant budget cuts is very 
difficult. But if you reduce acquisitions, imagine you've been 
acquiring a scientific journal for 100 years. You skip a year, 
but you don't simply reduce the utility of the journal by one 
one-hundredth. You reduce it by about one-half in terms of its 
utility because scientific periodicals, all periodicals are 
constantly revising information published earlier. If you 
aren't up to date, you can't translate this into utility. You 
cannot make up for the information lost; that's why I talked 
about cutting into the bone.

        <greek-l>LOC deg.IMPACT OF CUTS TO PRESERVATION SERVICES

    Beyond acquisitions, we are unique in the preservation 
business across the world. We have the only program for the 
mass deacidification of paper. Twenty-five years ago, when I 
first came to LOC, a study said that 75,000 books are being 
reduced to virtual dust by the high acidic content of all paper 
that has been used since 1850. We have arrested that 
deterioration.
    The Congress has asked us to create standards for the 
physical conservation of collection materials. There is so much 
more history now and increasing numbers of requests, for 
example what did somebody say on television 20 years ago? You 
assume you can locate the answer, however, the relevant 
recording may not be there. We are a throw-away society, but 
LOC has a national responsibility to preserve the information 
that others throw away. That's what these new facilities--Fort 
Meade and the Residential Scholars Center--are about.

                   <greek-l>LOC deg.DIGITAL PRESENCE

    And then finally, we make the collections maximally 
accessible with our massive digital presence. We have 31 
million digital files online, including an enormous number of 
the primary documents of American history and culture that are 
essential for K through 12 education. Most everything we've put 
online is pure primary content. This is not just information 
you don't know you can believe or trust. So, cutting these 
kinds of essential services presents difficult choices.

                     <greek-l>LOC deg.STAFFING CUTS

    The most painful choice of all is if you have to cut the 
staff or have massive RIFs. As I said, we are getting very 
close to the bone. I can promise you that we will look, and not 
cry wolf. We will conscientiously continue as we've been doing, 
to do more with less. But the difficulty with institutions as 
large and as full of various things and the enormous 
possibilities for the future that they represent are that you 
don't know until after you've cut into the bone that the nerve 
ends have been frayed and the possibilities have been 
fundamentally changed.
    LOC is a unique world resource for the United States of 
America; otherwise, UNESCO wouldn't have looked at us as a 
partner in the creation of a world digital library, again, 
almost entirely privately funded. We're not going to do this 
kind of program at the expense of the more fundamental 
programs, but we're accomplishing a lot. We have wonderful, 
dedicated staff. The dedication of staff over long periods of 
service is terrific.

 <greek-l>LOC deg.ADDITIONAL BUDGET REDUCTIONS POTENTIALLY DEVASTATING

    I can't give you my formula, but I can assure you that the 
staff, which has never been stronger, will conscientiously do 
its best to make do with whatever resources you have given us. 
But I would be remiss in my obligations to you if I didn't warn 
that a great institution like this, that took 212 years to 
build, could be destroyed not because anybody wants it 
destroyed, but because it simply has tipped down and cannot get 
back up, because the effort to get up has doubled or tripled. 
Restoring what has been lost becomes impossible.
    But I would point out again, without a development office 
until recent years or a board of trustees, without a lot of 
appointees who can help in the fundraising, we have succeeded 
in raising significant funds for these capital projects. We've 
had wonderful cooperation from the AOC, not because we have a 
building complex, but just to remain faithful to our 
fundamental obligation of the Nation to acquire and preserve. 
Preservation is very important to almost everything produced--
sound, movies, everything--and we have permission from the 
Congress to set up national registries for the preservation of 
sound and film.

                  <greek-l>LOC deg.NATIONAL PATRIMONY

    We have the obligation of creating a national patrimony of 
the things that America has uniquely created, as well as to 
gather material in 470 languages from all over the world. Who 
would have thought 40 years ago, even 25 years ago, that 
material from places like Afghanistan or Chechnya or Burundi 
would be important to have?
    LOC has probably the largest collection of Arabic and maybe 
even Farsi, Persian, Iranian materials anywhere. And there's so 
much here that's going to be important for future generations 
that we don't even know about, but we don't want to lobotomize 
the human memory. This institution is the most retentive and 
still-active guardian of human memory we have, and it's 
something that we just can't afford to let go. But I don't want 
to conduct a filibuster here, Mr. Chairman.
    Senator Hoeven. Dr. Billington, we appreciate tremendously 
what you and your staff do. It is a world-renowned institution 
and the quality of your work is absolutely incredible. So, 
we're going to do our best within the budget constraints that 
we have to work with, but thanks for being here. Thanks for 
being here today and for your input.
    No further questions, Mr. Chairman.
    Senator Nelson. Well, thank you.

            <greek-l>LOC deg.ADDITIONAL COMMITTEE QUESTIONS

    Well, let me associate myself with those complimentary 
remarks about the LOC, Dr. Billington, and all of your staff. 
There's no question about the quality of your work and how it's 
held in esteem. So, we appreciate very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
               Questions Submitted by Senator John Hoeven
                 <greek-l>loc deg.zero-based budgeting
    Question. Since each of the agencies within the legislative branch 
were directed to develop and present the fiscal year 2013 budget 
requests using a zero-based budgeting approach, I would like to hear 
from you about how this process worked within your agency.
    Was this a helpful process or a hindrance in developing the budget 
request?
    Answer. The Library of Congress (LOC) undertook an in-depth review 
of operations and services to inform the development of the fiscal 2012 
spending plan and as the foundation for the development of requirements 
for fiscal 2013. This review involved an examination of the costs of 
individual programs and units within programs at a finer level of 
detail than done in the past and related these programs and costs to 
goals in LOC's strategic plan. Particular focus was directed at 
information technology infrastructure and information technology 
support operations across LOC, a part of the review that now is close 
to complete. This has been a labor intensive process. However, it was 
instructive and useful, resulting in insights into programs that could 
potentially be realigned to reduce or contain the damage of budget 
reductions to core mission services.
    Question. Were you able to find sustainable efficiencies that will 
result in continued savings over time, or one-time only savings?
    Answer. The budget review has not at this point revealed entire 
programs or operations that could be significantly reduced or 
eliminated to achieve savings. Reductions in staff will result in 
continued savings over time.
    Question. Is this a process you will be able to replicate for 
future budget requests?
    Answer. Some elements of the budget review done this year are 
likely to become permanent components and phases of LOC's annual budget 
formulation processes. The design of a strategy and methodology for the 
data collection, presentation, and review took several months of staff 
time, an investment of effort that will not necessarily need to be 
duplicated in future years.
    <greek-l>loc deg.voluntary early retirement authority/voluntary 
                      separation incentive payment
    Question. The Committee provided guidance in the fiscal year 2012 
appropriations legislation that each agency within the legislative 
branch should consider using Voluntary Early Retirement Authority/
Voluntary Separation Incentive Payment (VERA/VSIP) in order to reduce 
salary costs to the agency.
    Were each of you able to utilize VERA/VSIP authority; and if so, 
was this a successful mechanism for reducing costs?
    Answer. LOC was authorized to execute a VERA/VSIP retirement option 
in fiscal year 2012. The number of staff participating in the program 
was 186, resulting in reduced costs in fiscal 2012, net of the cost of 
incentive pay ($8 million), of approximately $11 million. The actual 
cost avoidance achieved through the VERA/VSIP incentive was 
significantly less than budget cuts LOC sustained this year. The 
overall reduction in LOC 's fiscal 2012 budget was $42.3 million, with 
the VERA/VSIP cost avoidance representing only 26.6 percent of that 
amount.
    Question. Are those savings realized immediately, or in the out 
years?
    Answer. The $11 million cited above represents the cost avoidance 
that will be realized by the end of fiscal year 2012. The annualized 
effect of the fiscal year 2012 VERA/VSIP retirements, independent of 
base funding cuts that will be sustained, is estimated to be $19 
million in fiscal year 2013.
    Question. Realizing that losing people who are eligible for 
retirement or early separation often means losing some of the best and 
brightest people with the greatest institutional knowledge within your 
organization, how have staffing reductions impacted your agency?
    Answer. Careful planning was done in preparation for executing the 
VERA/VSIP retirement program, to offer the buyout only to targeted 
positions across LOC where losses would cause the least damage to 
programs. Nonetheless, the departure of 186 experienced personnel, 
while also losing the opportunity to fill a number of vacant positions, 
represents a permanent and significant thinning of institutional 
capacity despite good succession planning.
    The Congressional Research Service (CRS) lost 24 analysts and 
attorneys resulting in the necessity to broaden research portfolios 
across the board and the potential for slower response rates. Among CRS 
retirements were the Senior Intelligence Analyst and the Senior Asia 
Specialist. Law library retirements included the expert in Canadian and 
Caribbean law and a senior law curator. LOC will operate with 22 fewer 
reference librarians as a result of the retirements, reducing services 
for researchers in the reading rooms and for libraries across the 
United States that rely on LOC's reference services. Fifty thousand 
fewer items are likely to be catalogued, impacting every library in the 
country. Staff retirements of the Copyright Office numbered 43, 
lessening the capacity of its copyright registration workforce.
    Question. Do you have succession plans in place that allow for a 
smooth transition of responsibilities.
    Answer. LOC has focused on succession planning as a strategic 
priority for at least a decade, after a study confirmed the number of 
retirement eligible personnel whose loss could threaten the 
institutional knowledge base. Nonetheless it has been difficult to 
recover from permanent cuts like those we have sustained this year, 
when there are minimal budgetary resources to refill essential 
positions or provide adequate levels of training. While organizational 
realignment can blunt the impact of some of the losses, there has been 
a permanent reduction in institutional capacity relating to the broad 
and deep knowledge of many of those who have retired.
           <greek-l>loc deg.fiscal year 2013 budget requests
    Question. I realize that it is important for each agency to request 
what it believes is necessary in terms of funding for operations and 
projects without knowing how much funding will be available in the next 
budget cycle; however, it should be clear to everyone what path we are 
on given the fiscal situation still facing our country. Therefore, it 
concerns me that each agency represented here today, except for the 
Open World Leadership Center, requested a budgetary increase for fiscal 
year 2013.
    What would be the impact to each of your agencies if you were held 
to the fiscal year 2012 enacted level of funding?
    Answer. Of LOC's fiscal 2013 funding request of $603.6 million, 
$14.3 million represents the estimated cost of mandatory pay-related 
and price level increases, costs that LOC has no choice but to cover. 
Without additional funding, absorbing these mandated costs will be 
possible only through the curtailment of other activities of a 
comparable value. For example, absorbing a cost of $14.3 million 
entirely by reducing staffing--if there were continued flexibility to 
do so--would require removing an additional 78 personnel from the 
payroll by October 2, 2012, the first day of the fiscal year. This 
would have an impact on the scope and timeliness of LOC's services to 
the Congress and the Nation.
    Question. What would be the impact of a reduction below the fiscal 
year 2012 funding level?
    Answer. A reduction below the fiscal year 2012 level would result 
in a realignment of services with a concretely negative impact on 
certain constituents. LOC would further reduce its research capacity 
for the Congress. Public services on Capitol Hill would be further 
reduced. Our capability to provide timely records of copyright 
registration would be seriously impaired.
    Question. At what funding level reduction could your agency no 
longer continue to provide the services you are required to provide 
without making significant changes to the agency and its mission?
    Answer. As the Librarian indicated in his fiscal year 2013 budget 
testimony, the current funding reductions have cut into LOC's muscle, 
and we are hoping to avoid cuts to the bone. In short, LOC would be at 
the point of having to make significant changes to its programs and 
services if funding were reduced below the fiscal year 2012 level.

                      OPEN WORLD LEADERSHIP CENTER

STATEMENT OF AMBASSADOR JOHN O'KEEFE, EXECUTIVE 
            DIRECTOR
    Senator Nelson. Well, Ambassador, the floor is now yours.
    Ambassador O'Keefe. Thank you very much, Mr. Chairman, 
Senator Hoeven. All of us at OWLC appreciate the opportunity to 
testify on our fiscal year 2013 budget request. And I would 
like to add to Dr. Billington's remarks about what an honor 
it's been to work with you, Mr. Chairman, over these couple of 
years. I deeply appreciated and deeply appreciate the guidance 
of your staff as well.
    Dr. Billington, of course, is on our board and he's the 
founding chairman of OWLC, so, I will be careful in my remarks. 
He is also my boss.
    We now have an Omaha chairman.

 <greek-l>OWLC deg.OPEN WORLD LEADERSHIP CENTER PROGRAMMING IN FISCAL 
                               YEAR 2012

    Ambassador O'Keefe. Despite several years of budget cuts, 
we have continued to hone our effectiveness both in the United 
States and abroad. Just this week we sent a delegation of 
Armenian bloggers to our 2000th host community. This year we 
will also expand our program to Uzbekistan beginning with 
Parliamentarians. Our strategic plan, approved by the board of 
trustees, envisions strengthening our work with American 
communities and leveraging their power to show what our 
delegates describe as ``the America we never knew existed''.
    The plan also establishes our new ``30 under 30'' 
initiative. We're setting aside 30 percent of our slots for the 
generation that has just come of age after the breakup of the 
Soviet Union, and which has a far different world view than 
those who came before. Despite rising base costs of 
transportation and contracts, we have not requested an increase 
in funding in fiscal year 2013. There are several reasons for 
this.
    First and foremost, cost shares from our hosts throughout 
America, have risen steadily. We have also found partners 
willing to assume some international transportation costs. And 
we hope that private donations will help sustain our work in 
the coming fiscal year. In all, 25 percent of our resources 
will come from outside the legislative branch appropriation. It 
is this broad support, both materially and in spirit, that 
makes this program incredibly strong while allowing us to keep 
this request modest.
    I must emphasize, though, that our $10 million request 
stands as a tipping point. If we dip below that level, the cost 
per delegate rises. The strong base of communities diminishes. 
Our cost shares begin to dry up, and partners drift away.

 <greek-l>OWLC deg.OPEN WORLD LEADERSHIP CENTER RESULTS IN RUSSIA AND 
                            OTHER COUNTRIES

    So, what has this investment produced? You will have read 
of the enormous crowds in Moscow and other Russian cities 
seeking to curb corruption and hold fair elections. Leaders of 
that movement are OWLC alumni. In February, we hosted more than 
40 regional legislators from Ukraine in communities across the 
United States. In a follow up survey, one of the frequently 
made comments shows how perceptions of these rising leaders, on 
OWLC programs, change, becoming overwhelmingly positive toward 
the United States, and I quote:
    ``I had some prejudices toward the United States. This trip 
made me change my mind. In some respects, my opinion changed 
drastically. Today at my department, we were discussing the 
United States and its citizens. Six out of seven members were 
present and started speaking negatively about America and its 
people. I began to defend Americans and gave examples of how 
they work for the benefit of the community, about the high 
level of their civic awareness and their readiness to help 
others.''
    As mentioned before, our hosts give time and money. But as 
you can see from this example, what makes the difference to our 
delegates is that the hosts give so much of themselves. All of 
us at OWLC deeply appreciate the engagement and support of 
Members of Congress, and particularly of this subcommittee 
where we remain a uniquely effective legislative instrument, 
providing the Congress with a resource that promotes 
constituent diplomacy.

                           PREPARED STATEMENT

    By supporting OWLC, you will allow Americans in every State 
to make a difference at the grassroots level and effect 
positive changes in communities in the complex and 
strategically important nations of Eurasia.
    Thank you, Mr. Chairman, Senator Hoeven.
    [The statement follows:]
             Prepared Statement of Ambassador John O'Keefe
    Mr. Chairman, Senator Hoeven, distinguished members of the 
subcommittee: I appreciate the opportunity to present testimony on the 
Open World Leadership Center's (OWLC) budget request for fiscal year 
2013. OWLC--of which I am the Executive Director--conducts the only 
foreign-visitor exchange program in the legislative branch. 
Congressional participation in our programs and on our governing board 
has made OWLC a uniquely effective instrument for Members, their 
constituents, and communities around America. All of us at OWLC are 
deeply grateful for your support.
                                overview
    The OWLC program connects the Congress to its constituents, who in 
turn practice public diplomacy on behalf of their elected officials. 
The net effect of these efforts is a deep and ongoing influence on the 
views and goals of OWLC delegates as they influence events in their own 
countries. With the power of the 2,000 communities throughout America 
that have participated over the life of the program, OWLC enhances 
professional relationships and understanding between political and 
civic leaders of participating countries and their counterparts in the 
United States. It is designed to enable emerging young leaders from the 
selected countries to:
  --observe U.S. Government, business, volunteer, and community leaders 
        carrying out their daily responsibilities;
  --experience how the separation of powers, checks and balances, 
        freedom of the press, and other key elements of America's 
        democratic system make the Government more accountable and 
        transparent;
  --develop an understanding of the U.S. free enterprise system;
  --learn how U.S. citizens organize and take initiative to address 
        social and civic needs;
  --participate in American family and community activities; and
  --establish lasting professional and personal ties with their U.S. 
        hosts and counterparts.
    Because OWLC provides such high-caliber programs, participants 
return to their countries with a tangible appreciation of America's 
democracy and market economy. To that end, OWLC has refined and focused 
on key themes central to democracy-building to improve the quality of 
the U.S. program. The impact of the 10-day United States stay is 
multiplied by continued postvisit communication between participants 
and their American hosts, their fellow OWLC alumni, and alumni of other 
U.S. Government-sponsored exchange programs.
   <greek-l>owlc deg.open world leadership center activities in 2012
    OWLC's plans for calendar year 2012 include programs for members of 
Parliament from Azerbaijan, Kazakhstan, Kyrgyzstan, Moldova, 
Turkmenistan, and Uzbekistan, and regional and municipal legislators 
from Russia and Ukraine. We have expanded our rule-of-law program 
beyond Russia and Ukraine to include Georgia, Kazakhstan, Kyrgyzstan, 
Moldova, Russia, Ukraine, and Serbia--countries where we are finding 
substantial cooperation and a slow, cautious movement toward an 
independent judiciary. We also continue to foster sister city/sister 
state programs in many locations in the United States that forge 
stronger ties between our countries.
    OWLC hosts in thematic areas that advance U.S. national interests, 
support American communities active in these areas, and generate 
concrete results. We will build on OWLC's incremental and growing 
successes, and will continue to emphasize such topics as the rule-of-
law, human trafficking prevention, education, health, and the 
legislative branch's role in bringing about good governance.
    Our efficient stewardship of resources and programming attracted 
USAID to partner with and provide funding for OWLC programs for Serbia 
in 2012. The U.S. Embassy in Ukraine co-funded telemedicine programs in 
the United States and the Civilian Research and Development Foundation 
co-sponsored a delegation of Russian researchers in nanotechnology. 
These are just a few examples of inter-agency collaborations that the 
OWLC has accomplished due to our reputation for results and cost-
effectiveness. In fact, every program hosted and sponsored by OWLC has 
a partnership and cost share component at its core.
     <greek-l>owlc deg.open world leadership center plans for 2013
    In fiscal year 2013, in concert with the board of trustees-approved 
strategic plan, OWLC has established a goal of bringing 30 percent of 
its delegates from the generation that has come of age since the 
breakup of the Soviet Union. This group differs from the previous 
generations both by its access to a greater range of information and, 
in some countries, a more nationalistic view of the world. To achieve 
this goal, we are developing a new group of nominators who will assist 
us in identifying emerging leaders of this rising generation. We are 
also seeking young professionals in the United States who will 
introduce these delegates to other young professionals in their 
communities.
    As an agency created to serve the Congress, OWLC will also assist 
Members who wish to invite their legislative counterparts from these 
strategically critical nations. We will provide a means for Members on 
fact-finding missions abroad to extend invitations to key members of 
legislative bodies to see firsthand the working of U.S. legislatures, 
at both the national and State levels. To fulfill the mandate from our 
Board, we are developing a program for Uzbekistan and plan to have 
members of both chambers of their Parliament as participants in 2013. 
We requested no increase in our appropriation and will fund this 
initiative through cost shares, savings, and redistribution of 
resources.
  <greek-l>owlc deg.breadth and depth of open world leadership center 
                              programming
    OWLC regularly evaluates program performance to ensure that OWLC is 
meeting its mission of focusing on a geographically and professionally 
broad cross-section of emerging leaders who might not otherwise have 
the opportunity to visit the United States:
  --Since the program was established with Russia in 1999, the OWLC 
        program has now hosted emerging leaders from almost all the 
        countries of the former Soviet bloc. The program added Ukraine 
        in 2003. In 2007, OWLC expanded to Azerbaijan, Georgia, 
        Kyrgyzstan, Moldova, and Tajikistan. OWLC's Kazakhstan and 
        Turkmenistan programs began in 2008; its Armenia program was 
        launched in 2011. In 2012, the program welcomed its first 
        delegations from Serbia. OWLC has also hosted delegations from 
        Belarus, Lithuania, and Uzbekistan.
  --More than 80 percent of Russian participants live outside Moscow 
        and St. Petersburg.
  --More than 60 percent of OWLC delegates have been Federal, regional, 
        or local government officials at the time of their visit.
  --1,645 Russian and Ukrainian judges have been hosted in U.S. courts 
        and communities as part of OWLC visits focused on the rule of 
        law. Another 145 judges from Azerbaijan, Georgia, Kazakhstan, 
        Kyrgyzstan, Moldova, Tajikistan, Turkmenistan, and Uzbekistan 
        have taken part in OWLC rule of law programs.
  --OWLC has brought 155 members of the Russian Federation Council and 
        State Duma to the United States. Members of the national 
        parliaments of Azerbaijan, Belarus, Georgia, Kazakhstan, 
        Kyrgyzstan, Moldova, Turkmenistan, and Ukraine have also 
        participated in the program. Of the Russian Duma members 
        elected in December 2011, 27 are OWLC alumni.
  --More than 90 percent of delegates are first-time visitors to the 
        United States.
  --More than one-half of all delegates are women. (Women did not have 
        significant leadership opportunities in the Soviet Union.)
       <greek-l>owlc deg.open world leadership center in america
    OWLC delegates are hosted by a large and dedicated group of 
American citizens who live in cities, towns, and rural communities 
throughout the United States:
  --Since OWLC 's inception in 1999, more than 7,100 families have 
        hosted participants in 2,000 communities in all 50 States.
  --In 2011, the 204 locally based OWLC host organizations included 
        universities and community colleges, library systems, Rotary 
        clubs and other service organizations, sister-city 
        associations, courts, and nonprofits.
  --More than 150 U.S. Federal and State judges have hosted their 
        counterparts from Russia, Ukraine, Azerbaijan, Georgia, 
        Kazakhstan, Kyrgyzstan, Moldova, Tajikistan, and Turkmenistan.
    The generosity and enthusiasm of our American hosts is a mainstay 
of the program. For the 2012 grant proposal cycle, demand for hosting 
OWLC delegations was up to three times the supply of available hosting 
slots. In 2010, Americans gave $1.72 million worth of in-kind 
contributions to the OWLC representing 34 percent of the total cost of 
the hosting program. Other partners provided an additional $580,000 in 
in-kind contributions. We expect similar in-kind contributions for 2011 
when final reporting is complete.
    Visiting delegates, in turn, have enriched American communities by 
sharing ideas with their professional counterparts, university faculty 
and students, Governors and State legislators, American war veterans, 
and other American citizens in a variety of forums such as group 
discussions, Rotary Club breakfasts, and town hall meetings.
    In the past month alone, OWLC has learned of the following 
partnerships and projects implemented through the OWLC program or 
initiated and reported on by OWLC alumni:
  --In a significant development, OWLC has learned that the leaders of 
        the new opposition in Russia that emerged in December include 
        OWLC alumni.
  --On February 17, 2012, a sister-city partnership was signed between 
        the Ukrainian regional capital city of Uzhgorod and Little 
        Rock, Arkansas. The agreement was signed by Mayor Mark Stodola 
        and a Deputy of the Uzhgorod City Council, Vasyl Gnatkiv, a 
        member of an OWLC delegation visiting Little Rock to examine 
        the role of legislatures in accountable governance.
  --A Ukrainian television reporter established an investigative 
        journalism nongovernmental organization (NGO) based on his 
        observations of a student-journalist project at Carrolton 
        College in Atlanta, Georgia, which he visited during his OWLC 
        exchange. The organization focuses on investigating and 
        reporting on human rights violations. He is now turning his 
        efforts to involving young, socially active Ukrainians in the 
        political and governing processes through an organization 
        called ``SAN'' (Self-Governed Alternative Network). The Network 
        plans to support candidates for the fall parliamentary 
        elections.
  --The southern Moldovan city of Cahul is benefiting from two projects 
        initiated by an OWLC alumnus, hosted in Madison, Wisconsin in 
        2009, who is both a city councilman and NGO administrator. The 
        Cahul governmental authorities and local NGOs are collaborating 
        on a project called ``Cahul--Youth Capital of Moldova 2012'' to 
        promote activities for youth. The second project is supported 
        by a grant from the U.S. Embassy and involves the establishment 
        of a park between two housing projects, promoting its use for 
        recreation, and encouraging volunteerism to maintain the park.
  --Two Tajik OWLC alumni, one hosted in Princeton, West Virginia and 
        the other in St. Louis, were instrumental in the opening of 
        ``Window to America'' and ``American Corners'' centers in their 
        respective home cities. Both alumni worked with the local Tajik 
        government to obtain rooms and other support for these learning 
        centers that now bring to the local population both information 
        about America and English language training through further 
        support by the U.S. Embassy.
    Results such as these solidify the importance of these countries' 
participation in the OWLC program. Furthermore, OWLC provides ongoing 
benefits to the U.S. economy through such activities as purchases of 
equipment in the United States by OWLC alumni and follow-on exchange 
visits to the United States initiated by contacts made through OWLC. An 
example of the latter is an education exchange for children from 
Nadezhdinskiy, Russia planned for this summer by OWLC American hosts 
associated with People-to-People International in Scottsdale, Arizona. 
Besides learning English during their stay in Arizona, the group will 
visit Las Vegas, San Diego, and Los Angeles.
     <greek-l>owlc deg.highlights of calendar year 2011 programming
Parliamentary Hosting
    The OWLC program hosted the first delegation of members from the 
new Parliament of Kyrgyzstan, elected in October 2010. During their 
stay in Washington, DC, they met with numerous Members of Congress and 
observed a session of the House of Representatives, presented at a 
roundtable at Johns Hopkins University School of Advanced International 
Studies where they provided each of their political party's view of the 
only fully democratic country in the region. They were also hosted in 
Pittsburgh and Harrisburg, Pennsylvania where the delegates observed 
the legislative process at the city and State levels.
    In May 2011, Representative Renee Ellmers (R-NC) served as the 
congressional host for two Moldovan parliamentarians examining 
accountable governance in the Raleigh area. The Moldovans had 
discussions with Representative Ellmers and several State legislators 
about their duties and office operations; viewed State legislative 
proceedings; heard about the role of the State Secretary of State's 
office; and learned about the preservation of parliamentary documents 
and the State legislature's online resources. North Carolina and 
Moldova have a formal ``Sister State'' relationship.
    The U.S. Mission in Ukraine turned to the OWLC program in September 
2011 to host Parliamentarian Lesya Orobets and directly funded this 
hosting program. During her visit, Deputy Orobets met with 
Congressional Ukrainian Caucus Cochair Representative Marcy Kaptur (D-
OH) for a peer-to-peer conversation about economic development, current 
affairs, and representative government. Deputy Orobets chairs an 
education subcommittee and is fighting for greater transparency in the 
education system. She is also a pioneer in using social media to 
communicate with the Ukrainian electorate.
               <greek-l>owlc deg.other program highlights
    Russia and Tennessee.--Senator Lamar Alexander requested that OWLC 
host healthcare leaders from Kirov, Russia in three locations in 
Tennessee. This nascent Tennessee-Kirov relationship was spearheaded by 
former U.S. Senate Majority Leader William H. Frist, MD, an original 
member of OWLC's Board of Trustees. Before traveling to Knoxville and 
Memphis (half to each), the 25 doctors, including the Minster of Health 
of Kirov Oblast, took part in a panel discussion on healthcare in the 
United States at the Center for Strategic and International Studies and 
toured the National Institutes of Health. The Memphis group had an 
intensive program at several research hospitals and concluded the 
program with presentations to their counterparts. The Knoxville group 
visited a university medical center and nursing schools. In Nashville, 
the two groups reunited in Nashville for an examination of the 
Vanderbilt Medical Center led by Dr. Frist, and had exchanges with 
Congressman Jim Cooper, the mayor of Nashville and the Tennessee 
Commissioner of Health. In the wrap up session, Dr. Frist led a 
discussion and had them list three areas for improvement in United 
States and Russian health delivery.
    Kyrgyzstan and Montana.--In March, Bozeman, Montana hosted a mayor 
and several local lawmakers from Kyrgyzstan for an accountable 
governance exchange. The delegates discussed mayoral duties, the role 
of the city commission, and citizen engagement with Mayor Jeff Krauss; 
reviewed infrastructure development with a city planning-department 
official; and met with an aide to the city manager. The delegates also 
learned about attracting business to rural areas at the Chamber of 
Commerce, explored how Montana State University's Local Government 
Center assists local governments in the State, and took part in the 
biennial Montana Mayors Forum in Helena.
    Ukraine and Virginia.--On March 4, 2011, the Arlington (Virginia) 
Sister City Association held an official signing ceremony with its 
newest sister city, Ivano-Frankivsk, Ukraine. This partnership was 
formalized as a result of OWLC, through which several delegations from 
Ivano-Frankivsk were hosted in Arlington, allowing the two cities to 
further develop strong ties in governance, social programs, and other 
areas. Yulia Melnyk, a Washington, DC-based correspondent for the Kyiv 
Post, has praised the partnership between the two cities for including 
an economic component intended to boost cooperation between Ukrainian 
and United States businesses.
    Georgia and Georgia.--In Atlanta, private and government lawyers 
from the Republic of Georgia observed jury selection and part of a 
criminal trial in Federal court (Georgia is just beginning to use jury 
trials); received an in-depth review of criminal-trial, appellate, and 
postconviction proceedings from a principal of the Maloy Jenkins & 
Parker law firm; and attended a class at Emory University School of 
Law. A tour and question and answer session at the Federal penitentiary 
was also timely, as prisons in Georgia's capital city of Tbilisi are 
implementing new regulations and practices. Representative Phil Gingery 
met with the delegates in Marietta.
    Armenia and Iowa.--During her visit to Iowa as part of the first 
OWLC delegation from Armenia, a newspaper reporter who covers political 
and government issues, was eager to see the impact of American media on 
social issues. Having seen how Americans respect their laws and the 
judicial system, the delegate explained this to her fellow Armenians in 
the article ``The U.S. Constitution is about Freedom of the 
Individual.'' In another article ``Where the Law Ends, Tyranny 
Starts'', she describes how ordinary citizens have access to Iowa 
leaders and are able to follow transparent decisionmaking processes. In 
subsequent articles, the reporter published an interview with a Des 
Moines Register reporter and other articles on human trafficking, human 
rights, and domestic violence. Ten days in the United States gave our 
delegate a chance to create an unbiased glimpse of America and 
Americans for a broad audience in Armenia.
    Kazakhstan and Wisconsin.--In October 2011, a delegation of local 
government officials from rural towns and villages of Kazakhstan spent 
a week in Mauston, Wisconsin to observe how municipalities are governed 
in rural America. City of Mauston officials described the role of 
elected officials and the authority and accountability of a 
professional city administrator and city departments. In addition, the 
delegates learned how public private partnerships can enhance community 
development as well as the role of businesses and citizens in economic 
development in rural Wisconsin. During the daylong program at the State 
capitol in Madison, delegates met with lobbyists who described 
strategies for citizens to inform and influence public policy by 
representing interests of groups with shared policy concerns.
    In November, five OWLC delegations from the Russian republic of 
Buryatia traveled to the United States for programs that were partially 
funded by the Russian ERA Foundation, whose founder, Senator Vitaly 
Malkin, represents Buryatia in the Russian parliament. Individual 
delegations visited Illinois, Maryland, Michigan, Nebraska, and Ohio. 
Further financial support for the delegation to Omaha, Nebraska was 
provided by the Suzanne and Walter Scott Foundation. University 
agricultural experts visited soil-testing facilities, discussed 
international operations and marketing at an agriculture company, 
examined no-till farming at the University of Nebraska, and discussed 
Federal agricultural programs with an aide to Senator Ben Nelson.
                    <greek-l>owlc deg.budget request
    In this lean fiscal environment, we are committed to keeping costs 
down while maintaining program quality. When constructing our budget, 
however, we must consider the fact that in reducing the number of 
participants hosted, there comes a tipping point in terms of 
efficiency. Certain base costs remain whether bringing 500 participants 
or 2,000. Using economy of scale, it is our experience that bringing 
1,200 participants a year is that tipping point. Below that number, the 
program becomes less cost effective and the per person cost rises. To 
that end, our budget request of $10 million is based on bringing 1,200 
participants in fiscal year 2013.
    OWLC spends its appropriation in two categories:
  --direct program costs; and
  --administration costs.
    Direct program costs includes:
  --grants to host delegations in the United States;
  --a logistical coordinator; and
  --the direct program portion of salary and benefits of Washington, DC 
        and Moscow staff.
    This is the minimum staff level required to manage 1,200 
participants in a program year.
    OWLC's fiscal year 2013 budget request breaks down as follows:

------------------------------------------------------------------------
                          Item                                Amount
------------------------------------------------------------------------
Direct program:
    Logistical contract.................................      $5,720,000
    Grants/other hosting costs..........................       3,283,450
    Salary/benefits.....................................         685,922
                                                         ---------------
      Total, Direct program.............................       9,689,372
                                                         ===============
Administration:
    Salary/benefits.....................................         408,255
    Services of other agencies..........................         182,000
    Professional services...............................         146,640
    Miscellaneous office................................          36,606
                                                         ---------------
      Total, Administration.............................         773,501
                                                         ===============
      Total, Budget.....................................  \1\ 10,462,873
------------------------------------------------------------------------
\1\ The amount in excess of $10 million shown here will be covered by
  donations and other offsets.

                                summary
    OWLC has served the Congress well, earning strong bipartisan and 
bicameral support. This modest budget request, representing a flat 
budget, will enable OWLC to continue to make major contributions to an 
understanding of democracy, civil society, and free enterprise in a 
region of vital importance to the Congress and the Nation. On behalf of 
the Congress, this powerful global network will continue to make a 
significant and positive mark on events in this strategically important 
region. This subcommittee's interest and support have been essential 
ingredients in OWLC's success.

    Senator Nelson. Thank you, Ambassador.
    As a courtesy, would you please go first, Senator Hoeven?
    Senator Hoeven. Surely, Mr. Chairman.
    I see that you've requested $10,462,873, of which $462,873 
is funding that you have raised. So, I guess the question I 
ask, is there more that you could do to raise dollars for the 
program that would in essence help us with this budget?

   <greek-l>OWLC deg.OPEN WORLD LEADERSHIP CENTER FUNDRAISING EFFORTS

    Ambassador O'Keefe. Senator, we just had our annual board 
meeting a few weeks ago. The chairman was there. We discussed 
the issue of fundraising. Quite frankly, our staff is seven and 
we do not have a development person. To do major league 
fundraising requires a major league investment in development 
itself. And, so, what I would like to do and what the board 
expects is to set out a budget for a development person for 
next year so that we can begin that process and mine the 
opportunities that might be available out there.
    Senator Hoeven. I'm sorry. Did you say getting your staff 
to start doing that or----
    Ambassador O'Keefe. No, Sir.
    Senator Hoeven [continuing]. Getting a development person, 
I missed that.
    Ambassador O'Keefe. Yes. Senator, it's to hire a 
development person, but that would require nonappropriated 
funds. So, I have to raise the money to get the person to raise 
the money, and that is the charge that my board has given me 
for this coming year.

       <greek-l>OWLC deg.OPEN WORLD LEADERSHIP CENTER AND SERBIA

    Senator Hoeven. Talk a little about some of the work that 
you did with Serbia. I see that you received some funding from 
USAID for the Serbia programs. Would you talk about that a 
little bit?
    Ambassador O'Keefe.Yes, Sir. About 1\1/2\ years ago, USAID 
and the Embassy in Serbia, because they knew of the 
efficiencies of our program, asked us to run a program. They 
gave us $500,000. We put it together and then they gave us 
another $500,000. So, we're going to bring about 120 people to 
the United States, 60 this year, 60 next year.
    I mention parenthetically, they expected us to bring 60 
total because that's what it would have cost them in their 
structures. We can double that number for them.
    Senator Hoeven. You don't run those dollars through your 
budget, then. Those are matching dollars that you just used to 
partner? How does it work?
    Ambassador O'Keefe. It's transferred into the OWLC trust 
fund. In the statute that establishes the Center, we have a 
trust fund and our appropriation when it comes, goes into the 
trust fund as do transfers from other agencies. This can either 
be done as a reimbursement to us or directly into the trust 
fund. So, this was a transfer to us.
    Senator Hoeven. Do you have more of those, it sounds like a 
good partnership. Sounds like it went well. Do you have plans 
to do more of that with other countries and with other 
agencies?
    Ambassador O'Keefe. there are targets of opportunity. And 
as you are aware, assistance funds in former Soviet states and 
in the Balkans are diminishing and they're being moved to other 
priorities. But we do look for ways to do this. So, for 
example, I mentioned the parliamentarians from Uzbekistan. The 
Embassy will be paying for the transportation to the United 
States and then we'll pick up the costs from there.
    So, we always are looking for ways to stretch the 
appropriation that you give us. It's one reason why we can keep 
our requests flat because we are constantly finding partners to 
work with us.

   <greek-l>OWLC deg.OPEN WORLD LEADERSHIP CENTER EXPANSION TO EGYPT

    Senator Hoeven. You also have an initiative to assist 
Members who want to invite their legislative counterparts from 
countries that were formerly part of the Soviet Union. What's 
the status of that? And is it restricted solely to countries 
that are part of the former Soviet Union?
    Ambassador O'Keefe. The legislation allows us to bring 
people from other countries. The only requirement is we have to 
give you, the subcommittee, 90-day notice and we have to have 
the board approve.
    Senator Hoeven. I was recently in Egypt and met with the 
speaker of the parliament and other members of the Freedom and 
Justice Party, which is actually the Muslim Brotherhood----
    Ambassador O'Keefe. Right.
    Senator Hoeven. But when they get elected it's the Freedom 
and Justice Party in the Egyptian Parliament. They're about 40 
percent of the Egyptian Parliament together with another 
Muslim-based party where they're about 65 percent of the 
parliament. We were there on the nongovernmental organization 
worker issue.
    I was there with Senator McCain and others. Among the 
things we talked about was the possibility of parliament 
members with the Freedom and Justice Party coming here and 
possibly interacting with Members of Congress. Does that fit 
within the scope of what you do?
    Ambassador O'Keefe. Yes, Sir. I actually had that 
conversation with Dr. Billington a few months ago and it can be 
done. We can do a program for them. We can structure it to your 
needs and their needs. The length can be adjusted.
    Now, understand, I'd have to reprogram funds from elsewhere 
for this fiscal year, but we're an instrument of the Congress. 
And the executive branch has more than 200 exchange programs in 
agencies you would be surprised at having one. The Congress has 
one, it's us. And, so, this fits exactly, I think, with our 
next step; that emerging democracies are going to succeed, not 
simply because people are in the street and not simply because 
there's an executive, but it's going to succeed if there is 
this balance between legislative, judicial, and executive 
branches. We are in a unique position, especially when you go 
visit counterparts in these countries and are able to make that 
offer. It would take us 90 days to put it together in any case, 
but it is legal and it is possible.
    The point I emphasize, since we're an independent agency 
with a board that does oversee us, we're very small, but we 
also can be very nimble. We're not in the same way as if you 
were to ask an executive branch agency to help with this.

<greek-l>OWLC deg.OPEN WORLD LEADERSHIP CENTER ABILITY TO WORK OUTSIDE 
                            THE FORMER USSR

    Senator Hoeven. If you think about it, the work that you've 
been doing with Russia and the other countries of the former 
USSR, it makes sense for you to look at some of the Middle East 
countries because you have a similar situation going on. 
Whether you look at Tanzania or Egypt or now Libya, Yemen, 
you've got a number of these countries that are going from a 
dictatorship or some type of totalitarian regime, military 
rule, to self determination. Egypt is an example. And we want a 
relationship with those countries.
    So, I do see this as an opportunity. I would ask maybe that 
you work with my staff. I think there are a number of other 
Senators that would be interested in putting this together, 
including perhaps Senator McCain, Senator Graham, myself, and 
Senator Blumenthal. I think we should take a look because it 
might be something that would be worthwhile and something we 
should pursue.
    Ambassador O'Keefe. I will do that tomorrow.
    Senator Hoeven. Thank you, Ambassador. I appreciate it.
    Ambassador O'Keefe. Yes, Sir. Thank you, Sir.
    Senator Hoeven. No further questions.
    Senator Nelson. Thank you, Senator Hoeven.

     <greek-l>OWLC deg.OPEN WORLD LEADERSHIP CENTER AS PART OF THE 
                           LEGISLATIVE BRANCH

    Ambassador O'Keefe you made the major points that need to 
be made for the value of Open World being part of the 
legislative branch rather than part of the executive branch. 
That's why from the very beginning I resisted the efforts from 
the other body in the Congress to put the program under the 
State Department. It works right where it is, and we're going 
to continue to pursue the independence of it from the executive 
branch because it belongs within the legislative branch. We're 
going to do legislators to legislators and future legislators 
and future leaders as opposed to executive to executive.
    It's where it should be and it's doing exactly what we need 
to have it do. If anything, we need to find ways to expand it. 
Problem is the budget constraints, but you're very adept and 
very agile and nimble at looking for other ways to attract 
funding. You should know that we will continue to work with you 
every way that we can to make certain that it happens.
    Thank you very much.

            <greek-l>OWLC deg.ADDITIONAL COMMITTEE QUESTIONS

    Ambassador O'Keefe. Thank you, Mr. Chairman. And, again, 
thank you for your help and support.
    Senator Nelson. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Center for response subsequent to the 
hearing:]
               Questions Submitted by Senator John Hoeven
                 <greek-l>owlc deg.zero-based budgeting
    Question. Since each of the agencies within the legislative branch 
were directed to develop and present the fiscal year 2013 budget 
requests using a zero-based budgeting approach, I would like to hear 
from you about how this process worked within your agency.
    Was this a helpful process or a hindrance in developing the budget 
request?
    Answer. By way of background, the Open World Leadership Center 
(OWLC) has been engaged in zero-based budgeting since 2010 when we 
first re-negotiated our large logistical contract which enables the 
target number of program participants to travel each year. However, the 
larger effort of compiling a zero-based budget for our annual 
appropriation was still a demanding, frustrating, enlightening, and 
ultimately fruitful one that gave us the opportunity to submit an 
appropriated budget based not only on historical data but built on 
current fiscal realities.
    At a micro level, (OWLC only), the zero-based budget process once 
again enhanced our awareness of the need to manage resources in the 
most efficient way possible while at the same time heightening our 
commitment to maintaining program quality. This was the most 
complicated part of the new budget approach and to complete that part 
we had to start with our single largest expenditure in each fiscal 
year: the logistical contract that enables some 1,200 participants per 
year to come to the United States. As noted in the testimony, the 1,200 
number allows the greatest efficiencies while it maintains the momentum 
of the program. Once we had established a new baseline for the 
contract, it was not difficult to apply the same rigorous review to 
subsequent renewals and then to the second-largest expenditure area in 
OWLC: grants to national and local organizations in charge of hosting 
OWLC delegations. While the business of re-negotiating our large 
logistical contract had its trials, the work we did with our grantees 
was the most challenging and complex by far. Because each national 
organization submits its own budget to us to fund an OWLC delegation, 
we repeated the zero-based budget lessons we learned above to each of 
the grant proposals that came before us. We looked at each budget 
submission and started from scratch even if, and at times especially 
if, the grantee was a repeat grantee. We worked very hard with the 
grantee to arrive at a budget that was fair, realistic, and conducive 
to providing a quality program. That effort, along with the 
contribution of significant cost shares from the grantees, made it 
possible to fund programs for the targeted level of 1,200 participants 
in fiscal year 2012.
    While the zero-based budget approach did not by itself solve any 
``funds available'' issues in OWLC, which strives to accomplish its 
mission in any fiscal environment, it did uncover serious cost savings 
so that OWLC could continue hosting at prior year levels. Equally 
important, the zero-based budget approach provided a meaningful 
incentive to partner with other U.S. Government agencies and 
departments to accomplish mutually inclusive and overlapping goals. In 
that regard, OWLC is now working with the United Sates Aid for 
International Development for Serbia programming and a special 
telemedicine program for Ukraine as well as with the U.S. Embassies in 
Turkmenistan, Armenia, and Uzbekistan.
    Question. Were you able to find sustainable efficiencies that will 
result in continued savings over time, or one-time only savings?
    Answer. The exercise did result in sustainable efficiencies because 
OWLC continues to apply a zero-based budgeting approach to most of its 
fiscal operations. As mentioned above, OWLC has been engaged in zero-
based budgeting practices to a large degree since fiscal year 2010. 
After that first effort, where we achieved savings of about $1.5 
million, we recognized it as an opportunity to assess the impact of 
other budget line item expenditures on operations, effectiveness, and 
quality of programming.
    The most important lesson we learned is the value of analyzing 
carefully all requests for funding from OWLC: just as it is not 
appropriate to automatically add a fixed percentage to a request from 
year to year--whether it is OWLC, its logistical contractor or its 
grantees, it is also not always beneficial to cut a fixed percentage 
from a budget request from year to year. In this way, OWLC is in a 
unique position of being both the arbiter of sound fiscal practices 
with its contractors and grantees and the recipient of difficult fiscal 
decisions from our Congress in the current fiscal environment.
    Question. Is this a process you will be able to replicate for 
future budget requests?
    Answer. OWLC will continue to apply zero-based budget principles to 
its fiscal operations.
   <greek-l>owlc deg.voluntary early retirement authority/voluntary 
                      separation incentive payment
    Question. The Committee provided guidance in the fiscal year 2012 
appropriations legislation that each agency within the legislative 
branch should consider using Voluntary Early Retirement Authority 
(VERA)/Voluntary Separation Incentive Payment (VSIP) in order to reduce 
salary costs to the agency.
    Were each of you able to utilize VERA/VSIP authority; and if so, 
was this a successful mechanism for reducing costs?
    Answer. In the last 2 years, OWLC has reduced its staff by 22 
percent through attrition (down to 7 from 9). When the VERA was offered 
in fiscal 2012, only one staff member was eligible and she declined the 
incentive.
    Question. Are those savings realized immediately, or in the out-
years?
    Answer. Vera/VSIP was not used.
    Question. Realizing that losing people who are eligible for 
retirement or early separation often means losing some of the best and 
brightest people with the greatest institutional knowledge within your 
organization, how have staffing reductions impacted your agency?
    Answer. Staffing reductions have been absorbed by current staff. 
However, further reductions would impact program quality.
    Question. Do you have succession plans in place that allow for a 
smooth transition of responsibilities?
    Answer. OWLC is formulating a reorganization for board approval at 
its next annual meeting. The reorganization will reflect funding 
reductions over the last 2 years, the trend toward broader geographic 
scope, a continuing emphasis on a lower average age of participants, 
increasing numbers of regional and national legislators (begun in 
fiscal year 2010), and more cost shares with other partners.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ESQ., EXECUTIVE 
            DIRECTOR
    Senator Nelson. Well, now we find out who is following the 
rules.
    Ms. Chrisler, it's your turn.
    Ms. Chrisler. Thank you, Mr. Chairman, Senator Hoeven. I'm 
pleased to be here today.
    The mission of the OOC is simple: we work with the Congress 
to ensure a fair, safe, and accessible community for you, your 
staff, and your constituents.
    Before the Congressional Accountability Act (CAA) was 
passed, there were some procedures for employees to contest 
allegations of workplace discrimination, but there were no laws 
in place. Occupational Safety and Health Administration (OSHA) 
protections didn't apply and the legislative branch was not 
fully accessible to people with disabilities. But all that 
changed with the enactment of CAA in 1995. The Congress sought 
to give employees an avenue of redress for their claims of 
discrimination, to hold itself out as a premiere employer, and 
to demonstrate accountability to its constituents. It was the 
right thing to do.
    The CAA established the OOC, which performs the work of the 
Equal Employment Opportunity Commission, Federal Labor 
Relations Authority, OSHA, and several departments of several 
divisions of the Department of Justice and the Department of 
Labor. We do a lot of work with a little money. Because our 
work can involve contentious issues, it may be difficult to see 
the value that we bring. So, let me explain how the work we do 
is crucial to the work you do.
    On average, more than 90 percent of the discrimination 
claims presented to the OOC are resolved within our 
administrative procedures. Without these procedures, the 
Congress would be seeing many more cases proceed to public 
litigation or to the press.
    OOC's Americans with Disability Act pre inspection of the 
CVC allowed for the identification of dozens of access barriers 
that were corrected more quickly and at a lower cost than if 
OOC had not been involved. In addition, since the 109th 
Congress, OOC has facilitated a 60-percent reduction in safety 
and health hazards affecting legislative branch employees, from 
13,140 hazards in the 109th Congress to 9,200 hazards in the 
110th Congress and 5,400 hazards in the 111th Congress.
    The numbers dropped so drastically because of the skill and 
the dedication of our inspectors, the technical assistance and 
education we provide, and the collaboration and cooperation of 
the employing offices. The work of the OOC and the AOC on the 
improvements in the power plant utility tunnel speaks volumes 
to the shared efforts in this community to improve safety and 
health in your backyard. So, you see, the work that we do 
complements the work that you do. We're just asking for the 
funding to do it.

                 <greek-l>OOC deg.COST-CUTTING MEASURES

    Over the last two appropriations cycles, OOC has worked to 
keep its funding requests at a minimum, resulting in a shortage 
of necessary funds. In fiscal year 2011 we didn't request 
funding for an inspector that we needed to develop the risk-
based inspection and abatement approach that you asked us to 
institute. Instead, we requested that OSHA provide a 
nonreimbursable detailee. Budget cuts prevented that from 
happening, but we continued to keep our requests low and we 
didn't ask for the funding.
    We also didn't ask for the funding for an online training 
tool for Members' staff that would save your staff time, money, 
and travel in educating on the CAA.
    We mentioned last year that cuts to our funding would 
impact our operations, and it has. We've had to lay off an 
attorney. We've had to cut inspector hours by nearly 50 
percent. We've eliminated technical assistance that we provide 
to employing offices. We've reduced the rates of our hearing 
officers. We've eliminated training for all OOC employees and 
travel for our nonboard members. We've reduced maintenance on a 
case tracking system that continues to crash, and we limited 
travel for board members to Washington, DC to conduct board 
business. We've cut back on the purchase of supplies and 
information technology equipment, and we've reduced basic 
custodial services.
    So, we've tightened our purse strings just like every other 
agency and we've lived with the funds that we've been 
appropriated. But the job we've been doing is not the job you 
deserve. Without restoring some of the cuts to the OOC, the 
Congress will face more claims in the public forum. Employees 
will seek remedies through the media. Workplace hazards will 
jeopardize working conditions and emergency evacuations and 
barriers may prevent your constituents from accessing your 
offices.

                    <greek-l>OOC deg.FUNDING REQUEST

    If funded as requested, OOC will be able to add one safety 
and health inspector. Now, that might not seem like a lot, but 
with this inspector we'll be able to further implement the 
risk-based inspection and abatement approach that will save 
money in the long run. We'll be able to identify barriers to 
the public access for people with disabilities. We'll be able 
to keep under contract our current pool of distinguished 
mediators and hearing officers which will maintain the 
integrity of our dispute resolution program.
    Our request for an additional $389,000 is minimal. We 
service 30,000 employees and cover 18 million square feet of 
work space in the Washington, DC metropolitan area alone. Our 
requested funding is tiny compared to the job we do, yet this 
funding is critical to the operations of our agency and to the 
services we can provide to you that make your workplace 
accessible, fair, and safe.

                           PREPARED STATEMENT

    On behalf of the board of directors and the entire staff of 
the OOC, I thank you for allowing us to appear before you and 
for your support of the agency.
    [The statement follows:]
                Prepared Statement of Tamara E. Chrisler
    Mr. Chairman, Senator Hoeven, and distinguished members of the 
subcommittee, I am honored to appear before you, representing the 
Office of Compliance (OOC). Joining me today are General Counsel Peter 
Ames Eveleth; Deputy Executive Director Barbara J. Sapin; Deputy 
Executive Director John P. Isa; and Budget and Finance Officer Allan 
Holland. Collectively, we present to you OOC's request for 
appropriations for fiscal year 2013, and we seek your support for our 
request.
    Before I go into our appropriations request, I'd like share a 
little about the work of OOC and the value we add to the congressional 
community.
  <greek-l>ooc deg.history of the congressional accountability act of 
                   1995 and the office of compliance
    The mission of OOC is simple: we work with the Congress to ensure a 
fair and safe workplace for Members, their staff, and their 
constituents. The Congress saw fit in 1995 to apply workplace laws to 
the legislative branch, and the congressional workplace is a better 
environment because of that decision.
    Before the Congress enacted the Congressional Accountability Act of 
1995 (CAA), there were certain administrative procedures in place for 
employees to contest allegations of workplace discrimination, but there 
were no laws protecting employees from discrimination. The majority of 
staff with allegations of discrimination either remained silent, let 
bad feelings fester, or made their concerns public, seeking remedies 
through the media. None of those approaches was ideal for resolving 
workplace claims of discrimination, and none ensured employees of the 
legislative branch a fair system to address their concerns. Frequently, 
``remedies through the media'' was the most effective approach for an 
employee.
    Prior to 1995 and the enactment of the CAA, Occupational Safety and 
Health Act (OSHA) protections did not apply to the legislative branch, 
and, unlike with allegations of discrimination, there were no internal 
controls to ensure the application of OSHA protections. Consequently, 
many employees--including our electricians, landscapers, and utility 
tunnel workers--worked without the protections that apply in the 
private sector and executive branch to help prevent harmful, and 
sometimes deadly, results.
    Also prior to the CAA's passage in 1995, the legislative branch was 
not fully accessible to the public. Constituents with disabilities 
often confronted substantial barriers when trying to enter 
congressional buildings. The Americans with Disabilities Act required 
public facilities such as schools and hospitals to provide access for 
people with mobility, vision, hearing, or other impairments. But people 
with disabilities were not guaranteed access to the very Senators and 
Congressmen who were their elected representatives. With the passage of 
the CAA, they now enjoy full access to committee proceedings, or to 
observe debate in the Senate or House.
    The Congress passed the CAA in 1995 with nearly unanimous, 
bipartisan support. In doing so, the Congress sought to give employees 
an avenue of redress for their claims of discrimination; to hold itself 
out as a premier employer subject to the same responsibilities and 
employee protections as private sector employers; and to demonstrate 
accountability to its constituents. It was the right thing to do.
    The CAA established OOC. With a five-member nonpartisan board of 
directors, four appointed executive staff, and a modest pool of 
talented and dedicated employees, OOC performs the work of the Equal 
Employment Opportunity Commission, the Federal Labor Relations 
Authority, the Occupational Safety and Health Administration, and 
several divisions of the Department of Justice and the Department of 
Labor (DOL). We perform our duties independently, efficiently, 
collaboratively, and cost effectively.
      <greek-l>ooc deg.the value of office of compliance services
    Much of the work of the OOC can involve contentious issues:
  --employees alleging discrimination or unsafe working conditions;
  --people with disabilities alleging barriers to access; and/or
  --veterans seeking credit for service in applying for legislative 
        jobs.
    Unlike the services provided by other agencies (e.g. beautifying 
efforts of the Architect of the Capitol, security efforts of the United 
States Capitol Police, and the research services provided by the 
Library of Congress), the value of the services provided by OOC may not 
be so easily recognized. So, let me explain the crucial nature of the 
work we do.
    Because of the CAA and the OOC, allegations of discrimination in 
the congressional workplace can now be addressed confidentially and 
comprehensively. Professional counselors well-versed in the substantive 
protections of the CAA can help an employee work through a claim 
without disrupting the employing office's work environment. These 
objective and neutral counselors can also be helpful to an employing 
office when an office contacts the OOC for help in resolving an issue 
before it disrupts the workplace. During confidential mediation, a 
certified and neutral third-party will meet with an employee and the 
employing office to facilitate a mutually acceptable solution to a 
problem.
    On average, more than 90 percent of claims presented to our agency 
are resolved within our administrative procedures. It is fair to say 
that without the continued effectiveness of these statutorily mandated 
programs, the Congress would be seeing many more cases proceed to 
litigation or to the press.
    Due to the passage of the CAA, the 30,000 employees of the 
legislative branch can perform their duties with the same OSHA 
protections as private sector workers across the country. OOC safety 
and health staff inspect workplaces to identify hazards so they can be 
remedied before accident or injury occurs. Since the 109th Congress, 
when OOC began conducting comprehensive safety and health inspections 
of workplaces in the Washington, DC metropolitan area, our safety and 
health staff have facilitated a 60-percent reduction in the safety and 
health hazards affecting legislative branch employees. In the 109th 
Congress, our inspectors identified 13,140 hazards. In the 110th 
Congress, there were 9,200 hazards identified; and in the 111th 
Congress, there were 5,400 hazards identified. This reduction is due in 
large part to the skill and dedication of our inspectors, the technical 
assistance and education we provide to employing offices, and the 
collaboration and cooperation of employing offices in abatement 
efforts.
    When the Congress enacted the CAA, it guaranteed for the first time 
that all members of the public, including people with disabilities, had 
access to legislative branch facilities. At the request of this 
subcommittee and its counterpart in the House, our inspectors performed 
an Americans with Disabilities Act (ADA) ``preinspection'' of the 
Capitol Visitor Center (CVC) before its December 2008 opening. OOC 
inspectors identified dozens of access barriers in CVC's 580,000 square 
feet, involving doors, ramps, restrooms, dining areas, and other 
facilities. Because our team was brought in before the contractors had 
finished their work, many of the barriers were corrected more quickly 
and at lower cost than might otherwise have been the case. As a result, 
CVC welcomes hundreds of thousands of visitors every year and offers 
comprehensive, barrier-free access to all.
    As is clear, services provided by OOC minimize disruption to the 
important work you do on behalf of the American people. These services 
help to create the workplace envisioned by CAA. We are required to 
resolve workplace rights issues quickly so that the essential work of 
the legislative branch can continue. We are required to identify safety 
and health hazards--including emergency evacuation--so they can be 
corrected before an employee, Senator, or Representative is injured. We 
are required to ensure public access to the legislative branch for all, 
including people with disabilities. We are required to educate the 
congressional community on the rights and responsibilities provided in 
CAA. We recognize the positive impact that these statutory mandates 
have on the congressional community, and we are asking for the funding 
necessary to continue this essential work.
        <greek-l>ooc deg.necessary funding for fiscal year 2013
    For fiscal year 2013, OOC is requesting a total of $4,206,000: 12 
percent less than our fiscal year 2012 appropriations request and 10.19 
percent ($389,000) more than our fiscal year 2012 enacted funding level 
of $3,817,000. This small requested increase restores a portion of the 
13.1-percent reduction in funding OOC has absorbed over the last 2 
fiscal years: 6.7 percent in fiscal year 2011, and 6.4 percent in 
fiscal year 2012.
        <greek-l>ooc deg.what we have not requested in the past
    Mindful of the fiscal constraints facing the Federal Government, 
over the last two appropriations cycles, OOC has worked to keep its 
funding requests to a minimum, resulting in a shortage of necessary 
funds.
    During fiscal year 2011, OOC worked to develop the risk-based 
inspection and abatement approach that the conference committee on 
fiscal year 2010 legislative branch appropriations directed OOC to 
institute. Developing and implementing that approach required an 
additional safety and health inspector, as risk-based inspections are 
more complex than the wall-to-wall inspections we had performed 
previously. We didn't request funding for that purpose. Instead, we 
renewed our fiscal year 2010 request to OSHA to detail one or more 
safety and health inspectors on a short-term, nonreimbursable basis, to 
provide temporary inspection assistance at no additional expense to 
OOC. As in fiscal year 2010, however, budget constraints continued to 
prevent DOL and other agencies from supplying nonreimbursable 
detailees. Because we had been advised that no detailee would be 
available in fiscal year 2010, fiscal year 2011, or the foreseeable 
future, we did not make a third request in fiscal year 2012. In fiscal 
year 2012, the need for an additional inspector was still pressing, 
yet, in an effort to present a minimal budget, we refrained from asking 
this subcommittee for the necessary funding.
    In addition, to keep our budget requests low, we previously have 
not requested funding for many initiatives on workplace issues that 
would benefit agencies, employees, and Member offices. For example, to 
save time, money, travel, and to provide privacy to employing offices 
and their staff, offering an online training program directly linked to 
OOC's Web site would be the most effective means of educating the 
covered community on rights and responsibilities under the CAA. 
However, because of the need to minimize our budget requests, we have 
not asked for funding for this type of training.
               <greek-l>ooc deg.our cost-cutting measures
    OOC has been sensitive to the challenges faced by this 
subcommittee, and we have kept our budget requests low. In order to 
continue pursuing our mission with the funding provided to us, we 
reorganized our staff and cut back services. We were required to lay 
off an attorney, which left a gap in our case-handling ability. We have 
had to cut inspector hours by nearly 50 percent since fiscal year 
2010--leaving many workplaces, including Member offices, uninspected. 
We have been forced to eliminate the technical assistance we provide to 
employing offices, as those hours are needed to perform inspections of 
high-hazard areas. We have reduced the rates paid to our hearing 
officers, established a flat per-case rate for our mediators, and 
brought some mediations in-house. We have eliminated training for all 
employees and travel for non-board members. Because of the reductions 
in funding, we have had to reduce maintenance on a case tracking system 
that continues to crash. We have limited travel for our board members 
(all but one of whom lives outside the Washington, DC metropolitan 
area), cut back the purchase of supplies and information technology 
equipment, and reduced certain basic custodial services. We have 
tightened our purse strings, just like every other agency, and figured 
out a way to get the job done with the funds we have been appropriated.
    The job we've been doing, however, is not the job you deserve. 
Budget cuts seriously threaten our ability to ensure the safety and 
accessibility of the congressional workplace and the confidential 
resolution of workplace disputes.
        <greek-l>ooc deg.what we will do with requested funding
    The funding requested in fiscal year 2013 will restore a portion of 
the funding that was cut over the last 2 fiscal years. At the requested 
level for fiscal year 2013, the OOC will be able to add one safety and 
health inspector, which will help us implement the risk-based 
inspection and abatement approach that you asked us to undertake, and 
evaluate additional legislative branch facilities to identify any 
barriers to public access for people with disabilities. We will also be 
able to maintain our current pool of distinguished mediators and 
hearing officers, ensuring the continued integrity of our confidential 
dispute resolution program.
    The remainder of the increase will allow the agency to meet its 
obligations under inter-agency service agreements and replace the 
dysfunctional case management system. We are still not asking for 
everything we need, but we are asking for additional funding so that we 
can restore some of the critical services that make the legislative 
branch a more accessible, fair, and safe workplace.
                               conclusion
    The work of OOC adds value to the congressional campus--that is 
clear. Because of the Congress' decision to apply workplace rights 
laws, safety laws, and public access laws to the legislative branch, 
the congressional community is closer to being in line with executive 
branch agencies and the private sector. Funding OOC at the requested 
level will help ensure that these laws can be applied as the Congress 
envisioned in the CAA.
    OOC's request for an additional $389,000 is minimal--less than 1 
percent of the fiscal year 2012 enacted funding level of any of the 
agencies for which we provide services. We provide services to 30,000 
legislative branch employees, whose workplaces span nearly 18 million 
square feet in the Washington, DC metropolitan area alone. Our 
requested funding is an infinitesimal sum in light of the enormous 
responsibility placed upon us by the CAA. Yet, this funding is critical 
to the operations of our agency and to the services we can provide to 
you.
    On behalf of the board of directors and the entire staff of the 
OOC, I thank you for your support of this agency. I would be pleased to 
answer any questions.

    Senator Nelson. Thank you. I understand that if you don't 
have enough personnel, you can't get the job done. I do 
understand that, and that inspections are employee intensive 
just by their very nature.
    Instead of adding staff, is it possible to go through the 
process and ask how often you're performing inspections, 
whether you could extend the time frame reasonably? Is there a 
study that would do that? I know you can just make a decision 
of, well instead of safety every 18 months we'll do it every 
24. But are there any studies that would be helpful to show 
that perhaps by extending 1 month or 2 months or something like 
that, you reduce the work load but you don't increase the 
safety hazard?
    Ms. Chrisler. It's a very good question, Mr. Chairman, and 
thank you for it.
    As we've developed our operational plan for fiscal year 
2011 and fiscal year 2012 when we've absorbed the cuts that 
we've absorbed, we've discussed that. We've discussed how we 
can do our job with less money. We've discussed how we can 
conduct the inspections. We've discussed, you know, how we 
address the employees that seek our services. When employees 
come to our office and request counseling or mediation, we 
don't turn them away. We have to provide the services to the 
employees.
    In some of the discussions that we had with respect to our 
inspections, we've talked about how the lack of resources will 
delay inspections. And it's not as much about pushing an 
inspection off for 1 month. You put the nail right on the head. 
It is very resource intensive. And with respect to the risk 
based approach that you've asked us to implement, it's not a 
matter of just getting a lot of inspections done. It's a matter 
of getting the inspections done right.
    So, with this risk based, we take a look at the programs 
that are involved. We make sure that we are focusing our 
attention on high hazard areas; the Power Plant, machine shops, 
and elevator pits. We look to see whether the employees are 
wearing the proper protective equipment and whether they are 
communicating, utilizing the proper hazard communications, and 
ensuring that they're performing their jobs properly.
    So, it's intensive in the sense that we review programs. We 
watch employees perform their jobs. We have to make sure that 
they're doing their jobs in accordance with the standards. So, 
there's a lot involved in this, but it's cost efficient because 
when employees are performing their jobs the way they're 
supposed to, then you're looking at less time where employees 
are out because of illness or injury due to a work related 
injury.
    You're looking at less workers' compensation. You're 
looking at increased productivity. So, it's cost effective to 
approach inspections this way.
    Senator Nelson. Yes, and it's also very difficult to equate 
directly how the inspections might have not avoided an injury 
or something like that. We all understand it. It's common 
sense, understandable that safe work environments just pay for 
themselves, although sometimes hard to demonstrate it.
    But it would seem to me that on a risk-based system that 
there would be some give and take on how often and where and 
how you do it to where you could save one position or something 
like that.
    In other words, I'm not quarreling that you think you need 
an additional full-time equivalent (FTE) or that you want a 
couple of other FTEs. I do understand that. But in lieu of that 
in tight times, I'm just wondering if you--if you could look--
go back to the drawing board and look a little bit more 
closely. I always try to sharpen my pencil just a little bit 
more to see if there is a way to do that because I'm not trying 
to push you into moving beyond safety requirements and good 
standards as I am saying, could you just keep working with 
those just a little bit more? I mean, during tight times, I 
don't think we have to end up with a less safe workplace if an 
inspection is every third time or every second time unless 
there is an indication that that's how things become less safe.
    I just--there's a point where it's--there's a tipping 
point. We understand that.
    Ms. Chrisler. Right.
    Senator Nelson. I just want to come as close to the tipping 
point as I can be and as judicious with the taxpayers' dollar 
as I possibly can. That's all I'm asking.
    Ms. Chrisler. And as do we. And we have reached the point 
of that tipping point. We have actually reduced our inspector 
hours. And it's not about the--as I mentioned before--pushing 
inspections back as much as it is having the people to do the 
work. We've reduced our inspection hours to the point where we 
have the equivalent of 1 1/2 contract inspectors doing the work 
that we need to get done.
    So, when we in fiscal year 2011 and fiscal year 2012 went 
back to the drawing board to make those cuts, we've cut and 
we've cut and we've cut. And now we're at the point where 
further cuts would significantly impede the work to be done.
    I was going to say something else. I can't remember what I 
was going to say.
    Just to use my colleague's analogy at the end of the table, 
we've cut through muscle and we've cut to the bone. And any 
further cuts will be cutting limbs at this point. We've cut our 
programs. We've cut our personnel. So, yes, we have been very 
mindful of being judicially responsible with the appropriations 
that we've been given, and we want to continue to do the job 
that we need to do with the least amount of money that we've 
been given.
    And, so, we again can go back to the drawing table because 
there is always more to cut. But at this point we are cutting 
to the point where we won't be able to do the work that we need 
to do.
    Senator Nelson. All right. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    The main question that I have relates to public access and 
any barriers to public access for people with disabilities. I 
guess I'm just wondering, it looks like you're still in the 
process of going through, making that determination. But are 
there new facilities or something that is requiring you to do 
that, or changes in the facilities that requires you to do 
that? Because I would have thought that would have been done. 
So, unless there's some changes, I'm not sure I understand 
exactly why that's necessary.
    Ms. Chrisler. There are areas where it wasn't done and 
there are continual improvements that are being made. And those 
areas need to comply with ADA requirements as well. So, for the 
new construction, yes. For the new improvements that are made 
to the Canon building, the Longworth, and at some point the 
Senate office buildings as well; when those construction 
improvements are made, the resulting space has to meet the ADA 
requirements.
    Senator Hoeven. But wouldn't those ADA requirements be part 
of the new construction? In other words, to have that new 
construction you have to be ADA compliant when you build it. 
So, again, I'm still not quite understanding why you have to go 
back and review it.
    Ms. Chrisler. Right.
    Senator Hoeven. I think that's a requirement when you build 
it, isn't it?
    Ms. Chrisler. Well, sometimes those requirements are met 
and sometimes they're not.
    Senator Hoeven. So, it's going back and evaluating and 
making sure those requirements have been met?
    Ms. Chrisler. You know--yes. And with the construction of 
the CVC, we were brought into the process early, which was 
good, because we didn't have to go back to make the 
corrections. So, allowing OOC to assist and provide the 
technical assistance early in the construction is cost 
effective and it makes a lot of sense. And that's what we work 
with the AOC on. We work collaboratively to make sure
    Senator Hoeven. Excuse me. Is the AOC doing that on the 
front end?
    Ms. Chrisler. We remain in communication with each other 
and we work together to ensure that that's done in every 
instance where it can be done.
    Senator Hoeven. Right. So, if they're doing it on the front 
end, do you still have to go back and review it or not? That's, 
I guess, where I'm getting a little confused here.
    Ms. Chrisler. Well, as I mentioned, we don't always get in 
at the very beginning stages of the construction. Try as we 
might and working as collaboratively as we can, that's not 
always met. When it can be, we're there, like with the CVC, but 
other times we do have to go back and we work and we stay in 
communication with each other and we work as efficiently as we 
can.
    Senator Hoeven. Okay. That's really the only question I 
had, Mr. Chairman.
    Thank you.
    Senator Nelson. Thank you, Senator Hoeven.
    If we put together a process that if you are brought in at 
the front end to make certain that the requirements are all 
there in place and that you expect that they would be followed, 
and then get a certification from the AOC that those have been 
followed to the letter, and you spot-check from time to time, 
not that Mr. Ayers would do anything out of the ordinary, but 
just to make sure that the system is working that way. Could 
that result in perhaps fewer steps in the process?
    We want the process to work. It's got to be a protocol. It 
needs to be consistent. And if it is and everybody feels that 
the risk-based effort is being accomplished, is that a 
possibility?
    Ms. Chrisler. It sounds like a wonderful possibility that 
we could sit down and discuss.
    Senator Nelson. Yes. Well, that's what I'd like to have you 
do. It will put the AOC on the record, which I'm sure he 
wouldn't mind at all.
    No, I understand. You two are working very well together. 
It's a great improvement from when I first took over as 
chairman of this subcommittee, and I tell you what, I really 
appreciate that fact. It works better for all of us. And at the 
end of the day, it's a better system for the people who work 
here and the people who come here and do their business here.
    So, do you have any further comments or questions, closing 
comments?
    Senator Hoeven. Mr. Chairman, I guess the only further 
comment I have is I think we're going to be required to find 
more savings.
    So, I would just encourage you to go through and start 
prioritizing and give serious thought to where we can find some 
more savings. I'm pretty sure we're going to have to do that.

            <greek-l>OOC deg.ADDITIONAL COMMITTEE QUESTIONS

    That being said, you know, I really appreciate the work 
that you're doing, and I think everybody does. You're 
professional. You do an outstanding job. And, you know, we're 
going to do the best job we can working with you on this 
budget. Thanks for coming in today and for your testimony.
    Senator Nelson. I want to thank all of you as well for 
attending today's hearing.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
               Questions Submitted by Senator John Hoeven
                 <greek-l>ooc deg.zero-based budgeting
    Question.. Since each of the agencies within the legislative branch 
were directed to develop and present fiscal year 2013 budget requests 
using a zero-based budgeting approach, I would like to hear from you 
about how this process worked within your agency.
    Was this a helpful process or a hindrance in developing the budget 
request?
    Were you able to find sustainable efficiencies that will result in 
continued savings over time, or one-time only savings?
    Is this a process you will be able to replicate for future budget 
requests?
    Answer. For the last seven appropriations cycles, the Office of 
Compliance (OOC) has utilized a zero-based budget approach to develop 
its annual appropriations requests. Each year, OOC reviews its current 
needs and evaluates whether prior initiatives or projects will continue 
in the next fiscal year to determine the amount of funds necessary to 
meet our mission. This approach allows OOC to develop its budget from 
the ground up, making a thorough assessment of its fiscal needs each 
appropriations cycle and prevents OOC from requesting funding that is 
no longer necessary. Over the years, we have found that this approach 
helps ensure that our appropriations requests are based on a continuing 
assessment of the most efficient ways to support OOC's substantive 
programs and statutory mandates. This process is necessary to ensure 
financial responsibility in developing a budget. Through utilizing the 
zero-based budget approach, OOC has enjoyed savings in the 
administration of the Office, from reduced supply purchases to savings 
on contracts with vendors and interagency agreements. OOC has also 
changed its business practices to increase our use of technology to 
disseminate educational materials and decrease our printing and 
distribution costs. As we have in the past, OOC will continue to 
utilize a zero-based budget approach as we develop future 
appropriations requests.
    <greek-l>ooc deg.voluntary early retirement authority/voluntary 
                      separation incentive payment
    Question.. The Committee provided guidance in the fiscal year 2012 
appropriations legislation that each agency within the legislative 
branch should consider using Voluntary Early Retirement Authority/
Voluntary Separation Incentive Payment (VERA/VSIP) in order to reduce 
salary costs to the agency.
    Were you able to utilize VERA/VSIP authority; and if so, was this a 
successful mechanism for reducing costs?
    Are those savings realized immediately, or in the out-years?
    Realizing that losing people who are eligible for retirement or 
early separation often means losing some of the best and brightest 
people with the greatest institutional knowledge within your 
organization, how have staffing reductions impacted OOC?
    Do you have succession plans in place that allow for a smooth 
transition of responsibilities?
    Answer. Although OOC was authorized to utilize VERA and VSIP 
programs, we were unable to offer these programs to any of our 
employees during fiscal year 2012, given the lack of necessary 
resources. Nor do we forsee a future ability to utilize VERA/VSIP 
authority as a means of reducing costs.
    VERA allows agencies that are undergoing substantial restructuring 
to temporarily lower the age and service requirements of employees in 
order to increase the number of employees who are eligible for 
retirement. The positions from which the employees retire would remain 
vacant, thereby resulting in a cost savings for the agency. VSIP, also 
known as buyout authority, allows agencies that are downsizing or 
restructuring to offer employees lump-sum payments up to $25,000 as an 
incentive to voluntarily separate. The success of both VERA and VSIP 
depend upon the savings incurred from lapsed salary of vacant 
positions. As an agency with a broad mandate, a budget of only $3.17 
million, and an employee complement of only 22 full-time equivalents 
(one of which is held by the Board of Directors), OOC cannot afford the 
personnel and financial costs associated with VERA and VSIP. We are not 
funded at a level where we can offer employees a pay-out to voluntarily 
separate. Nor do we have multiple layers of employees performing 
similar tasks to allow positions to remain vacant: when a position is 
vacant in OOC, the task either does not get completed or our already 
over-extended staff must absorb the additional duties. Practically 
speaking, a vacant position at OOC means forgoing the function of the 
position. Thus, an unfilled position means uncompleted work. 
Uncompleted work means essential services that are not provided.
    In short, given our severely limited personnel and fiscal 
resources, we cannot use VERA/VSIP programs to reduce costs.
    Question. Fiscal year 2013 budget requests. I realize that it is 
important for each agency to request what it believes is necessary in 
terms of funding for operations and projects without knowing how much 
funding will be available in the next budget cycle; however, it should 
be clear to everyone what path we are on given the fiscal situation 
still facing our country. Therefore it concerns me that each agency 
represented here today, except for the Open World Leadership Center, 
requested a budgetary increase for fiscal year 2013.
    What would be the impact to each of your agencies if you were held 
to the fiscal year 2012 enacted level of funding?
    What would be the impact of a reduction less than the fiscal year 
2012 funding level?
    At what funding level reduction could OOC no longer continue to 
provide the services you are required to provide without making 
significant changes to OOC and its mission?
    Answer. In responding to your questions regarding OOC's fiscal year 
2013 budget request, let us briefly give an overview of our statutory 
mandate.
                    <greek-l>ooc deg.agency overview
    The Congress established the Office of Compliance as an independent 
agency of the legislative branch to administer the Congressional 
Accountability Act (CAA).
<greek-l>OOC deg.Confidential Dispute Resolution Program
    The Confidential Dispute Resolution program provides advice, 
information, confidential counseling and mediation, administrative 
hearing and appellate review services to employing offices and 
employees of the Legislative Branch. The demand for OOC services is 
driven by the needs of the covered community; delivery of these 
services is not discretionary, and must be provided in accordance with 
our statutory mandate and the strict timelines set forth in CAA.
<greek-l>OOC deg.Education and Outreach Program
    Section 301(h) of CAA requires an education and outreach program to 
educate Members, agencies, and staff about their obligations, rights, 
and liabilities under the CAA and how to resolve workplace rights 
disputes through OOC's confidential processes. OOC implements this 
mandate by providing informational seminars and creating and 
distributing educational materials to employers and employees about 
statutory rights and responsibilities in the congressional workplace, 
such as posters, brochures and statistical reports about harassment, 
discrimination, disability, and veterans' rights, and family and 
medical leave. In addition, CAA requires the annual distribution of 
educational materials to home addresses of all employees. OOC 
previously sent an annual newsletter but now provides just a one-page 
notice of rights in order to reduce expenses. The notice of rights has 
been highly effective in educating employees about their rights and we 
have received positive feedback from Members who also have had 
questions about their obligations as employers.
    OOC also works with various agencies and both chambers of the 
Congress to provide educational resources and training at their 
request. These employers ask for this training not only to inform 
employees and managers about the law, but also to improve the workplace 
environment and to prevent workplace strife, embarrassing publicity, 
and costly litigation, which is ultimately paid for by taxpayers.
<greek-l>OOC deg.Safety and Health
    Under the Occupational Safety and Health (OSH) Act provisions in 
section 215(e) of CAA, OOC is charged with conducting inspections of 
legislative branch facilities at least once each Congress. The Office 
of the General Counsel of OOC is responsible for administering certain 
provisions of the OSH Act, the public access provisions of the 
Americans with Disabilities Act (ADA), and the unfair labor practice 
provisions of the Federal Service Labor-Management Relations Act that 
were adopted by CAA and apply to most legislative branch employees.
    After receiving increased funding for OSH inspectors in fiscal year 
2006, OOC was able for the first time to conduct comprehensive wall-to-
wall inspections of all facilities on Capitol Hill (other than district 
or State Member offices); consequently, during the 110th Congress, we 
were able to inspect more than 96 percent of the 17 million square feet 
occupied by legislative branch offices in the metropolitan Washington, 
DC area. Similarly, 96 percent of nearly 18 million square feet was 
inspected during our 111th Congress inspections. These comprehensive 
inspections led to a substantial reduction in the number of serious 
hazards in legislative branch workplaces, from 13,141 in the 109th 
Congress to 5,400 in the 111th Congress.
            <greek-l>ooc deg.confidential dispute resolution
    Question. What would be the impact to each of your agencies if you 
were held to the fiscal year 2012 enacted level of funding?
    Answer. Since fiscal year 2010, the confidential dispute resolution 
program has had a steady reduction in funding. To meet these reduced 
funding levels, OOC has had to modify how it delivers services. For 
example, in fiscal year 2011, because of reduced resources for contract 
mediators and as a cost-savings initiative, OOC managers (who are 
trained in conducting mediations) took on the additional task of 
mediating a large number of cases. To further reduce expenditures, OOC 
restructured fiscal year 2012 vendor contracts in a manner which will, 
in effect, limit the time available in mediation to resolve conflicts 
voluntarily and confidentially. OOC also reduced the rate it pays to 
independent hearing officers.
    The current funding levels do not permit OOC to update or replace 
its rudimentary case management system. The current case management 
system was obtained to replace a rapidly failing and unsupported system 
that was supposed to manage case docketing and correspondence with 
parties in dispute resolution proceedings. It was also anticipated that 
this system would generate mandated annual statistical reports. The 
funds available at the time we procured the system were minimal, so the 
system we were able to procure only met the minimal needs of OOC. The 
continued lack of funding has made it impossible for OOC to afford the 
updates necessary to fully develop the system, especially to retrieve 
reliable reporting, trending, and cost information. This information 
would be used to support our reporting mandate, for educating the 
covered community, and for continuous review of expenses to enable OOC 
to engage in necessary cost-cutting measures.
    OOC has had to defer maintenance on noncritical operations for 
several years. We have been unable to purchase adequate office 
supplies, including materials needed to properly store or destroy 
records, resulting in overcrowding and reduced efficiency in our core 
operations areas, and necessitating time-consuming workarounds. There 
has been insufficient funding for counselors and legal staff to receive 
the continuing education needed to remain current with the developing 
law in this area; staff have had to pursue this education on their own. 
Current funding levels also prevent OOC from moving to an electronic 
filing system that would create efficiencies at all levels--for OOC and 
the parties who utilize its services.
    Continued funding at the fiscal year 2012 level will perpetuate 
insufficiencies in basic OOC operations. It will require OOC to 
continue to perform its dispute resolution mandate with inadequate 
staffing, equipment, and supplies, and extend the practice of regularly 
taking employees away from their core function to perform additional 
duties, further constraining OOC's ability to perform its mission. 
Continued reduction in fees for mediators and hearing officers creates 
the possibility of losing and not being able to replace talented 
professionals. Consequently, OOC runs the risk of not having a 
sufficient pool of qualified experts available to handle all the needs 
of the covered community, including confidential adjudication of staff 
claims against Member offices, leading to frustrated employees seeking 
resolution through the media.
                <greek-l>ooc deg.education and outreach
    Over the course of the last 2 fiscal years, OOC cut its educational 
and outreach program budget by 46 percent. Under its current fiscal 
year budget, OOC has allotted $30,000 to educate and provide outreach 
services to agencies, Members of Congress, and 30,000 employees 
nationwide; that amounts to $1 per employee comprehensively for our 
education and outreach services. These funds are insufficient and have 
not allowed OOC to provide basic programs needed to educate the 
congressional community.
    Because of budget cuts, OOC has not been able to maintain a 
technologically current Web site. OOC's Web site receives 3,000 visits 
per month. The site is aging and becoming outdated, and does not 
contain current Wordpress 3.3 technologies that would enhance its 
functionality and reduce its service costs.
    Requests for new training and seminars continue to increase in 
fiscal year 2012. OOC has received numerous requests from employers 
(e.g., Office of the Architect of the Capitol, United States Capitol 
Police, United States Commission on International Religious Freedom), 
labor unions, and employees to provide training on family and medical 
leave requirements, how to handle reasonable accommodation requests for 
employees with disabilities, effective internal mediation processes for 
employment disputes, and harassment prevention. Under current budget 
conditions, OOC will not be able to address most of these needs. 
Producing effective training programs requires significant time for 
preparation and research by OOC staff. Where appropriate, tailoring 
materials to each particular workplace may be necessary. OOC's current 
resources will not support this service. Furthermore, effective 
training courses often require the use of instructive videos that 
provide visuals and situational scenarios. OOC's budget will not allow 
for the purchase of these videos.
    One of the most efficient, broad-reaching, and cost-effective ways 
to provide training to the Congress and its workforce is through online 
resources. OOC has been researching ways to provide online training 
courses not just for agencies, but also for Member offices so that 
chiefs of staff and other managers can properly address important 
issues, such as family and medical leave and how to prevent harassment 
in the workplace. OOC does not have sufficient funding to provide 
online resources as part of our education and outreach program.
                   <greek-l>ooc deg.safety and health
    In response to the continuing reductions to OOC budget commencing 
in fiscal year 2011, OOC has substantially cut the scope of its safety 
and health and ADA public access programs mandated by CAA by, among 
other measures, reducing safety and health inspector hours; reducing 
and limiting constituent-requested ADA inspections; delaying and 
limiting investigations of employee requests for safety and health 
inspections and constituent requests for inspections of barriers to 
public access under the ADA; and discontinuing requested technical 
assistance to employing offices, except in very limited circumstances. 
In response to further cuts in fiscal year 2012, we continued to reduce 
services and laid off a staff attorney whose work was principally 
related to fire and life safety conditions on Capitol Hill. During 
fiscal year 2012, OOC anticipates being able to inspect most high-
hazard workplaces, but only some high-risk operations. We have had to 
cut back inspections of safety procedures and programs mandated by CAA 
by limiting our reviews to two programs and not inspecting others such 
as lockout/tagout programs addressing hazards relating to maintenance 
of machines, electrical repairs, and other operations. These safety 
programs are designed to provide protections to employees engaged in 
higher-risk operations. Further, shortly after the beginning of the 
112th Congress, OOC no longer had sufficient resources to inspect 
almost all offices and administrative spaces, including Member offices; 
the only offices we have inspected or will inspect during this Congress 
are located in the remaining Page Schools, the Library of Congress 
Taylor Street facility for the blind, National Library Service for the 
Blind and Physically Handicapped, and a limited number of areas of 
special emphasis. We expect this trend to continue in fiscal year 2013 
if funded at the fiscal year 2012 level.
    The reduced level of funding in fiscal year 2011 and again in 
fiscal year 2012 has required us to substantially reduce the number and 
scope of our inspections. Although to date our high-risk priority 
approach to inspections has successfully identified and led to the 
correction of many serious hazards, we anticipate that by the end of 
fiscal year 2012, we will only be able to inspect roughly 25 percent of 
the nearly 18 million square feet in the Washington, DC metropolitan 
area. Consequently, 13.5 million square feet will not be inspected in 
the current fiscal year, as well as in fiscal year 2013, if funding 
levels remain the same. ADA public access inspections most likely would 
have to be eliminated or reduced significantly, notwithstanding CAA 
requirements.
    Several recent studies have shown that Federal OSHA inspections 
reduce actual injuries in manufacturing facilities by roughly 20 
percent in the 2 years following the inspection.\1\ Unlike the 
Occupational Safety and Health Act, CAA does not require employing 
offices to record or report injury statistics. Thus, we are unable to 
determine whether or to what degree our inspections have reduced 
occupational injuries in the legislative branch. We can, however, 
report a parallel and significant reduction in identified hazards once 
OOC commenced comprehensive wall-to-wall inspections in all Capitol 
Hill covered facilities during the 110th Congress: from 13,141 hazards 
in the 109th Congress to 5,400 in the 111th Congress. In establishing 
CAA and safety and health requirements, the Congress thought that these 
inspections should be conducted once every 2 years. Thus, delaying 
inspections, as was discussed at the March 1, 2012 appropriations 
hearing before the Senate subcommittee, could have a detrimental impact 
on the safety and health of legislative branch employees.
---------------------------------------------------------------------------
    \1\  Haviland et al., ``Are there Unusually Effective Occupational 
Safety and Health Inspectors and Inspection Practices?'', RAND Working 
Paper March 2012, http://www.rand.org/content/dam/rand/pubs/
working_papers/2012/RAND_WR914.pdf; Gray et al., ``Does Regulatory 
Enforcement Work? A Panel Analysis of OSHA Enforcement, Law and Society 
Review'', 1993,27:177-213.; Mendeloff et al., ``The Declining Effects 
of OSHA Inspections in Manufacturing, 1979-1998, Industrial and Labor 
Relations Review, 2005'', 58:571-586; Haviland, et al. ``What Kinds of 
Injuries Do OSHA Inspections Prevent?'', Journal of Safety Research, 
2010, 41:339-345; Burns et al., ``A New Estimate of the Impact of OSHA 
Interventions on Manufacturing Injury Rates, 1998-2005'', American 
Journal of Industrial Medicine, 2011.
---------------------------------------------------------------------------
    In light of the above studies, OOC would be remiss in doing 
anything other than what CAA requires, that is, to inspect such 
workplaces at least once each Congress. Yet, due to budget cuts, we 
have been unable to inspect fully many operations that potentially 
could cause serious injury or illness. There are many high-risk spaces 
and operations (e.g., machine shops, electrical transformer rooms, the 
Capitol Power Plant) that we have been unable to inspect fully. We are 
concerned that areas not inspected will return to the unsafe conditions 
in which we found them in the 109th Congress.
    In past years, we have conducted both OSH and ADA pre-inspections 
before a new facility opened; in the Capitol Visitor Center, we 
identified hundreds of conditions that were not consistent with OSH and 
ADA standards. The pre-inspection enabled correction of these 
deficiencies before the facility was opened to the public, thereby 
avoiding potential disruption to visitors and employees. Further, by 
identifying conditions that do not comply with OSH and ADA requirements 
before the work is approved by the Government's project manager, the 
contractor who is at fault--not the Government--can be required to 
absorb the cost of remedying such conditions. The former FDA building 
is scheduled to open in fiscal year 2013; absent sufficient resources 
more than our fiscal year 2012 funding level, OOC will be unable to 
conduct a pre-inspection of this facility or areas in other existing 
facilities that are continuously undergoing construction or renovation 
where compliance with new ADA standards is required.
    With level funding in fiscal year 2013, OOC would be unable to 
restore any of the services previously discontinued, including 
technical assistance, which currently is strictly limited to requester-
initiated inspection cases and in the course and scope of the limited 
biennial inspections we are currently able to conduct. Investigation of 
employee requests for safety, health and ADA inspections could be 
further delayed; in fiscal year 2011, those requests involved serious 
hazards such as malfunctioning fire alarms, delayed emergency 
evacuation of people with disabilities, and improper handling of 
asbestos-containing materials, among others.
            <greek-l>ooc deg.confidential dispute resolution
    Question. What would be the impact of a reduction less than the 
fiscal year 2012 funding level?
    Answer. The program cannot withstand further reductions. A 
reduction less than fiscal year 2012 funding levels would severely 
obstruct the mission of OOC which, by law, must provide confidential 
dispute resolution services to the covered community. OOC has 
consistently sought funding necessary to ensure that it could meet the 
needs of its constituency. Despite that, the dispute resolution 
program's funding level in fiscal year 2012 is approximately 20 percent 
less than what it was in fiscal year 2010. Further, reductions would 
endanger the core function of this mandated program, leaving it without 
the resources to make necessary updates to its docketing and reporting 
system, to continue to provide the covered community with sufficient 
mediation services, to maintain the pool of quality jurists who ensure 
fair administrative hearings, and to maintain current staffing levels. 
Continuing reductions in funding could very well lead to a reduction or 
even a denial of mandated services.
    A further reduction in funding levels will negatively impact the 
dispute resolution program's basic operations of managing the docket, 
generating reports and providing confidential counseling. It will 
jeopardize OOC's ability to provide timely and confidential mediation 
and hearing processes for employees and employing offices who request 
needed services. Mediators' contracts cannot be reduced any further and 
should we be required to make additional cuts to hearing officers' 
contracts, we risk losing experienced, respected judges. If OOC is 
forced to suspend administrative hearings, or forgo written transcripts 
of hearings, employees may elect to take their complaints to the media 
or to Federal court rather than avail themselves of OOC's confidential 
hearing process. Utilizing a public forum to resolve employment 
disputes often drags the process out and increases costs. Any public 
exposure could adversely impact Members and the lives of employees 
seeking redress, and disrupt the operations of employing offices.
                <greek-l>ooc deg.education and outreach
    Further reductions to our education and outreach program will force 
OOC to decline all newly requested training and to pare down current 
training. Depending on the size of the cut, OOC may also have to 
terminate the notification of rights mailing to employees, which 
consumes approximately 30 percent of our education and outreach budget. 
Eliminating this mailing would be detrimental to the services provided 
to Members and their staff because the notification of rights is the 
most effective means OOC has to provide direct and basic information 
about CAA to the congressional workforce. The notification was created 
in response to a recent baseline survey conducted by the Congressional 
Management Foundation at the request of OOC, which found that most 
congressional employees had limited-to-no knowledge of their workplace 
rights or of OOC. See fiscal year 2009 OOC ``Annual Report, State of 
the Congressional Workplace'', p. 38. This mailing is an essential part 
of our outreach mandate. Indeed, in fiscal year 2010 congressional 
stakeholders asked OOC to work with one of its oversight committees to 
increase its education and outreach efforts, because CAA is most 
effective when all are educated on the laws and the protections that 
govern the Congressional workplace. Receiving cuts to our already-
underfunded program would be ruinous to this effort.
                   <greek-l>ooc deg.safety and health
    In view of the effects of previous funding reductions on our 
programs, further reduction from the fiscal year 2012 level would be 
devastating to OOC's safety and health and public access work. Still 
more layoffs would be inevitable. OOC does not have backup staff with 
the time and technical expertise to perform work on an extended basis 
for someone who has been laid off. Consequently, OOC would be incapable 
of meeting its very specific statutory obligations. This Office 
currently has a reduced complement of inspectors to perform all 
biennial and requested OSH and ADA inspections: one full-time and two 
part-time OSH inspectors and one full-time inspector whose time is 
divided between part-time ADA and occasional OSH inspection duties as 
well as administrative/technical responsibilities in support of both of 
these programs. A reduction less than fiscal year 2012 levels would 
mean that more legislative branch facilities would go uninspected for 
safety and health hazards. With a further budget-driven reduction in 
inspector resources, OOC would no longer have the time and variety of 
specialized technical experience necessary to conduct inspections of 
employing office safety and health procedures and programs, or the 
inspections of high-hazard workplaces, such as the Capitol Power Plant. 
Like attorneys and physicians, inspectors do not possess specialized 
expertise in every aspect of safety and health. The loss of needed 
expertise through further reduction in our inspector complement would 
have significant detrimental effects on our program and on the health 
and safety of the legislative branch workforce as a whole. Barriers to 
public access for people with disabilities would likewise go 
unidentified and unremedied. We would no longer be able to process all 
requests by employees for OSH and ADA inspections, and there would be 
further extended delays for some inspections. Technical assistance 
would be further reduced if not eliminated.
    Successful inspections depend on a level of collaboration and 
communication between OOC and the employing offices. This approach has 
greatly reduced the friction often observed between regulators and the 
regulated in other venues. Instead of issuing citations whenever a 
finding is identified, as is done in the private sector, OOC General 
Counsel ordinarily issues hazard findings that may be contested by the 
employing office. If this does not succeed in achieving an agreement to 
abate the hazard, a citation may then be issued, followed by a 
complaint. This pre-citation procedure fosters greater cooperation in 
most instances, but it is a voluntary procedure not required under CAA 
or OSH Act. OOC has also instituted various practices and procedures to 
foster better communications respecting OSH and ADA inspections, 
findings, abatement, and enforcement actions.
    These voluntary efforts by OOC are very time and resource 
intensive. Consequently, further reduced resources might force OOC to 
adopt a less labor-intensive, more enforcement-focused regimen, 
including unannounced inspections and more frequent use of citations 
rather than hazard findings to expedite hazard abatement.
    Question. At what funding level reduction could OOC no longer 
continue to provide the services you are required to provide without 
making significant changes to OOC and its mission?
            <greek-l>ooc deg.confidential dispute resolution
    The confidential dispute resolution program cannot withstand 
further reductions in funding. The program can no longer defer basic 
maintenance on essential systems, equipment and services such as its 
case management system, computer, and teleconferencing equipment, 
without jeopardizing its operations. OOC has no discretionary programs 
from which it can reallocate funds in order to support its core 
services and no functional redundancies to sustain any further cuts in 
staffing or with contract mediators and hearing officers. Once we cut 
employees or contractors, there is no one else to perform their jobs on 
a continuing basis. OOC has already modified the delivery of its core 
services by assigning managers with prior training in mediation to take 
on the additional responsibility of mediating cases that OOC cannot 
fund for mediation by independent professionals. Although this has 
worked on an interim basis, it is not the best or most efficient 
practice. It drains essential staff resources, which already are at a 
bare minimum. Using independent mediators ensures that parties have 
full access to those services when needed. The current status of 
resources has constrained OOC from performing at an optimal level. Any 
additional reductions in funding of this small agency will further 
undermine the effectiveness of our dispute resolution program and will 
likely result in employees seeking another forum in which to address 
their employment disputes--in the media or in court--rather than 
through OOC's confidential processes.
                <greek-l>ooc deg.education and outreach
    Any cuts less than the fiscal year 2012 funding would prevent OOC 
from providing education and outreach services as required by CAA. As 
explained above, this program has received a 46-percent reduction since 
fiscal year 2010; further cuts would erode OOC's ability to educate 
employees and it would feed a common misperception that the Congress 
does not want legislative branch employees to be informed about their 
rights.
                   <greek-l>ooc deg.safety and health
    Even absent further funding reductions in fiscal year 2013, OOC is 
no longer providing the services we need to meet our mission under CAA. 
We have already made significant changes to improve the efficiency of 
OOC's operations and adjusted and reduced the scope of our programs. 
Previous budgets prevented us from renewing the contracts for two 
inspectors and forced us to reduce hours of current contract 
inspectors, which has already significantly impaired our ability to 
provide necessary safety and health and ADA services to the legislative 
branch. Any additional cuts would force OOC to further reduce and/or 
eliminate still more statutorily-required services. Given that Capitol 
Hill remains one of the biggest targets for terrorist acts, our 
inability to enforce safety laws through comprehensive workplace 
inspections would prevent us from ensuring clear emergency exit paths 
and from ensuring fire-protection containment.
    While we would continue to perform our responsibilities to the 
extent we were able, in reality, we would betray the vision of those 
Members of Congress who, with but one dissenting vote, approved the 
creation of OOC and its mission to assure a safe workplace, provide 
accessibility to programs and facilities to individuals with 
disabilities, and guarantee workplace rights in the legislative branch.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The subcommittee will stand in recess until 
2:30 p.m. on March 15, 2012, when we'll meet in room SD-138 to 
take testimony on the fiscal year 2013 budget requests of the 
Government Accountability Office, the Government Printing 
Office, and the Congressional Budget Office.
    With that, we stand in recess. Thank you.
    [Whereupon, at 4 p.m., Thursday, March 1, the subcommittee 
was recessed, to reconvene at 2:30 p.m., Thursday, March 15.]

</pre></body></html>
